<html>
<title> - EARTHQUAKE MONITORING, RESEARCH, AND PREPARATION</title>
<body><pre>[Senate Hearing 109-1117]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1117
 
                   EARTHQUAKE MONITORING, RESEARCH, 
                            AND PREPARATION

=======================================================================

                             FIELD HEARING

                               before the

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 18, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                  U.S. GOVERNMENT PRINTING OFFICE
64-485                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c7a0b7a887a4b2b4b3afa2abb7e9a4a8aae9">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

                  JIM DeMINT, South Carolina, Chairman
TED STEVENS, Alaska                  E. BENJAMIN NELSON, Nebraska, 
GORDON H. SMITH, Oregon                  Ranking
DAVID VITTER, Louisiana              MARIA CANTWELL, Washington
                                     BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 18, 2006...................................     1
Statement of Senator Boxer.......................................     2
    Prepared statement...........................................     4
Statement of Senator DeMint......................................     1

                               Witnesses

Brooks, Harold W., President/CEO, American Red Cross--Bay Area...    11
    Prepared statement...........................................    13
Cluff, Lloyd S., Director, Geosciences Department and Earthquake 
  Risk Management Program, Pacific Gas and Electric Company 
  (PG&E); Chairman, Scientific Earthquake Studies Advisory 
  Committee (SESAC)..............................................    16
    Prepared statement with attachments..........................    18
Conroy, Annemarie, Executive Director, Office of Emergency 
  Services and Homeland Security, City and County of San 
  Francisco......................................................    52
    Prepared statement...........................................    56
Vannucchi, James M., Captain, San Francisco Fire Department 
  (SFFD) and Director, San Francisco Firefighters Union--Local 
  798............................................................    59
    Prepared statement...........................................    61


                   EARTHQUAKE MONITORING, RESEARCH, 
                            AND PREPARATION

                              ----------                              


                        TUESDAY, APRIL 18, 2006

                               U.S. Senate,
        Subcommittee on Disaster Prevention and Prediction,
        Committee on Commerce, Science, and Transportation,
                                                 San Francisco, CA.
    The Subcommittee met, pursuant to notice, at 10:24 a.m. at 
the Moscone Convention Center North, Esplanade Level Room 133, 
Hon. Jim DeMint, Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Good morning. This hearing of the Disaster 
Prevention and Prediction Subcommittee will now come to order.
    I want to thank all of you for being here, particularly my 
colleague, Senator Boxer, and all of our witnesses. The 
Subcommittee hearing today is to review preparation for a 
potential and likely major earthquake here on the West Coast. 
Contrary to some reports, those of us who live on the East 
Coast do not want California to fall into the Pacific Ocean. If 
we can be a part of preparation, we would like to be.
    Last summer with Katrina, and in 1906 with the major 
earthquake here, we have seen that disasters can have a major 
impact on major American cities. Unfortunately, there is not 
enough appreciation of how bad this could be, particularly with 
the earthquake that we're discussing today.
    This slide here just begins to give us some indication of 
the projected property loss which would be staggering. Thirty-
four billion dollars in San Francisco; $28 billion in Santa 
Clara County; $26 billion in other counties; $15 billion in 
Alameda County. And the next slide.
    The economy of the region would be crippled. Seven to 
10,000 commercial buildings closed. It's unclear how quickly it 
would be before the Bay Area economy would be back up and 
running. And of 250,000 households, some 400,000 people could 
be displaced. At least 40,000 people, perhaps even a hundred 
thousand, could be homeless and need public shelter. This would 
severely strain the sheltering capacity in the immediate 
aftermath of the quake.
    The recovery costs would be phenomenal. Rebuilding the 
region could come at a price tag that could reach $150 billion. 
All of this assumes that there would be no fires following the 
quake.
    While a quake today probably wouldn't be as bad as 1906, 
because of a lot of preparation that has taken place, it is 
very likely that there will be some fires following a major 
quake. And these fires could only add to the cost. Worst of 
all, some estimates indicate that there could be as many as 
3,400 fatalities associated with the quakes.
    Now the facts serve to highlight how important it is that 
everyone be prepared. These slides show that a quake in San 
Francisco could be just as devastating as Katrina was to New 
Orleans. Proper preparation will be as important here as it 
should have been for Katrina.
    Individuals can protect themselves from a lot of the 
threats posed by earthquakes. In the Northridge Quake, 55 
percent of the quake-related injuries were caused by falling 
objects, such as televisions, pictures, and mirrors, and heavy 
light fixtures. People can cheaply and effectively secure these 
items and protect their families. A lot of injuries are 
preventable.
    Organizations in the region appreciate the importance of 
educating people in the region and have sent out--and I'm sure 
a lot of you have seen this, ``Putting Down Roots in Earthquake 
Country'' with a lot of helpful hints in getting prepared for a 
potential quake.
    The report outlines seven steps individuals can take to 
protect themselves. If individuals take the steps outlined in 
the booklet, and if local first responders are effectively 
equipped, many more lives can be saved.
    Again, I want to thank my witnesses who we will introduce 
in a minute, but I'll now ask Senator Boxer for her opening 
statement.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman. Welcome to 
our beautiful California. We're so happy that the weather is 
cooperating with your visit. And we are so happy to hear you 
talk about how much you want to help us as we look ahead.
    A hundred years ago, at 5:12 a.m., a small earthquake was 
felt in the San Francisco Bay Area. But, 30 seconds later, a 
7.9 magnitude earthquake struck for an entire minute. The 
length of the rupture was 290 miles.
    On this Centennial Anniversary we must remember the 3,000 
lives that were lost in the severe destruction, the 225,000 
people left homeless, and the $400 million in damages. Mr. 
Chairman, you, by your presence here and through this 
subcommittee are ensuring that we don't forget.
    On this day we must also look at how far we've come since 
that tragic day, and how far we still have to go when it comes 
to earthquake preparedness.
    I want to thank the San Francisco Chronicle for their 
special edition that they put out today. I don't know if you've 
had the opportunity to see it, but it really, I think, keeps 
this issue front and center. By making the earthquake in 1906 
come alive again for all of us so that we don't forget the 
challenges that we face.
    When the big quake struck, San Francisco had 400,000 
residents and the Greater Bay Area had 650,000 residents. 
Compare that to today. The Bay Area now has seven million 
residents. Imagine the devastation of another huge earthquake 
on our region.
    Although earthquakes can't be predicted like hurricanes, 
the USGS estimates that there's a 62-percent likelihood that at 
least one earthquake of 6.7, or greater, will occur in the San 
Francisco Bay Area before 2032.
    You and I know, Mr. Chairman, that it is imperative that we 
not put our head in the sand, that we really be prepared. Since 
I went to Congress, and that was a very long time ago, 1982 was 
when I was first elected, there have been many earthquakes in 
our state. There was the San Simeon, the Diablo Canyon, and one 
in Napa Valley.
    But I want to highlight for you, Mr. Chairman, and for our 
guests here today two California earthquakes that required a 
major Federal response.
    The Loma Prieta in the Bay Area in 1989, and Northridge in 
the Los Angeles region in 1994. The reason I wanted to 
highlight those in my brief time this morning is that the 
response were quite different. And I would ask unanimous 
consent that my entire statement be placed in the record.
    Senator DeMint. Without objection.
    Senator Boxer. But I'll just summarize what happened.
    In Loma Prieta, many people will never forget this 
earthquake, because it was televised right before game three of 
the World Series at Candlestick Park. I personally will never 
forget it because my husband was at that game, and we couldn't 
get in touch with each other. It was a horrifying experience, 
although it turned out well for us it didn't turn out well for 
everyone else.
    The epicenter was near the Loma Prieta Peak in the Santa 
Cruz Mountains. I want to show you, Mr. Chairman, if I could 
beg your indulgence----
    Senator DeMint. Sure.
    Senator Boxer.--a couple of charts that illustrate some of 
the damage that we experienced. And the famous one--I'll show 
the Chairman--the bridge just collapsing right in the middle. 
OK. Let's show the others. Here it is again. This is the Bay 
Bridge.
    Mr. Chairman, just a couple of hours before that, perhaps 
two--I don't know exactly; somebody can correct me--all the 
people were going to the game across that particular bridge.
    Here are some more scenes. The Marina District, beautiful 
homes just crumbling. And we have one more. Thank you, Laurie. 
Here's another view of our Marina District.
    At that time the Loma Prieta Earthquake was the most 
expensive natural disaster in U.S. history with $6 billion in 
property damage. There was a Federal relief package of $3.45 
billion.
    But, I just want to say, without going into details because 
there's no point in reliving this, that the response of FEMA 
was inadequate at best, and a lot of people thought it was 
worse than inadequate.
    Paul Cobb, then President of the Oakland Urban Renaissance 
Society, said, ``FEMA is understaffed and in disarray.''
    We had Congressional hearings. At the hearing, Oakland 
Mayor Wilson told the panel how FEMA had dispatched only one 
agent, Mr. Chairman, to handle the thousands left homeless in 
Oakland. So we knew we didn't do well.
    And I have to say that the Congress and everybody worked 
very hard to change things. And when we were hit with the 
Northridge Earthquake things got a lot better. Why? Because 
there was a plan in place, and there was a feeling of who was 
responsible for what and things were much better. All this is 
in my statement.
    For example, the L.A. Times' editorial published 1 week 
after Northridge said, ``For victims speed is of the essence. 
Federal Disaster Agency is overwhelmed but undaunted.'' It 
would have been nice to have something like that in the recent 
Katrina experience.
    So we have leadership, Mr. Chairman. We can do this if 
we're ready. We all know that the House held hearings on the 
response to Katrina, and the House Republicans issued a very 
strong condemnation of FEMA. They said, ``We're just not ready 
for prime time.''
    And, as you know, your presence here indicates we have to 
be ready for prime time. I won't go over the Katrina response 
problems. They'll be in my statement. I certainly hope and pray 
that California is not the next disaster. We surely need 
leadership at the Federal level.
    Let me just give you, in closing, a couple of ideas that I 
have, and I hope maybe we can work together on. We need to have 
a plan from FEMA. FEMA had predicted three terrible things 
would happen: A terrorist attack in New York, a hurricane in 
New Orleans, and then an earthquake in San Francisco. They've 
gotten that part right, two out of three. We've been warned, 
and we need to see the Federal Government's response plan.
    And it doesn't take that much effort, it seems to me, to 
make sure that the Federal Government is ready, willing, and 
able to do everything to augment the state and local response. 
If the State and local people can act to move into leadership 
positions, and then in the rebuild have disaster centers where 
you have everything in one place for the people who need to 
rebuild; that's one thing.
    The other thing is a little more controversial. And that 
is, I really do think we ought to make FEMA an independent 
agency and take it out of Homeland Security. I just feel it has 
lost its way. And that's another idea that I have.
    So I'm anxious to work with you. And you may have other 
ideas. But, we will work together, I'm sure, across party lines 
to get this country prepared. Again, I thank you and I welcome 
you.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California

    Mr. Chairman, I want to thank you for holding this hearing on the 
current state of earthquake monitoring, research, and preparation in 
the United States on the 100th anniversary of the 1906 quake.
    One hundred years ago today at 5:12 a.m., a small earthquake was 
felt in the San Francisco Bay Area. Thirty seconds later, a 7.9 
magnitude earthquake struck for an entire minute. The length of the 
rupture was 290 miles.
    On this Centennial Anniversary, we must not only remember the three 
thousand lives lost in the severe destruction, the 225,000 people left 
homeless and the $400 million in damages.
    On this day we must also look at how far we have come since that 
tragic day, and how far we still have to go when it comes to earthquake 
preparedness.
    When the big quake struck in 1906, San Francisco had 400,000 
residents and the greater Bay Area had 650,000 residents.
    Compare that to today--the Bay Area has 7 million residents. 
Imagine the devastation of another 7.9 magnitude earthquake on the 
region.
    Although earthquakes cannot be predicted like hurricanes, the U.S. 
Geological Survey estimates that there is a 62 percent likelihood that 
at least one earthquake of 6.7, or greater, will occur in the San 
Francisco Bay Area before 2032.
    Therefore, it is imperative that both the Federal and state 
governments be ready to respond in the aftermath of a major earthquake 
in California.
    Since I have been in Congress, there have been numerous 
earthquakes--including the San Simeon earthquake near the Diablo Canyon 
nuclear power plant and one in Napa Valley.
    But today I want to highlight two California earthquakes that 
required a major Federal response: Loma Prieta in the Bay Area in 1989, 
and Northridge in the Los Angeles region in 1994.
    The experiences surrounding these two earthquakes and their 
respective aftermaths demonstrate the difference it makes when we have 
a prepared Federal Government.
    The 6.9 magnitude Loma Prieta earthquake was the most devastating 
California has seen since 1906. Many people remember this earthquake 
because it was televised right before game three of the World Series at 
Candlestick Park.
    Its epicenter was near the Loma Prieta peak in the Santa Cruz 
Mountains. These charts illustrate some of the damage.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    At the time, the Loma Prieta earthquake was the most expensive 
natural disaster in U.S. history with $6 billion in property damage. 
There was a Federal relief package of $3.45 billion.
    However, FEMA's response was described by many local officials at 
the time as chaotic, overly bureaucratic, and even arrogant.
    Six weeks after the earthquake, FEMA had given out only $11 million 
to 6,300 applicants--even though 55,000 Californians had applied for 
aid. So 6 weeks later, nearly 50,000 people were still waiting for 
assistance, leaving many families homeless.
    Paul Cobb, then-President of the Oakland Urban Renaissance Society 
said, ``FEMA is understaffed and in disarray . . .''
    Six months after the Loma Prieta earthquake, a Congressional 
hearing was held to review the response of Federal agencies.
    At the hearing, Oakland Mayor Lionel Wilson told the panel how FEMA 
had dispatched only one agent to handle the thousands left homeless in 
Oakland, and the individual had no idea how to deal with the disaster.
    So not only was there anecdotal evidence attesting to FEMA's poor 
response to the Loma Prieta quake, but the General Accounting Office 
found that FEMA did not have enough staff and guidance on Federal 
reimbursement. GAO also found that 2 years after the earthquake FEMA 
still had major outstanding funding decisions.
    By the time the 6.7 magnitude earthquake struck Northridge in 1994, 
FEMA had learned from its mistakes.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    According to Shirley Svorny, Director of the San Fernando Valley 
Economic Research Center at Cal State Northridge, ``The recovery from 
the Loma Prieta earthquake took considerably longer (than Northridge) 
because Federal assistance was much slower in coming.''
    Federal assistance is crucial to getting people and the economy 
back on its feet.
    Colorado State University Professor of Economics Hal Cochrane 
studied the impact of the Federal Government's assistance after 
Northridge on the Los Angeles economy. Professor Cochrane determined 
that without the Federal response, the region's economy would have 
experienced a $13.41 billion loss, rather than a $9.21 billion gain.
    But of course, it's not just about economics. It's about leadership 
and hard work.
    I want to read to you from a Los Angeles Times editorial published 
one week after the Northridge quake titled ``For Victims, Speed is of 
the Essence; Federal Disaster Agency is Overwhelmed but Undaunted.''
    The editorial said, ``From the start, compassionate disaster 
officials led by FEMA Director James Lee Witt zeroed in on the most 
vulnerable families.''
    The editorial also gave credit to the rest of the Clinton 
Administration's emergency response team for getting to California in a 
hurry.
    The editorial said, ``Along with dedicated--and at times 
exhausted--state, county, and city officials, FEMA opened the first 
disaster assistance centers 3 days after the quake . . . Good start.''
    If we didn't learn the importance of solid leadership and 
coordinated response from Northridge, then we surely have learned it 
from the Federal Government's disastrous response to Hurricane Katrina.
    The evidence was clear from the television images of New Orleans 
residents suffering in the Superdome, and standing on rooftops waiting 
to be rescued.
    A report by House Republicans said, ``America is still not ready 
for prime time.''
    In addition, the GAO reviewed 13 major post-Katrina contracts for 
disaster relief. Many of these contracts were awarded with limited or 
no competition. GAO found that there was waste and mismanagement due to 
poor communication and planning.
    Examples include:

  <bullet> $3 million for 4,000 beds that were never used.

  <bullet> $10 million to renovate 160 rooms and furnish 80 rooms in 
        Alabama for temporary housing--only six people agreed to live 
        at the facility.

    And in one of the most embarrassing examples, over $300 million was 
wasted on nearly 11,000 mobile homes that were never used for temporary 
housing because they sunk into the mud.
    The Katrina response was unacceptable, and is particularly 
troubling to me given California's earthquake threat.
    In 2001, according to the Houston Chronicle, FEMA ranked the three 
most likely catastrophic disasters facing this country: a terrorist 
attack on New York City, a direct hit to New Orleans from a powerful 
hurricane, and a massive earthquake in California.
    I hope and pray that California is not next, but we need the 
leadership at the Federal level to be ready.
    That is why I have requested from both the White House and the 
Department of Homeland Security a copy of the Federal Government's 
response to a major earthquake in California. I wanted to share that 
plan with first responders in the state.
    However, I have learned that a Federal response plan for a major 
earthquake in California does not exist.
    Every day we wait the situation becomes more crucial, especially 
with the levee situation in the San Joaquin Valley.
    If there was an earthquake there and the antiquated levee system 
failed, \2/3\ of California's drinking water would be at risk, and both 
agriculture land and numerous homes would be flooded.
    The bottom line is that if there was a 1906 earthquake today--
Californians could not count on the Federal Government.
    Today, we have a chance to hear from local responders and find out 
what they need. And one of the issues I really want to hear about is 
the communications capabilities of our first responders.
    We all know how critical interoperable communications are in an 
emergency--the 9/11 Commission Report highlighted the desperate need 
for first responders to be able to speak to one another.
    And yet the Federal Government has repeatedly failed to address 
this critical need. In the last 7 months alone, the Senate has twice 
voted down amendments to increase funding for interoperable 
communications.
    I am going to continue working with my colleagues in the Senate to 
ensure this need is met.
    So I am anxious to hear from all of the witnesses today, and I 
trust we will all work together to meet these needs.
    Thank you, Mr. Chairman.

    Senator DeMint. Thank you, Senator Boxer. Some good ideas, 
I think.
    I want to thank our witnesses again for joining us. This 
morning we have four experts appearing before the Subcommittee 
to discuss how well the Nation is prepared for a major 
earthquake, and what can be done to increase the preparation to 
save lives when the big one hits.
    Appearing this morning is Mr. Harold Brooks, CEO of the Bay 
Area Chapter of the American Red Cross. The Red Cross is an 
outstanding organization and one of the first faces on the 
scene when disasters strike. Red Cross volunteers and staff, in 
conjunction with their counterparts in the Salvation Army and 
other faith-based organizations, provide comfort, aid, and 
support to citizens during some of the worst times in their 
lives. I look forward to hearing from Mr. Brooks on how the Bay 
Area Chapter is preparing for a major earthquake.
    Also appearing is Mr. Lloyd Cluff. Mr. Cluff is a 
distinguished engineer, a member of the National Academy of 
Engineering, and Director of the Earthquake Risk Management 
Program at Pacific Gas and Electric. Mr. Cluff has been in this 
business for nearly 45 years and has a comprehensive 
understanding of the threat posed to power generation by an 
earthquake. Because fires caused by rupturing gas lines are 
such a significant threat following an earthquake, Mr. Cluff's 
testimony will be extremely important.
    Also appearing is Captain Jim Vannucchi. Captain Vannucchi 
is a career firefighter with the San Francisco Fire Department. 
Captain Vannucchi, his colleagues in the Fire and Police 
Departments are the city's first responders. When the quake 
hits, it will mean that men and women like Jim Vannucchi will 
respond with lifesaving aid. I'm looking forward to hearing 
from the Captain on what challenges he faces with the San 
Francisco Fire Department and how we can work with him to help 
at the Federal level.
    And finally appearing is Ms. Conroy, Director of the Office 
of Emergency Services and Homeland Security for the City and 
County of San Francisco. Ms. Conroy leads the office that is 
responsible for coordinating the numerous agencies that are 
involved in preparing for, and responding to , a disaster in 
the area. I'm interested in hearing how the Office of Emergency 
Services has been working with the diverse communities in the 
city to deliver the message of preparedness.
    With that, I'll ask Mr. Brooks to give his opening 
statement. I'd ask that you all keep your opening statements as 
close to 5 minutes as possible so that we can get to questions, 
and begin to address more fully the issues that concern the 
community.
    Mr. Brooks.

  STATEMENT OF HAROLD W. BROOKS, PRESIDENT/CEO, AMERICAN RED 
                        CROSS--BAY AREA

    Mr. Brooks. Thank you. Chairman DeMint and Senator Boxer, 
thank you for the opportunity to meet with you on this very 
significant and historic day in the Bay Area.
    Most of us disaster geeks were up early to join the kindred 
spirits at 5:12 a.m., at Lotta's Fountain, to commemorate the 
Centennial of the Great Earthquake and Fire of 1906. The events 
of April 18, 1906, pushed our chapter of the American Red Cross 
into a critical role. It was charged by President Teddy 
Roosevelt with overseeing the recovery and rebuilding of San 
Francisco. Our organization rose to the occasion. It's a role 
that has been treated as a sacred trust by the volunteers of 
this community ever since.
    Since that initial testing of the organization in 1906, 
we've continued to grow our disaster response capability as an 
organization. We've learned some really valuable lessons from 
each disaster over the past century.
    The 1989 Loma Prieta Earthquake challenged us to work with 
our homeless populations as they became disaster victims. We 
were humbled by the fact that we could not take care of the 
community alone, and were thrilled by the spontaneous 
volunteers and organizations that joined us to respond to the 
needs of the Bay Area.
    But our greatest lessons learned have come from Katrina. 
Here in the Bay Area we have always thought our worst-case 
scenario that was coming at us would require us to serve 
300,000 displaced people in the aftermath of an earthquake on 
the Hayward Fault.
    While being prepared to serve 100,000 people at the time 
Katrina hit last year the Red Cross, nationally, ultimately was 
called upon to serve 1.2 million people. This is a sobering new 
reality that speaks to the need for the types of changes 
announced last week by our National Headquarters. These changes 
focused on two really key lessons from Katrina: The need for 
more capacity, and the need to partner more effectively.
    We are now working to ensure that our national organization 
can handle a possible surge of one million affected families 
within a 10-day period and two million over the longer-term.
    Locally we continue to expand our operating capacity to 
enable us to handle any emergency that comes our way. Chevron 
provides us with a warehouse and distribution center out in the 
City of Dublin, where national assets of cots, blankets, 
comfort kits, and other disaster supplies can be used here or 
distributed wherever they're needed.
    We're led by the Pacific Service Area, which is located in 
Sacramento. And we've developed some really strong 
relationships with the chapters throughout the state, and the 
Pacific, for mutual assistance to coordinate and deploy more 
staff from throughout the state or the Nation and effectively 
communicate with the state government agencies.
    Now we'll be focusing even more on our partnerships with 
other organizations, community, government, faith-based, 
community-based, and business and taking a lead in ensuring 
that the entire community is capable of implementing an 
effective response. These partnerships will not only increase 
our capacity, but will help ensure that all segments of the 
community receive the services they need in a sensitive, 
culturally-competent manner.
    All segments of the community should realize that they will 
be a part of this response and must be prepared to offer their 
services. And Red Cross will ensure that we assist in 
incorporating the resources and knowledge into an overall 
community response.
    The greatest lesson from Katrina was that these 
relationships need to exist well before the disaster occurs. 
Building them on-the-fly simply does not work. Locally we've 
seen the value of these relationships, as community comes 
together to assist--or came together to assist 5,000 Katrina 
evacuees who made their way here to the Bay Area. And we 
continually work to help prevent, and prepare for, and respond 
to emergencies.
    One of our key corporate partners is PG&E. They provided us 
with the initial funding for an exciting new campaign called 
``Prepare Bay Area.'' It's a campaign with a goal to prepare 
one in four people in the Bay Area--that's over a million 
folks--to cope effectively with a disaster.
    It's a very simple campaign. We want to prepare everyone so 
that they know what to do. They have three steps they've got to 
remember:
    To make a family disaster plan;
    To build a disaster supply kit; and
    Be trained in CPR, first aid, and disaster preparedness.
    Now to get started with this campaign, we conducted a six-
county survey. The results reinforce the importance of our 
campaign. Those surveyed were asked whether they had taken the 
three steps to preparedness. And only 6 percent said that they 
had. Not surprisingly, our survey results indicate many 
differences among the demographic subgroups and their reasons 
for not being prepared.
    It only reinforced the fact that the key focus under our 
program needs to be on the vulnerable populations, those most 
devastated during a major disaster and least prepared to deal 
with it.
    It also reinforced the need to work with the community 
leaders from among various groups in the Bay Area who can 
influence their constituents to take action. They will promote 
Prepare Bay Area's ``how to'' preparedness program by either 
helping us to conduct, or taking responsibility for conducting 
the preparedness training within their communities. We've got a 
few working models, one that's wonderful in the Hispanic and 
another in the Asian communities.
    Today we're working hard to continue to earn the trust of 
the American people. We've always been there for them at the 
time disaster strikes, the first example being the event we 
commemorate today. Our predecessors demonstrated the 
capabilities of the organization with their disaster response 
when the Nation needed it a hundred years ago.
    Now we have the privilege to live on this really most 
beautiful patch of Earth. I think the Bay Area is the most 
beautiful place on the planet. We have the awesome 
responsibility to also make it the most prepared place on the 
planet. Standing on the shoulders of those great community 
leaders that showed us the way, we know that we can do it. And 
we take on this responsibility with great confidence and 
humility.
    I again want to thank you for the opportunity to meet with 
you, and I'd be happy to answer any questions that you may 
have.
    [The prepared statement of Mr. Brooks follows:]

        Prepared Statement of Harold W. Brooks, President/CEO, 
                      American Red Cross--Bay Area

    Chairman DeMint and Senator Boxer, thank you very much for the 
opportunity to meet with you on this very significant and historic day 
in the Bay Area. Most of us disaster geeks were up early to join with 
kindred spirits at 5:12 a.m. at Lotta's Fountain to commemorate the 
Centennial of the Great Earthquake and Fire of 1906. April 18, 1906, 
pushed this chapter of the American Red Cross into a very critical 
role. At a time when the national organization was reeling from the 
transition from founding President Clara Barton to a new national 
Executive, Mabel Boardman--the Red Cross was charged by President Teddy 
Roosevelt and the U.S. Congress with overseeing the recovery and 
rebuilding of the city. The organization performed very well. It is a 
role that has been treated as a sacred trust by the volunteers of this 
community ever since.
    Another big test for this chapter was the Loma Prieta Earthquake of 
1989. The chapter had some challenges. We grappled with how to work 
with our homeless populations as they became disaster victims. We were 
humbled by the fact that we could not take care of the community alone. 
We were thrilled to have spontaneous volunteers and organizations join 
us--shoulder to shoulder to respond to the needs of the community. We 
were shocked to learn that no matter how much money was needed for the 
devastation wrought by Hurricane Hugo in the Caribbean and Carolinas, 
we were obliged to use dollars raised for the earthquake on the 
earthquake. We learned how serious the concept of donor intent was. 
Although there had been severe losses in disasters elsewhere, people 
throughout the Nation responded quite generously when they saw San 
Francisco's Marina District on fire in an earthquake that many saw live 
as they watched the World Series game between the Oakland A's and The 
San Francisco Giants.
    The most powerful lesson of Loma Prieta was the one of 
collaboration and community partnerships. The volunteers in this 
community vowed to build the best disaster response team in the Nation. 
We believe we have that. They also learned that no one organization can 
handle a major disaster by itself. Through our corporate partners, the 
public-sector, volunteer centers, Salvation Army, United Way, and a 
series of non-government and faith-based organizations; we have learned 
to look to one another to ensure a great response.
    We have not rested since Loma Prieta. We continue to expand our 
operating capacity to enable us to handle any emergency that comes our 
way. Chevron provides us with a warehouse and distribution center (in 
the city of Dublin) where national assets of cots, blankets, comfort 
kits, and other disaster supplies can be used here or distributed 
wherever the need is. We have a great relationship with chapters 
throughout the Pacific of mutual assistance. We have a great Pacific 
service area team--one of eight of our service areas across the 
country--located in Sacramento. They help us to coordinate and deploy 
more staff from throughout the state or Nation, and effectively 
communicate with State government agencies.
    We have developed very exciting relationships with the leading 
technology companies headquartered here in the greater Bay Area. They 
are beginning to help us better manage the quick and efficient delivery 
of assistance to our clients and track their progress. We are also 
using software that allows us to share confidential data and forms with 
our collaborating agencies--so our clients don't have to fill out 
duplicate forms from each agency with whom they meet. We are using 
debit cards for displaced families. We have always thought of our worst 
case scenario being the need to handle 300,000 displaced people in the 
aftermath of an earthquake on the Hayward fault. We learned from 
Katrina that our response was able to handle 100,000 people. We 
ultimately served 1.2 million people. This is a sobering new reality. 
We want to do our part to ensure that the organization can handle the 
surge of one million affected families within a ten-day period, and two 
million over the longer term. This chapter has always been a leader in 
helping our national organization build the systems and processes 
needed to expand our reach and improve our efficiency.
    This chapter, in conjunction with the American Red Cross national 
organization, is continuing to evaluate the response efforts to the 
hurricanes of 2005, and implement initiatives that will enhance our 
capacity to effectively respond to disaster caused needs of a magnitude 
we previously had not imagined. As mentioned, we will be focusing even 
more on our partnerships with other organizations in the community--
government, faith-based, community-based, business--and taking a lead 
in ensuring that the entire community is capable of implementing an 
effective response. No one agency or organization can do it all, and we 
are looking at new ways that we can lead and/or support other 
organizations when it comes to increasing the readiness level of the 
entire Bay Area. These partnerships will not only increase our 
capacity, but will help ensure that all segments of the community 
receive the services they need in a sensitive and culturally-competent 
manner. All segments of the community should realize that they will be 
part of the response, and must be prepared to offer their services, and 
the Red Cross will ensure that we assist in incorporating their 
resources and knowledge into the overall community response.
    The Bay Area Chapter of the American Red Cross has worked hard to 
build these community relationships, and cultivating additional 
relationships that can help the community with the initial needs of 
sheltering and feeding hundreds of thousands of people is our highest 
priority task. We have worked with our government and community 
partners to identify and evaluate hundreds of schools, churches, and 
other facilities that can serve as shelters. We continue to build on 
our relationships with the Salvation Army, Southern Baptists, 
institutional food produces, large caterers, Food Banks, and other 
community feeding organizations to ensure coordinated feeding efforts 
can be executed as quickly as possible after a disaster. We have strong 
relationships through Citizen Corps, local Emergency Services 
coordinating groups, VOAD (Voluntary Agencies Active in Disaster) with 
our community response partners to ensure we all understand how our 
response plans work, and how they will work together. We also maintain 
strong ties with our Volunteer Center partners to ensure we have a 
coordinated response to the surge of spontaneous volunteers that will 
want to help with the feeding and sheltering efforts. We continue to 
explore new ways to ensure all of the community responders are included 
in an efficient and coordinated response effort. Drills, exercises, and 
joint planning efforts have been very beneficial, and we are confident 
that these relationships, as well as those we are working to form, will 
take our response readiness to a new level.
    We work diligently to help people prevent, prepare for, and respond 
to emergencies. We are visible and actively serving more than 4.5 
million people in Alameda, Contra Costa, Marin, San Francisco, San 
Mateo, and Solano Counties. Through a team of 85 paid and 3,000 plus 
volunteers we help our communities prepare for life's emergencies.
    We live in one of the most seismically active regions in the world. 
The U.S. Geological Survey says there is a 70 percent chance of another 
catastrophic earthquake here within 30 years. The terrible events of 
September 11 raised the spectrum of terrorism that must be confronted 
from a disaster response perspective. The San Francisco Bay Area is a 
vibrant, high-profile area that has been identified as among the top 
potential targets for acts of terrorism. We prepare for all hazards, 
including terrorist attacks and even pandemics.
    One of our favorite corporate partners, PG&E has provided the 
initial funding for a wonderful new campaign called Prepare Bay Area. 
Just last week they joined with Red Cross, the Mayors of Oakland and 
Martinez, the Fire Chief of San Francisco, and leaders from every 
sector of our community to launch the most ambitious preparedness 
campaign ever. Prepare Bay Area has a goal of preparing one in four 
(over one million people) here in the Bay Area. The logic behind that 
number is, we want one person in each household to be able to save the 
lives of their loved ones, neighbors, and others. Put simply we want 
everyone to take three steps: 1. Make a family disaster plan; 2. Build 
a disaster supplies kit; 3. Get trained in CPR, first aid and/or 
disaster preparedness.
    To get started on this campaign, we conducted a six county survey. 
The results reinforce the importance of our campaign. Those surveyed 
were asked whether they had:

        1. Made a family plan outlining what to do in the aftermath of 
        a disaster.

        2. Prepared a disaster supplies kit suitable for sustaining 
        them for 3-5 days.

        3. Received training in disaster preparedness, CPR and/or first 
        aid.

    Only 6 percent indicated they had taken all three of the steps that 
Red Cross considers essential to being prepared.
    Katrina repeated the lesson clearly that our economically 
disadvantaged and vulnerable communities require special attention to 
get prepared. Not surprisingly our survey tells us that there are many 
differences between demographic sub-groups in regards to reasons for 
not being prepared. Hispanics and Asians are much more likely than 
Caucasians or African Americans to say a major reason why they are not 
prepared is because they do not think an emergency situation is likely 
to happen. This is also the case with lower-income respondents. African 
Americans, Hispanics, and Asians are significantly more likely than 
Caucasians to say the major reason why they have not prepared is 
because they do not know what to do in order to prepare. We are working 
with community influencers to either help us or actually do the 
preparedness training with their communities. These community partners 
will promote Prepare Bay Area's ``how to'' preparedness plan by using 
their unique influence to compel their constituents to take action--to 
become fully ready for disasters.
    In the Spanish Speaking communities we have Sabados por la familia 
training. It is highly successful. We have a Youth for Chinese Elderly 
Program, where high school students learn, then help prepare the 
elderly Chinese in their communities. Oracle and Chiron are just two 
corporations who have adopted schools near their offices and funded 
preparedness training for the students.
    In the aftermath of Katrina we registered and served 5,000 
evacuees. Our directors of Emergency Services at the state, county, and 
city levels were amazing to work with in mobilizing the community. Many 
of the leading faith-based organizations stepped forward and opened 
their doors. They provided volunteers to house and feed evacuees. The 
community came together and did a great job. It is clear we must build 
upon what we saw happen here as well as throughout the Gulf Coast. The 
Red Cross concept has always been neighbor helping neighbor. We are 
working hard to enable the citizens of the Bay Area to prepare for, and 
alleviate, human suffering from emergencies.
    Henri Dunant started this International Red Cross movement 143 
years ago in May of 1863. Clara Barton founded the American Red Cross 
in May of 1881--125 years ago. The Red Cross in the Bay Area started 
108 years ago with the support to our troops deploying to Manila for 
the Spanish American War. They elevated the organization with their 
disaster response when the Nation needed it 100 years ago. We are 
privileged to live in one of the most beautiful places on the planet 
here. It is an awesome responsibility to also make it the most prepared 
place on the planet. Standing on the shoulders of the great community 
leaders that showed us they way, we take on that responsibility with 
confidence and humility.
    Thank you for the opportunity to meet with you. I would be happy to 
answer any questions you may have.

    Senator DeMint. Thank you, Mr. Brooks.
    Mr. Cluff.

 STATEMENT OF LLOYD S. CLUFF, DIRECTOR, GEOSCIENCES DEPARTMENT 
                AND EARTHQUAKE RISK MANAGEMENT 
  PROGRAM, PACIFIC GAS AND ELECTRIC COMPANY (PG&E); CHAIRMAN, 
    SCIENTIFIC EARTHQUAKE STUDIES ADVISORY COMMITTEE (SESAC)

    Mr. Cluff. Thank you, Senator DeMint and Senator Boxer, for 
inviting me to testify at this field hearing. My testimony is 
fairly large and copies of it are over on the desk. And I ask 
that my full testimony be adopted into the record.
    Senator DeMint. Without objection.
    Mr. Cluff. I'm speaking here wearing two hats. One is I'm 
Chairman of the Congressional mandated oversight committee, 
called the Scientific Earthquake Studies Advisory Committee, 
with regard to the United States Geological Survey's mission in 
the National Earthquake Hazard Reduction Program. Now that 
Committee's activity has been going on for 5 years. And I have 
attached a copy of our last report in 2005 to my testimony.
    In addition, Senator DeMint and Senator Boxer have both 
referred to data contained in a report particularly released 
this morning or yesterday, I guess it was, Managing Earthquake 
Risk in Earthquake Country Estimated Losses for a Repeat of the 
1906 Earthquake and Earthquake Professionals' Action Agenda for 
Northern California. I have appended this, and I adopt this as 
part of my testimony. It has excellent information in it.
    I would like to start off with my experience this morning 
at 4:30 going to Lotta's Fountain. And that experience with the 
thousands of people who were there really demonstrated the 
spirit of San Francisco. And the San Francisco Earthquake of 
1906 provided the routes of the scientific understanding of why 
earthquakes occur, the plate tectonic model developed out of 
the lessons learned from the scientists studying the San 
Andreas Fault, which released the earthquake by rupturing 
almost 300 miles. And a lot of lessons were learned in terms of 
what to do and what not to do.
    San Francisco, for example, has a redundant firefighting 
system to protect the City against a repeat of 1906 and the 
fire. And it's the only city in the world that I know of that 
has a redundant, totally dedicated firefighting system for 
earthquake safety. And that's involved in some of the field 
trips that will be held during these commemoration activities.
    I want to go to one of the recommendations in the SESAC 
report of the last year. We have three main, key 
recommendations in that report, but I think the first one has 
the spirit of what we're trying to accomplish. And the SESAC 
strongly encourages the USGS, the Secretary of the Interior, 
the Office of Management and Budget, and Congress to move 
forward vigorously with the National Hazard Initiative in the 
USGS Fiscal Year 2007.
    The Director of the Survey declared that starting at 2007, 
for at least 5 years, there will be a new initiative for the 
Survey with its highest priorities.
    Recent events have spotlighted natural hazards, and the 
Committee believes the USGS, through its Natural Hazards 
Initiative, has a major growth opportunity to take the 
leadership in creating a disaster-resistant country.
    We recommend the USGS undertake a complete analysis of the 
consequences of catastrophic earthquakes in the San Francisco 
Bay Area, and in Southern California, and integrate the 
complete picture, from the rupture on the faults, wave 
propagation into buildings and other structures, and the 
response of all levels of our infrastructure, the emergency 
response, and continuing to the full recovery of our society.
    The purpose of this exercise would be to identify where and 
when the breaking points for an extreme earthquake disaster in 
California will be. The lessons learned in this demonstration 
project would be applicable to all extreme disasters like 
Katrina.
    And I'd add to this, and I've written this in my testimony, 
that with the more than 6 weeks of almost continuous rainfall, 
if we had a repeat of a large earthquake now, today, we would 
see massive landslides in the hills around the Bay Area, much 
more liquefaction because of the saturated ground around the 
Bay.
    And also the largest concern that I would have would be the 
vulnerability of the Delta Levees. The Delta Levees are filled 
to capacity right now. Some of them have failed in the storms 
in the last few weeks. They would all massively fail in a large 
earthquake on either the San Andreas, Hayward, or Calaveras 
Fault.
    The California Department of Water Resources has estimated 
that the economic loss of the failure of the levees alone would 
be in excess of $50 billion. That includes substantial losses 
of the water supply to Southern California, and significant 
water supply to the Bay Area communities, as well.
    So I'm going to close with that activity for SESAC and then 
move to the PG&E activities. I am Director of PG&E's Earthquake 
Risk Management Program. And for the last two decades I've 
helped lead PG&E to invest about $2.5 billion in strengthening 
the lifeline infrastructure that PG&E operates and manages to 
serve our customers. And that has included a lot of activities 
to prepare us so that our vital resources will be available, 
not only weeks after the earthquake, but in some cases during 
and immediately after the earthquake.
    Our response time that we expect with a large earthquake in 
the Bay Area is that we will lose power and some gas in some 
localities for a few hours to a few days. Most of our service 
will be ready within less than a week, and within the week, we 
believe that the majority of our system will be restored with 
the exception of places where massive collapsing, bridges and 
buildings, have caused our facilities to be damaged. And as we 
saw in the Marina, in Loma Prieta, our services in those 
pockets of damage may not be restored for months.
    I would like to close by saying that PG&E has been working 
with private-public partnerships. I help lead PG&E's efforts to 
develop a user-driven research program at the Pacific 
Earthquake Engineering Research Center at Berkeley. It's a 
consortium of nine big universities. And through that, starting 
with PG&E, CalTrans, the California Energy Commission, and 
FEMA, and many other interested parties have stepped up to 
contribute to the initial investment PG&E made. And now we have 
in excess of $13 million in leverage funding. So I'm very 
pleased to have been part of that program.
    Out of this has come mitigation efforts for the Bay Area, 
since Loma Prieta, in excess of $15 billion for the lifeline 
community; PG&E, CalTrans, East Bay MUD, the BART System, and 
many other utilities in the Bay Area.
    I'd be happy to answer any questions when the time comes. 
Thank you.
    [The prepared statement of Mr. Cluff follows:]

Prepared Statement of Lloyd S. Cluff, Director, Geosciences Department 
   and Earthquake Risk Management Program, Pacific Gas and Electric 
   Company (PG&E); Chairman, Scientific Earthquake Studies Advisory 
                           Committee (SESAC)

    For my testimony today, I have been asked to speak from various 
viewpoints; from the perspective of Chairman of the Congressionally-
mandated Scientific Earthquake Studies Advisory Committee (SESAC). The 
SESAC was appointed by the Secretary of the Interior to advise on 
activities of the U.S. Geological Survey for the National Earthquake 
Hazards Reduction Program (NEHRP). The most recent SESAC report to 
Congress, dated November 23, 2005, is appended to my testimony. In 
addition, I have been asked to speak from the perspective of Director 
of Earthquake Risk Management Program for Pacific Gas and Electric 
Company in San Francisco, one of the Nation's largest-investor owned 
gas and electric utilities. I will discuss PG&E's activities in 
preparation for major earthquakes, and measures PG&E has taken to 
mitigate and minimize the impact of major earthquakes, as well as the 
ability of the utility to restore power, and PG&E's coordination with 
research efforts of the U.S. Geological Survey.
    Today, April 18, is the day of commemoration of the 100th 
Anniversary of the 1906 San Francisco Earthquake. Therefore, I am 
appending a relevant report, Managing Risk in Earthquake Country 
Estimated Losses for a Repeat of the 1906 San Francisco Earthquake and 
Earthquake Professionals' Action Agenda for Northern California. I 
adopt the contents, conclusions, and recommendations of the report, and 
I am making this report part of my testimony. This document has been 
prepared in advance of the 100th Anniversary Conference to provide 
conference leaders and speakers with a concise summary of the study 
performed to estimate potential losses for a repeat of the 1906 San 
Francisco Earthquake, as well as the Earthquake Professionals' Agenda 
of actions that we must undertake to ensure that Northern California 
can safeguard its extraordinary cultural and economic vitality, and 
rebound quickly following the next major earthquake. The report was 
prepared by an affiliation of earthquake scientists, engineers, and 
emergency managers; the Earthquake Engineering Research Institute 
(EERI), the Seismological Society of America (SSA), the Disaster 
Resistant California (DRC), and the California Governors Office of 
Emergency Services (OES).
    Scientific Earthquake Studies Advisory Committee--The complete 2005 
report of the SESAC is appended to my testimony, and I would like to 
emphasize three recommendations as quoted below that are relevant to 
today's hearing:

        1. The SESAC strongly encourages the USGS, the Secretary of the 
        Interior, the Office of Management and Budget, and Congress to 
        move forward vigorously with the Natural Hazards Initiative in 
        the USGS Fiscal Year 2007 budget. Recent events have 
        spotlighted natural hazards, and the Committee believes the 
        USGS, through its Natural Hazards Initiative, has a major 
        growth opportunity to take the leadership in creating a 
        disaster-resistant country. We recommend the USGS undertake a 
        complete analysis of the consequences of catastrophic 
        earthquakes in the San Francisco Bay Area, and in Southern 
        California, and integrate the complete picture, from rupture on 
        the fault, wave propagation into buildings and other 
        structures, the response of all levels of our infrastructure, 
        the emergency response, and continuing to the full recovery of 
        our society. The purpose of this exercise would be to identify 
        where and when the breaking points for an extreme earthquake 
        disaster in California will be. The lessons learned in this 
        demonstration project would be applicable to all national 
        extreme disasters.

    This recommendation is extremely relevant for today's hearing 
because assuming the 1906 earthquake was repeated today, as described 
in the appended report, Managing Risk in Earthquake Country Estimated 
Losses for a Repeat of the 1906 San Francisco Earthquake and Earthquake 
Professionals' Action Agenda for Northern California, the extremely 
saturated condition of the land in the San Francisco Bay Region, due to 
the more than 6 weeks of almost continuous rainfall, would further 
compound and exacerbate the catastrophic consequences. One prime 
example would be the failure of the Delta Levees. Given a major 
earthquake on any of the Bay Area faults (San Andreas, Hayward, or 
Calaveras) would result in massive failure of many of the levees. This 
single consequence has been reported by the California Department of 
Water Resources to result in direct economic losses of $50 billion, 
including substantial losses to the agriculture industry, loss of 
significant water-supply to Southern California, and many of the San 
Francisco Bay Area communities.

        2. In support of the above recommendation, the Committee 
        continues to strongly recommend to the Director of the USGS 
        that full funding of the ANSS at the level authorized in the 
        current NEHRP legislation be appropriated. The USGS must make a 
        commitment to work through the Department of the Interior and 
        the Office of Management and Budget to ensure this objective is 
        met. Full deployment of the ANSS offers the potential to 
        substantially reduce earthquake losses, and their consequences 
        by providing critical information for land-use planning, 
        building design, insurance, warnings, and emergency 
        preparedness and response. A 2005 report by the National 
        Research Council reiterates that the potential benefits far 
        exceed the costs.

        3. The Committee reemphasizes the USGS must reestablish the 
        National Earthquake Prediction Evaluation Council to serve as 
        the forum to review predictions and resolve scientific debate 
        prior to public controversy or misrepresentation, so 
        decisionmakers are not mislead by unfounded, short-term 
        earthquake predictions. The Committee encourages the USGS to 
        support an active NEPEC equipped with adequate resources to 
        perform this role.

    I am pleased to report that since the SESAC submitted it's 2005 
report to the USGS and Congress, this recommendation has now been 
implemented. Many of the earthquake predictions that have been in the 
news during the past year or two could have become a disservice to 
society triggering unintended losses due to the ``cry wolf or the sky 
is falling syndrome.'' Therefore, I am confident that the NEPEC will be 
of great service to society to forestall short-term earthquake 
prediction false alarms.
    During the three decades since the National Earthquake Hazards 
Reduction Program was established, the NEHRP has provided insightful 
scientific and engineering leadership toward reducing earthquake risks. 
This leadership has resulted in major advances in identifying and 
characterizing active faults (earthquake sources) and understanding the 
destructive effects of earthquakes that will eventually be released by 
slip on these faults. Twenty-five years ago, there was hope that short-
term earthquake predictions would have been realized by now. Although 
that capability has not been realized, reliable estimations of the 
locations of future major earthquakes, their size, their likelihood of 
occurrence, and the character and extent of their effects are now 
possible.
    Additionally, a wealth of information has been developed to enhance 
our knowledge of the vulnerabilities of the built environment to 
earthquakes. We now better understand the factors that influence good, 
as well as poor, earthquake performance of utilities and transportation 
systems, as well as specific types of structures and buildings. This 
improved knowledge has resulted in useful tools that, if applied, have 
the potential to bring unacceptable risks under control to protect the 
public and minimize catastrophic consequences.
    However, the risk is growing faster than our ability to provide 
effective mitigation. In spite of the increased knowledge and the good 
work that has been done, particularly in regions of high seismic 
exposure, earthquake risk continues to grow nationwide. This is largely 
due to: (1) uncontrolled growth in earthquake-prone areas, (2) the lack 
of effective land-use planning in the hazardous areas, (3) the lack of 
implementation and enforcement of appropriate building standards, and 
(4) the high cost of strengthening the existing built environment. This 
trend has positioned the Nation in an unacceptable situation, one that 
will eventually result in catastrophic losses. Studies such as the 
1999, National Research Council publication, The Impacts of Natural 
Disasters: A Framework For Loss Estimation, show the per-event costs 
could reach thousands to tens of thousands dead, hundreds of thousands 
injured and homeless, and direct and indirect economic losses that 
could exceed $200 billion. This trend will not be reversed until the 
earthquake-prone communities in all 39 vulnerable states understand the 
threat and take action to mitigate unacceptable risks.
    Pacific Gas and Electric Company's (PG&E) Earthquake Risk 
Management Program--In addition to its concern for employee and 
customer safety during earthquakes, Pacific Gas and Electric Company 
has a strong economic interest in ``keeping the lights on.'' PG&E has 
vast resources in dams and power plants, transmission and distribution 
systems, and administrative buildings. Although protecting these 
resources from earthquake damage is important, equally important is 
functionality following an earthquake. The ability to continue to 
provide, or quickly restore utility service to customers, will assist 
emergency response efforts and reduce recovery time for the community, 
as well as assure a continuing income stream to Northern California 
businesses during a particularly challenging time. Functionality also 
affects the communities PG&E serves, as businesses having gas and 
electricity can recover quickly, lessening the overall economic impact 
to the community.
    PG&E has been able to leverage their efforts to improve earthquake 
safety and reliability of their gas and electric systems through the 
development of user-driven, public/private research partnerships, co-
funded in part by state and national agencies. Three examples are 
presented below.
    PG&E/U.S. Geological Survey CRADA--The 1989 Loma Prieta earthquake 
provided an opportunity and motivation for PG&E to focus on better 
understanding the nature and character of earthquake hazards in Central 
and Northern California, PG&E's service territory. After extensive 
discussions with the USGS Menlo Park office in 1992, PG&E entered into 
a non-financial Cooperative Research and Development Agreement (CRADA) 
with the USGS. We agreed to cooperate on research on earthquake hazards 
throughout the greater San Francisco Bay Area. Based on the success of 
this effort, in 1996, the agreement was modified into a financial 
CRADA. Over the next few years PG&E provided $4.4 million in funding 
for projects with USGS scientists that would focus on PG&E's needs for 
system safety and reliability improvements, throughout our service 
territory. Generally, the projects include studies to better understand 
the location and characteristics of specific active faults, the effects 
of strong ground shaking, local site effects known to influence the 
degree of damage at particular locations, and the nature of ground 
failure mechanisms (landslides and liquefaction). Many projects have 
been completed, and the results are being used to help reduce 
earthquake risks not only to PG&E facilities, but also to PG&E's 
industrial customers, private homeowners, and the public at large.
    Pacific Earthquake Engineering Research Center (PEER)--The research 
results from the PG&E/USGS cooperative program feeds directly into 
another user-driven, applied research, public/private partnership that 
PG&E played a major role in establishing, the Pacific Earthquake 
Engineering Research Center (PEER) Lifelines Research Program. Program 
partners include PG&E, Caltrans, and the California Energy Commission 
(CEC), under the auspices of the Pacific Earthquake Engineering 
Research Center (PEER), at the University of California at Berkeley.
    In 1996, PG&E and the University of California entered into an 
agreement to focus applied research efforts toward improving the 
earthquake performance (safety and reliability) of gas and electric 
systems in California. The concept of the users driving the research 
agenda, in collaboration with the best earthquake researchers 
available, was the focus of this initial partnership. PG&E engineers 
are intimately involved in selecting research topics, as well as 
guiding the research so that research results will be in a form that 
can be used in improving operations. This collaboration provides a 
mechanism for research results to be immediately implemented to improve 
PG&E's system seismic safety and performance during earthquakes.
    The initial funding from PG&E to jumpstart the program was $3.5 
million, however, the user-driven concept interested Caltrans for their 
earthquake safety and reliability research program for bridges and 
highways, and a matching funding arrangement was established. Also, the 
California Energy Commission realized the merits of this program that 
would benefit all California Gas and Electric systems. The combined 
leveraged funding from PG&E, Caltrans, and the CEC to support the PEER 
Lifelines Research Program is now at about $15 million, through 2005. 
We are seeking additional partners to participate in the benefits of 
future research and to join in future funding of user-focused applied 
research. Additional matching funding from NEHRP funding agencies would 
also provide opportunities to enhance the user-driven research 
approach.
    American Lifelines Alliance (ALA)--The formation in 1997 of the 
American Lifelines Alliance (ALA), initially by FEMA and the American 
Society of Civil Engineers (now with the Multihazard Mitigation Council 
within the National Institute of Building Sciences (NIBS), is in direct 
response to needs for improved lifeline performance that were 
identified more than 10 years ago, and was specifically required in the 
1990 reauthorization of the NEHRP. Leaders from lifeline organizations 
strongly endorsed the need for developing and adopting seismic design 
guidance for lifelines in a 1997 Lifeline Policymakers' Workshop.
    The ALA's objective is to facilitate the creation, adoption, and 
implementation of design and retrofit guidelines and other national 
consensus documents that, when implemented by lifeline owners and 
operators, will systematically improve the seismic safety and 
performance of lifelines during natural hazard and human threat events. 
The current participants in the partnership include FEMA, NIBS, U.S. 
Geological Survey, U.S. Bureau of Reclamation, PG&E, Rohn Industries, 
Pima County, Arizona, and various private-sector consultants.
    Although the formation of the ALA was closely tied to concerns 
regarding earthquake threats, the consideration of multiple hazards was 
determined necessary by the ALA to facilitate decisions on design and 
retrofit measures to achieve improvements in reliability on a national 
scale, where the level of risk from various natural hazards is highly 
variable. The initial focus of ALA guidance development was on all 
natural hazards, including earthquakes, floods, windstorms (including 
hurricanes and tornados), icing, and ground displacements (including 
landslides, frost heave, and settlement). However, following the 
September 11, 2001, terrorist attacks, FEMA directed the ALA to address 
hazards posed by human threats, including blast, chemical, biological, 
radiological, and cyber threats. The utility and transportation systems 
appropriate for the ALA process include electric power transmission and 
distribution, natural gas transmission and distribution, potable water 
conveyance and distribution, wastewater transportation and processing, 
oil and liquid fuel handling, transport, and storage, highways, 
railroads, ports and inland waterways, air transportation, and 
telecommunications.
    The ALA is working closely with the Lifelines Subcommittee of the 
Interagency Committee on Seismic Safety in Construction, which is 
charged with assisting Federal departments and agencies to develop and 
incorporate earthquake hazard reduction measures in their ongoing 
construction programs. The ALA's efforts to develop national consensus 
guidance documents are aligned with many of the objectives of the 
Lifelines Subcommittee. ALA products will provide appropriately 
qualified seismic guidance, and the Lifelines Subcommittee can help in 
the preparation and adoption of such guidance by Federal agencies. The 
ALA has developed matrices that define the current status of natural 
and manmade hazards guidance available in the United States for 
lifeline system operators and other interested parties.
    ALA guidelines published in the last 2 years include Seismic 
Fragility Formulations for Water Systems, Guidelines for the Design of 
Buried Steel Pipe, Seismic Design and Retrofit of Piping Systems, 
Extreme Ice Loads from Freezing Rain, and Guidelines to Define Natural 
Hazards Performance Objectives for Water Systems. Guidelines currently 
in preparation include those to evaluate the performance of electric 
power, oil and natural gas pipelines, and wastewater systems during 
natural hazard and terrorist threat events.
    In spite of these successes, ALA has recently lost its funding 
support from FEMA due to budget cuts during the past year, creating a 
leadership vacuum for helping to prepare the Nation's critical 
infrastructure systems for natural disasters. And now there is no clear 
direction about how to address infrastructure performance in a multi-
hazard environment. There is an urgent need to coordinate the 
activities of NEHRP and Wind Hazard Reduction Program.
    Misplaced Complacency--Many public policymakers know that 
earthquakes are infrequent and assume they can be safely ignored in 
favor of more pressing issues; but they can be assured that when a 
catastrophic earthquake occurs on their watch, the truth will be 
revealed. Public perception, it could be said, might be that the United 
States is not that vulnerable to earthquakes, because the number of 
lives lost has been exceptionally low compared with that in other 
countries. The fact is, it has been a matter of luck that earthquake 
deaths have not been higher in the United States. Thirty-nine states 
have an earthquake threat, and it is just a matter of time before 
disaster strikes. We cannot afford to rely on good fortune to minimize 
earthquake loss of life. Let's look at a few examples.
    1971 San Fernando, California, Magnitude 6.7 Earthquake--The San 
Fernando earthquake was a direct hit beneath the San Fernando Valley, a 
few miles north of downtown Los Angeles. The earthquake occurred at 6 
a.m., when most people were safe at home. The Lower San Fernando Dam 
was severely damaged and would have experienced massive failure, except 
the reservoir had been drawn down for maintenance a few days before the 
earthquake. We were lucky that the duration of the shaking was short. 
Had the earthquake lasted a few more seconds, the dam would have 
massively failed, releasing the water in the reservoir onto the 80,000 
people living directly downstream. The first floor of the outpatient 
facility at the new Olive View Hospital massively collapsed, but it was 
unoccupied because of the early morning hour of the earthquake; later 
in the day, the facility would have had hundreds of patients.
    1989 Loma Prieta, California, Magnitude 7.1 Earthquake--In spite of 
the fact that a major earthquake struck the San Francisco Bay Area on 
October 17, 1989, losses were minimal; there were only 63 deaths. We 
take credit for the fact that we had an aggressive program of seismic 
safety improvements throughout the Bay Area, and that helped limit the 
losses. However, we were lucky. The center of the energy release along 
the San Andreas fault was in the Santa Cruz Mountains, 30 to 60 miles 
from the major cities. Had the earthquake been closer, damage, 
particularly to the older building stock that had not been seismically 
upgraded, would have been disastrous. It occurred at 5:04 p.m., commute 
time, the worst time of day for an earthquake according to earthquake 
scenarios, and because the streets are filled with people and the 
freeways are jammed with traffic. An upper section of the Bay Bridge 
dropped onto the lower deck, and the Cyprus double-decker freeway in 
Oakland massively collapsed. These two structural failures could have 
been the source of hundreds of deaths. But we were lucky. The World 
Series Earthquake, as it has been called, occurred at the beginning of 
the third game of the World Series between the two Bay Area teams, the 
San Francisco Giants and the Oakland Athletics. The freeways and 
bridges were eerily empty while people were inside, watching the game. 
It was also fortunate that, because of the game, we had media coverage 
of the earthquake that lasted more than 2 weeks, helping to raise 
awareness of the earthquake threat.
    1994 Northridge, California, Magnitude 6.7 Earthquake--The 
Northridge earthquake also occurred during the early morning hours, 
4:31 a.m., on Martin Luther King, Jr. Day. Had the earthquake occurred 
only a few hours later on the national holiday, the near-massive 
collapse of the Bullocks Department Store in Northridge would have 
resulted in more deaths in that one building than all the deaths (57) 
in the entire region affected by the earthquake. Thousands of 
commercial buildings were badly damaged and many collapsed, and many 
freeway bridges collapsed, but they were all virtually empty at the 
time of the earthquake.
    2001 Nesqually, Washington, Magnitude 6.8 Earthquake--The February 
28, 2001 earthquake that struck the Nesqually district of Seattle, 
Washington, resulted in only minor casualties and localized damage. The 
lack of significant damage and casualties were due to two important 
factors: the focal depth of the earthquake was two to three times 
deeper (55 km) than most damaging earthquakes, and for the past few 
decades the Seattle region has adopted an aggressive seismic safety 
improvement program, particularly with support from FEMA's Project 
Impact during the 1990s. However, just prior to the earthquake, due to 
Mardi Gras-related riots in Pioneer Square and the Sodo District, the 
police had barricaded the area to public access. We were lucky because 
in this old part of the city, unreinforced masonry walls fell into the 
streets when the earthquake struck, and would have resulted in many 
casualties had people been allowed normal access.
    2002 Denali Fault, Alaska Magnitude 7.9 Earthquake--The second 
largest earthquake ever to strike the United States, the magnitude 7.9 
earthquake on November 3, 2002, on the Denali fault, was a media non-
event. This was partly because the earthquake struck a very remote 
region of Alaska. We were lucky this large earthquake was released on a 
fault in Alaska, rather than along one of the many faults close to 
major population centers in California. A similar earthquake along any 
of the faults associated with the San Andreas fault would have resulted 
in thousands of deaths and direct and indirect economic losses that 
could have easily exceeded $200 billion.
    But it was also a media non-event because the only significant 
structure situated in the path of this potentially devastating 
earthquake did not fail. It was not a matter of luck that the Trans-
Alaska Pipeline performed so well. It was exceptional scientific 
assessment of the earthquake hazards and innovative engineering design 
that prevented an oil spill. The Denali fault experienced 18 feet of 
horizontal and 2.5 feet of vertical displacement at the pipeline 
crossing of the fault. Thirty-two years ago, I organized a state-of-
the-art scientific team to complete seismic hazard evaluations of the 
pipeline route. We worked with an innovative pipeline engineering 
design team, under the direction of Newmark and Hall, and the result 
was that when the maximum design earthquake occurred directly beneath 
the pipeline, not a drop of oil was spilled because the pipeline was 
well prepared to accommodate the fault displacement and related 
earthquake effects.
    Seventeen percent of U.S. crude oil flows through the Trans-Alaska 
Pipeline. The State of Alaska depends on the pipeline for eighty 
percent of its revenue. If damaged, the pipeline could have been 
disabled for many months, causing gas prices to soar. It is possible 
that if the pipeline had broken, the resulting environmental disaster 
would cause the pipeline never to be restored.
    Earthquake programs and hazard-reduction priorities are too 
important to risk being lost among competing demands and priorities. In 
California, important earthquake programs were but a small portion of 
the overall responsibilities of departments responsible for emergency 
response, geologic hazards, and structural engineering. The state 
responded by establishing a Seismic Safety Commission as an independent 
and single-minded body charged with making certain that earthquake 
safety is never overlooked. At the present time the Commission is 
threatened by bureaucratic elimination.
    The NEHRP needs to continue under an improved organizational 
structure and proceed along the lines of the overdue, but recently 
published, NEHRP Strategic Plan--The Strategic Plan outlines a course 
of action for the best use of existing funding and prioritizes 
opportunities for accelerating the program as additional funding 
becomes available. It outlines a balanced and accelerated approach that 
calls for Federal-level leadership and incentives focused on the 
adoption of proper public policy and expanded funding for the 
activities needed to develop new design techniques aimed at making 
mitigation affordable.
    A strong, viable earthquake risk reduction effort must include 
proactive implementation through increased funding, incentives for risk 
reduction, new public policy, and inspired leadership. As pointed out 
in the recent Earthquake Engineering Research Institute report, 
Securing Society Against Catastrophic Earthquake Losses (Earthquake 
Engineering Research Institute, Oakland, California, 2003), at current 
funding levels, it will likely take 100-plus years to secure the Nation 
against unacceptable earthquake risks. Based on EERI's research and 
outreach plan, implementing an expanded program that has three times 
the funding and includes full appropriations for ANSS and NEES, will 
provide the needed earthquake risk reduction results in the next 20 to 
30 years. The next major earthquake will demonstrate that 100 years is 
much too long to wait.
    Unless seismic safety is afforded a priority that is now lacking 
throughout most of the 39 states that have significant earthquake 
exposure, the United States will experience unacceptable yet avoidable 
deaths and economic losses from future earthquakes. We have been lucky, 
we cannot afford to base our earthquake public policy on dumb luck.
    I recommend the Subcommittee consider the many lessons contained in 
my testimony, as well as lessons presented in activities of this 1906 
San Francisco Earthquake 100 year Anniversary Commemoration, and take 
prudent action to minimize our earthquake risks.
    Thank you for the opportunity to address the Subcommittee.
                                 ______
                                 
   Appendix A--Scientific Earthquake Studies Advisory Committee 2005 
                                 Report

           Scientific Earthquake Studies Advisory Committee
                               San Francisco, CA, November 23, 2005
Dr. Patrick Leahy
Acting Director,
U.S. Geological Survey,
Reston, VA.
  Subject: 2005 Annual Report of the Scientific Earthquake 
                                 Studies Advisory Committee

Dear Dr. Leahy:

    Enclosed is our fourth committee report on the USGS Earthquake 
Hazards Program for submission to Congress and other interested 
parties, particularly the NEHRP Advisory Committee.
    The Committee met three times in 2005, and identified many 
challenges, opportunities, and recommendations that are included 
throughout our report. However, we believe there are three especially 
important, high-priority recommendations, discussed in detail in the 
report, for the USGS Earthquake Hazards Program at this time.

        1. The SESAC strongly encourages the USGS, the Secretary of the 
        Interior, the Office of Management and Budget, and Congress to 
        move forward vigorously with the Natural Hazards Initiative in 
        the USGS Fiscal Year 2007 budget. Recent events have 
        spotlighted natural hazards, and the Committee believes the 
        USGS, through its Natural Hazards Initiative, has a major 
        growth opportunity to take the leadership in creating a 
        disaster-resistant country. We recommend the USGS undertake a 
        complete analysis of the consequences of catastrophic 
        earthquakes in the San Francisco Bay Area and in Southern 
        California, and integrate the complete picture, from rupture on 
        the fault, wave propagation into buildings and other 
        structures, the response of all levels of our infrastructure, 
        the emergency response, and continuing to the full recovery of 
        our society. The purpose of this exercise would be to identify 
        where and when the breaking points for an extreme earthquake 
        disaster in California will be. The lessons learned in this 
        demonstration project would be applicable to all national, 
        extreme disasters.

        2. In support of the above recommendation, the Committee 
        continues to strongly recommend to the Director of the USGS 
        that full funding of the ANSS at the level authorized in the 
        current NEHRP legislation be appropriated. The USGS must make a 
        commitment to work through the Department of the Interior and 
        the Office of Management and Budget to ensure this objective is 
        met. Full deployment of the ANSS offers the potential to 
        substantially reduce earthquake losses and their consequences 
        by providing critical information for land-use planning, 
        building design, insurance, warnings, and emergency 
        preparedness and response. A 2005 report by the National 
        Research Council reiterates that the potential benefits far 
        exceed the costs.

        3. The Committee reemphasizes the USGS must reestablish the 
        National Earthquake Prediction Evaluation Council to serve as 
        the forum to review predictions and resolve scientific debate 
        prior to public controversy or misrepresentation, so 
        decisionmakers are not mislead by unfounded, short-term 
        earthquake predictions. The Committee encourages the USGS to 
        support an active NEPEC equipped with adequate resources to 
        perform this role.

    We recommend that a joint meeting of the SESAC and the NEHRP 
Advisory Committee be held soon after the formation of the new 
committee. Representatives of the SESAC should be considered for 
appointment to the NEHRP Advisory Committee.
    We look forward to continued involvement in this important program.
            Sincerely,
                                            Lloyd S. Cluff,
                                                          Chairman.
                                 ______
                                 
 Report of the Scientific Earthquake Studies Advisory Committee of the 
    Department of the Interior to the Director of the United States 
                        Geological Survey (2005)

    The Scientific Earthquake Studies Advisory Committee (SESAC) of the 
Department of the Interior is issuing this annual report to the 
Director of the United States Geological Survey (USGS) for submission 
to Congress. The report describes the Committee's activities of the 
past year and addresses policy issues and matters relating to the 
participation of the USGS in the National Earthquake Hazards Reduction 
Program (NEHRP). We believe this report (and previous years' reports) 
will be particularly useful to the NEHRP Advisory Committee on 
Earthquake Hazards Reduction currently being established.
SESAC Mandate
    The Scientific Earthquake Studies Advisory Committee was appointed 
and charged, through Public Law 106-503, to advise the Director of the 
United States Geological Survey on matters relating to that agency's 
participation in the National Earthquake Hazards Reduction Program. The 
charge includes review of the USGS Earthquake Hazard Program's roles, 
goals, and objectives, assessment of its capabilities and research 
needs, guidance on achieving major objectives, and establishment of 
performance goals.
Activities of the Committee During 2005
    The SESAC met three times:

        1. Meeting in Reston, January 11 and 12. Objective: Review the 
        overall direction of the USGS Earthquake Hazards Program for 
        the current year and for the future, with emphasis on defining 
        opportunities for future growth and strategies for balancing 
        program needs against increasing resource limitations.

        2. Meeting in Menlo Park, April 13 and 14. Objective: Review 
        the direction of the USGS Earthquake Hazards Program in the 
        Western United States, with emphasis on the creation, 
        communication, and use of seismic hazard analyses in the 
        region.

        3. Meeting in Seattle, September 27, 28, and 29. Objective: 
        Review the direction of the USGS Earthquake Hazards Program in 
        the Pacific Northwest, with emphasis on tsunami hazard 
        mitigation.

Review of the USGS Earthquake Hazards Program
    The various accomplishments of, issues pertaining to, and 
opportunities for the USGS Earthquake Hazards Program identified and 
reviewed at our January, April, and September meetings are discussed 
below.

Five-Year Plan Review
    The USGS provided the SESAC the September 2004 draft of the 
Earthquake Hazards Program's Five-Year Plan for 2004-2008. This draft 
of the plan was initiated in January 2003, presented to the USGS 
executive leadership team for review in January 2004, presented to the 
White House Office of Management and Budget (OMB) in September 2004, 
and given to the Committee for discussion at its January 11-12, 2005 
meeting. Shortly after the January 2005 meeting, SESAC members 
submitted comments regarding the plan to the USGS. The USGS intends to 
consider these comments in the final version, which they hope to 
complete by the end of 2005. In mid-September 2005, the USGS met with 
OMB to discuss finalization of the plan.
    The SESAC finds the September 2004 draft Five-Year Plan to be a 
good one. It sets five-year goals for the three key elements of the 
program (national and regional earthquake hazard assessment; earthquake 
monitoring, notification, and information; and research on earthquake 
physics and effects). In addition, this new plan sets five-year goals 
for a fourth element that had not been clearly articulated in previous 
program plans--earthquake safety policy. The plan includes a set of 
prioritized tasks, which can only be accomplished if funding for the 
USGS Earthquake Hazards Program is significantly increased to the 
levels authorized by Congress for the National Earthquake Hazards 
Reduction Program (NEHRP).
    The SESAC looks forward to seeing the final version of the Five-
Year Plan. Substantive comments we have about the September 2004 draft 
follow:

  <bullet> A priority for the Committee ,in 2006 will be to scrutinize 
        the USGS's intention reflected in the draft Five-Year Plan to 
        become involved in risk assessment activities and earthquake 
        safety policy. In the interim, we feel it wise for the USGS to 
        work with the Federal Emergency Management Agency (FEMA) and 
        the National Institute of Standards and Technology (NIST) to 
        assure the geological products (probabilistic seismic hazard 
        maps, fault maps, ShakeMaps, information on liquefaction 
        hazards, landslide hazards, and local basin effects) of the 
        USGS and other organizations can be, and are, properly 
        integrated into HAZUS and other loss-estimation methods.

  <bullet> The USGS must recognize that to do a thorough job of 
        assessing earthquake hazards, detailed (1:24,000-scale and 
        sometimes larger) earthquake hazard maps are needed, including 
        probabilistic ground-shaking maps; liquefaction-, landslide-, 
        and fault-rupture-hazard maps; and three-dimensional models of 
        seismic velocities at shallow depths (for geotechnical 
        engineering applications) and at greater depths (for predicting 
        amplification resulting from basin effects). Such maps are 
        critical for hazard assessments and consequent earthquake-risk 
        mitigation. FEMA's view is such mapping is the responsibility 
        of the USGS, but the USGS has not aggressively tried to build 
        the level of program funding to produce the detailed maps that 
        are needed across the country, even in the highest hazard 
        areas. There are two possible solutions to this problem: (1) 
        the USGS obtains a dramatic increase in its budget to handle 
        the need for detailed hazard maps, or (2) the USGS strongly 
        informs FEMA, NIST, and others they do not have the resources 
        to adequately cover the needs for detailed maps; therefore, the 
        production of these maps should be a legitimate and required 
        component of mitigation, thereby making funds available through 
        FEMA's pre-disaster mitigation program and post-disaster 
        Stafford Act relief.

  <bullet> Maintaining an active research program on earthquake 
        occurrence, physics, and effects is vital to the overall 
        objectives of the USGS Earthquake Hazards Program. Many of the 
        advances in earthquake hazard assessments, monitoring, and 
        notification now put into practice were made possible by 
        research supported through the National Earthquake Hazard 
        Reduction Program. The Five-Year Plan properly focuses on 
        developing physics-based understanding of earthquake 
        nucleation, propagation, and arrest, as well as the 
        transmission of seismic waves and their impacts on the built 
        environment. The real question for the Earthquake Hazards 
        Program is whether the program will have the personnel and 
        resources to address the crucial tasks identified. At present, 
        Element III (Research on Earthquake Physics, Occurrence and 
        Effects) represents only 20 percent of the overall program. 
        Given the increasing public expectations for 24/7 monitoring 
        and notification, there is a danger the research component will 
        wither under flat or declining budgets. The Earthquake Hazards 
        Program cannot afford to become solely a monitoring entity, 
        hoping the vital research needed to improve hazard assessments 
        and earthquake forecasting will be accomplished by other 
        agencies or academia. It is imperative the program receives 
        funding to continue to support and coordinate internal and 
        external research.

  <bullet> A major component of the Earthquake Hazards Program, 
        internally and through cooperative agreements with 
        universities, private-sector partners, and others, is regional 
        earthquake monitoring. At present, there is effective 
        cooperation between regional networks, but much more must be 
        done to move toward a fully integrated national network. 
        Earthquake parameters, including location and magnitude, need 
        to be standardized across network boundaries. Seismic data, 
        including waveforms, must be uniformly available. Finally, 
        given the budgetary environment, the USGS cannot afford to 
        duplicate efforts in each of the regional networks, including 
        those supporting volcano monitoring. There has been 
        considerable progress in this area, particularly in California 
        with the development of the California Integrated Seismic 
        Network (CISN), but the USGS and its partners must do more to 
        ensure uniform availability and quality of data products. For 
        example, the USGS needs to develop a data center for parametric 
        information from ANSS products, and must develop standardized 
        software for use by regional networks and make its adoption a 
        requirement for USGS support. The USGS has invested a great 
        deal in its array systems and there is a foundation to build 
        on, but it is not articulated in the Five-Year Plan.

  <bullet> The December 26, 2004 Sumatra earthquake and Indian Ocean 
        tsunami highlighted the need for the Five-Year Plan to better 
        reflect the Earthquake Hazard Program's role in working with 
        NOAA for tsunami warning and hazard mitigation. The plan lacks 
        adequate discussion of the role of earthquake monitoring and 
        related research in effective tsunami warning. Furthermore, 
        developing a 24/7 earthquake monitoring and reporting 
        capability is listed as a lesser priority (3). Given the 
        supplemental funding provided following the Indian Ocean 
        disaster, we understand this will be upgraded and the change 
        should be reflected in the final plan.

  <bullet> An issue that needs to be adequately addressed in the Five-
        Year Plan is the importance of geodesy in earthquake physics. 
        What should be the role of the USGS in geodetic monitoring, 
        given the key advances and opportunities for partnering with 
        Earth Scope and NASA? In the past, the USGS led the world in 
        geodetic survey monitoring of active faults. Existing GPS 
        networks operated cooperatively by the USGS and others are 
        being folded into the Plate Boundary Observatory framework. 
        InSAR measurements are contributing to mapping crustal strain 
        as well as earthquake deformations. A logical role for the USGS 
        is to provide comprehensive maps of strain accumulation in 
        space and time, as is being done for Southern California, and 
        to integrate these data into physical models of the fault 
        loading processes.

Earthquake Hazards Program in the Western United States
    In April, the SESAC met in Menlo Park, California. The primary 
focus of the meeting was research conducted by the USGS Earthquake 
Hazards Program in the Western U.S. Additional discussions centered on 
the proposed USGS regional reorganization, and the recently announced 
emphasis on a Natural Hazards Initiative.
    The Committee heard a detailed summary of the state of planning for 
the regional restructuring of the USGS, the Director's reasons for 
enacting a restructure, the options currently on the table, and the 
potential impacts of these options for the management and financial 
health of the Geologic Discipline and the Earthquake Hazards Program. 
SESAC members expressed concern that a reorganization would impede the 
success of the Earthquake Hazards Program. It cannot be assumed it will 
be business as usual after a reorganization, particularly if the 
favored Zip-Code plan is put in place. We recommended the USGS maintain 
a process-oriented focus and assure that national monitoring is not 
compromised by a regionalized management structure. We understand the 
financial challenges and hope the reorganization will not increase the 
burden; the Earthquake Hazards Program's biggest challenge is having 
the money and people to take advantage of opportunities.
    The Fiscal Year 2007 Natural Hazards Initiative design team in 
Menlo Park reported receiving $300 million worth of research proposals. 
Risk assessment requires earthquake-engineering expertise and there was 
discussion as to how to incorporate this capability. A significant 
component in the initiative will be partnerships. The Committee felt it 
was imperative to include the development of strategies for potentially 
catastrophic urban disasters in the U.S.
    The SESAC reviewed the activities of the Crustal Deformation 
Project, which are managed out of Menlo Park. Key reasons for 
monitoring crustal deformation, using GPS and InSAR, are to: (a) 
estimate fault slip rates for input to earthquake probability 
assessments and National Strong Ground Motion Maps; (b) map and model 
co-seismic, post-seismic, and inter-seismic deformation; (c) search for 
and constrain potential precursory deformation; and (d) obtain process-
based understanding of the earthquake deformation cycle (needed to 
accomplish (a), (b), and (c)).
    The Earthquake Processes and Occurrences (EQPRO) Project reported 
on two large projects they participate in that cross both mega-project 
and internal/external USGS program borders: the Rupture Dynamics part 
of the 1906 Project (a collaborative effort led by the San Francisco 
Bay Area program, with heavy participation by the Earthquake Effects 
Projects, the Earth Surfaces Processes Team, and external researchers); 
and the Hayward Fault Project (a collaborative effort led by the 
Earthquake Physics and Faulting Project, with heavy participation by 
EQPRO, the Earth Surfaces Processes Team, and external researchers). We 
felt the activities of the Hayward Fault Project need to be applied to 
more faults in the San Andreas fault system and in the Pacific 
Northwest.
    Work of the Physics of Earthquakes and Faulting Project involving 
borehole studies, heat-flow research, and laboratory research was 
presented. There are extensive collaborations with universities, the 
Southern California Earthquake Center (SCEC), and international 
partners to leverage USGS assets and resources. The USGS has made 
obvious contributions to crustal processes and earthquake research 
(Byerlee's law, rate/state friction, mechanics of induced seismicity, 
Coulomb stress transfer/earthquake triggering models).
    The activities of the Golden-based Earthquake Effects Project were 
summarized, emphasizing: (a) three-dimensional velocity model-building 
and scenario ground-motion prediction in the Santa Clara Valley; (b) 
comparison of alternative shallow shear-wave velocity measurement 
techniques and site response calculations; (c) calculation of time 
histories of ground motion, kinematic, and dynamic models; and (d) 
landslide susceptibility maps for Alaska. The Committee engaged USGS 
staff in an extensive discussion of how the science flow fits with the 
development of attenuation functions used in hazard maps. We would like 
to see better coordination between ground-motion modeling at the 
various centers and more national coordination.
    The research encompassed by the Western Region Earthquake Effects 
MegaProject includes: (a) rupture dynamics and radiated energy; (b) 
ground motion regressions; (c) aftershock and site response 
deployments; (d) active source refraction and reflection; (e) Northern 
California ShakeMap; (f) liquefaction studies and sampling; and (g) 
landslide studies. An important aspect of this work is collaboration 
with Pacific Earthquake Engineering Research Center's (PEER) New 
Generation Attenuation Project. Additional discussions centered on a 
Bay Area three-dimensional model, several seismic imaging experiments, 
and a Parkfield dense-array analysis of the main shock rupture.
    Stress-interaction calculations have been performed by the Menlo 
Park and Golden teams to estimate the effects of the magnitude 9.0 and 
magnitude 8.7 Sumatra earthquakes on the state of stress of other 
faults in the region. Faults of concern include the Sumatra fault, a 
strike-slip fault that traverses northern Sumatra and Banda Aceh and is 
capable of magnitude 7.5 earthquakes, and portions of the subduction 
interface off the West Coast of Sumatra. Preliminary geodetic and other 
data suggest that at least two substantial fault patches are primed for 
failure. An array of ten strong-motion stations is being installed and 
funds from the U.S. Agency for International Development are being 
sought to defray the cost of installing and maintaining the stations. 
The recorded ground motions will be valuable in studying similar 
tectonic environments in the U.S., such as Cascadia and Alaska.
    A detailed time-line of the National Earthquake Information Center 
(NEIC) actions and response to the Sumatra earthquake was presented, 
along with perspectives on how the existing technology, practices, and 
interagency agreements factored into the response. Advances are 
underway at the NEIC, including testing of a new, integrated software 
and hardware system called Hydra that will include an advanced analyst 
interface and improved algorithms for rapid phase determination and 
event characterization.
    April 18, 2006, will mark the centennial of the San Francisco 
Earthquake and Fire, the great natural disaster of the 20th century in 
the United States. The Menlo Park office is playing a major role in 
preparations that include an impressive lineup of activities that 
commemorate the event, review the progress made in earthquake risk 
reduction, and set the agenda for managing earthquake risk in the 21st 
century. Many of the activities are being coordinated through the 135 
members of the 1906 Earthquake Centennial Alliance (http://
1906centennial.org/). This partnership of business, government, 
museums, media, educational institutions, and professional societies is 
sponsoring scores of public activities leading up to the centennial. 
The 100th Anniversary Conference Commemorating the 1906 San Francisco 
Earthquake will be held in San Francisco on April 18-22, 2006. This 
joint meeting of the Earthquake Engineering Research Institute, 
Seismological Society of America, and Disaster Resistant California and 
55 cosponsoring organizations, including the USGS, will assemble 
government, business, engineering, and scientific professionals to 
learn from the past, assess the present, and prepare for the future 
(http://www.1906eqconf.org/index.htm). For one week, these institutions 
will be focused on integrating mitigation efforts to create disaster 
resistant communities in all earthquake vulnerable areas.

Earthquake Hazards Programs in the Pacific Northwest
    In September, the SESAC met in Seattle, Washington. The USGS's 
earthquake hazard reduction activities there include geologic and 
geophysical research and monitoring, primarily from the Seattle USGS 
office. They participate in collaborative regional seismic monitoring 
of the Washington/Oregon region by the Pacific Northwest Seismic 
Network (operated by the University of Washington) and a strong 
business-community partnership program with the Cascadia Region 
Earthquake Workgroup (CREW), and share tsunami research and warning 
capabilities with the Seattle National Oceanic and Atmospheric 
Administration (NOAA) office. The Committee particularly noted the 
significant collaboration of the community in geology, engineering, and 
emergency management efforts exemplified by CREW. The credibility of 
the local experts is enhanced by the participation of the USGS, NOAA, 
and university experts in state, county, and city government earthquake 
hazard activities and briefings. The Committee recognized the Pacific 
Northwest hazards programs are effectively tied to the national program 
and efforts are required to insure this continues.
    A presentation of geologic mapping of active and regional tectonic 
features focused on the Seattle region. The project demonstrated the 
value of LIDAR imagery for detailed analysis of the Seattle fault and 
surrounding area of Puget Sound. Seismic refraction and reflection of 
crustal structure were employed to map subsurface structures, 
particularly the geometry and extent of the Seattle fault, and the 
extent of the surrounding sedimentary basins. Ground-motion assessments 
by the USGS have been very successful in the Puget Sound Area. Using 
data from the magnitude 6.8 Nisqually (near Tacoma) Earthquake of 
February 2001, recorded by the ANSS broadband seismic stations and 
accelerometers, and numerical modeling associated with sedimentary 
basins verified this important method. Earthquake scenarios developed 
for the Puget Sound region illustrate that populated areas could be 
significantly impacted by large events due to the amplification of 
strong ground motions. Additional hazards in the area are landslides 
triggered by earthquakes and other sources in over-steepened slopes, 
particularly along the coastline of Puget Sound. The USGS needs to 
improve collaboration with the Washington Department of Natural 
Resources on the joint objective of natural hazard mapping.
    The Oregon Department of Geology and Mineral Industries summarized 
related seismic hazard studies in the Portland area. The Oregon group 
is partnering with the USGS for advancing hazard assessment in that 
region and implementing ANSS monitoring. The USGS has begun to 
strengthen ties to the Oregon Department of Geology and Mineral 
Industries in natural hazard mapping in Oregon. This activity needs to 
be continued, with additional commitment of USGS support for Oregon 
earthquake hazard assessment.
    The USGS demonstrated strong ties to community programs. Efforts 
have been made to engage the business community and assist them in 
implementing earthquake risk mitigation activities; successful examples 
include Starbucks, Microsoft, and Boeing. The Pacific Northwest Seismic 
Network operates a modern, digital seismic monitoring network that 
materially benefits the State of Washington. We note, however, that 
unfortunately, the State of Washington's contribution to this effort is 
very limited. We urge the USGS to become more engaged with the academic 
community to help the researchers in science and engineering become 
more user-focused so the needs of the communities at risk will be 
addressed and research results can be effectively applied in risk 
reduction activities.
    The clear goals of earthquake loss reduction must continue to be 
communicated by the USGS in understandable terms to local 
decisionmakers. Effective communication (bottom-up approach) to 
decisionmakers addressing community needs has been very effective in 
the region, especially through ties to CREW. This approach achieves 
local buy-in for loss reduction activities and is highly commended by 
the Committee. The Elementary Edition K-6 educational booklet, How the 
Smart Family Survived a Tsunami, and the DVD Run to High Ground, by the 
Washington State Military Department, Emergency Management Division, 
developed to help children prepare for tsunamis, are fine examples of 
how complex scientific issues can be explained to the public. Another 
exemplary report is the Earthquake Engineering Research Institute's 
Scenario for a Magnitude 6.7 Earthquake on the Seattle Fault. This 
report was accomplished through broad collaborative efforts among 
various professional organizations (the American Society of Civil 
Engineers, Seattle, the Structural Engineers Association of Washington, 
the University of Washington, the Washington Emergency Management 
Division, the Cascadia Region Earthquake Workgroup, the Federal 
Emergency Management Agency, and the U.S. Geological Survey).
    The implementation of the FEMA's Project Impact in Seattle has been 
a tremendous success. Project Impact was a nationwide program of pre-
disaster mitigation that was a casualty of FEMA's downsizing; however, 
the 2001 Nisqually Earthquake kept the program alive in Seattle. As is 
the case with most of the USGS's work in the Pacific Northwest, 
additional funding is needed so USGS scientists can work closely with 
the Project Impact disaster mitigation activities.
    The tsunami hazard is of particular importance to the Pacific 
Northwest because major subduction-zone earthquakes are possible in the 
coastal areas of Washington, Oregon, California, and Alaska. The 
relatively short warning time of only a few minutes, up to 20 minutes, 
in Washington, Oregon, and California specifically highlights the need 
for full implementation of ANSS and additional broadband seismic 
station information, incorporated with real-time NOAA tsunami 
forecasting. The Committee was particularly impressed with the timely 
publication by the USGS of Local Tsunami Hazards in the Pacific 
Northwest from the Cascadia Subduction Zone Earthquake, only 8 days 
after the December 26, 2004 Sumatra Earthquake and Indian Ocean 
tsunami, illustrating the high level of tsunami awareness in the 
Pacific Northwest.
    Significant progress in the Pacific Northwest has been accomplished 
toward improved tsunami awareness, the development of hazard maps and 
reports, and proposed risk reduction measures. Interagency 
collaboration on tsunami hazard mitigation exists between the USGS, 
NOAA, the Washington Emergency Management Division, Clallam County 
Emergency Management Division, and the Quileute Tribal Council. Such 
ties among state, local, and tribal agencies must be continued. 
Additionally, the USGS and NOAA (particularly the National Weather 
Service) need to increase collaboration to improve real-time transfer 
of tsunami-generating earthquake information and tsunami warnings. This 
must include access to the real-time earthquake information developed 
by the National Earthquake Information Center (NEIC), which will be 
communicated more effectively with the 24/7 operation of the NEIC, 
beginning January 2006. The USGS NEIC team needs to work closely with 
the National Weather Service to implement corrective measures to avoid 
recurrence of the unacceptable June 14, 2005 tsunami warning, which was 
ineffective and informed the public of nonexistent threats.
    Site-specific and highly reliable instrumentation is needed near 
the Cascadia tsunami source so that communities along the Pacific Coast 
where destructive tsunamis have the potential to strike within 5 to 20 
minutes after the earthquake can be notified immediately that a tsunami 
has been initiated and is moving toward the coast. The USGS must work 
with local and state agencies in this effort to incorporate timely 
monitoring information on earthquake occurrence. The emergency 
management community must engage the structural engineering community 
in their tsunami protection efforts. The Committee noted that some 
poles for mounting tsunami-warning instrumentation and certain 
evacuation structures were not earthquake or tsunami resistant. Funding 
agencies need to designate resources to support the efforts to create 
tsunami-ready communities. The efforts so far have only begun to make 
the public aware that potential catastrophic earthquakes and tsunami 
threats exist. Effective educational programs will help to ensure rapid 
response and recovery.

EarthScope Opportunities for the USGS Earthquake Hazards Program
    EarthScope is expanding seismic and geodetic observational 
capabilities that will provide key information for the USGS earthquake 
research and monitoring goals. In the past 3 years, EarthScope has 
begun to populate USArray, a mobile seismic array, and the Plate 
Boundary Observatory network of Global Positioning System receivers and 
strain meters. The resulting information is vital to understanding the 
structure, evolution, and crustal deformation of North America, as well 
as providing data on earthquake and volcano processes. Additionally, 
components of existing western United States GPS networks, initially 
funded under NSF and other grants, are being transferred and 
coordinated into the overall Plate Boundary Observatory. These stations 
will provide important geodetic coverage on active fault zones and 
tectonic deformation of the entire western U.S.
    The USGS is regarded as a partner with EarthScope in its operations 
and research; however, the USGS does not have the resources to take 
full advantage of EarthScope activities and data. To do its job, the 
USGS needs to fully exploit EarthScope instrumentation. The Committee 
reiterates its 2004 recommendations that the USGS become a more 
integral participant in EarthScope by:

  <bullet> Continuing to support USGS scientists and provide technical 
        support in the San Andreas Fault Observatory at Depth project.

  <bullet> Incorporating data from the seismic and geodetic arrays into 
        USGS monitoring systems.

  <bullet> Involving USGS scientists more broadly in use of EarthScope 
        data.

  <bullet> Actively seeking collaborative research with university 
        scientists in research and hazard topics of common interest.

    The EarthScope USArray provides seismic data that complement the 
ANSS data, as well as providing additional information for several 
USGS-funded regional seismic arrays. The Plate Boundary Observatory 
provides important information on the rate at which strain is 
accumulating in earthquake prone regions. These efforts materially 
benefit the USGS earthquake monitoring and research objectives, 
especially at a time when resources are limited. The SESAC will 
concentrate on the USGS Earthquake Hazards Program's relationship with 
EarthScope at their next meeting in January 2006.

USGS Regional Reorganization
    During its meetings this year, the SESAC received reports on the 
ongoing USGS planning process for reorganization of its regional 
management structure. At the January meeting in Reston, the Committee 
was briefed by then-Director Chip Groat on his goals for the 
reorganization, in particular, improving the interaction between 
external partners and pushing decisionmaking out to the field to 
enhance responsiveness to partner needs. At the April meeting in Menlo 
Park, the Committee was briefed on the progress in the planning 
process.
    At both meetings, the Committee members emphasized the importance 
of retaining a national vision for USGS earthquake hazards activities 
and maintaining strong linkages between the regional offices (such as 
Pasadena, Seattle, and Memphis) and the program office in Reston, and 
the team leadership in Menlo Park, and Golden. Without these linkages, 
the ability of program-supported scientists to share resources and 
apply their experiences in other regions would be adversely affected. 
The Committee feels the leaders of the Earthquake Hazards Program, the 
Western Region Earthquake Hazards Team, and the Central Region Geologic 
Hazards Team have been successful at maintaining these linkages and 
being responsive to regional partner needs, in particular through the 
efforts of regional coordinators who form the program's internal 
council, along with coordinators focused on monitoring and research 
topics. Whatever form the restructuring takes, the Committee feels 
strongly that it should not hinder the current management system, which 
is working well.

Working Group on California Earthquake Probabilities
    A new Working Group on California Earthquake Probabilities has been 
established recently, in partnership with the Southern California 
Earthquake Center, the California Geological Survey, and the California 
Earthquake Authority (CEA) (the State's earthquake insurance provider 
and rate-setting organization). The Committee notes that such 
partnerships strengthen the USGS Earthquake Hazards Program in several 
tangible ways. They marshal new resources (the Working Group will 
receive $1.75 million directly from CEA) and expand the pool of 
expertise (the Working Group will include SCEC's academic scientists). 
Most importantly, they coordinate and integrate efforts to produce 
useful products for regional hazard assessment and risk reduction.
    This project will combine new information on earthquake occurrence 
with the best-available forecasting methods to construct a uniform 
earthquake rupture forecast for all California. It will build on 
previous Working Group studies (the latest published in 2002) and will 
be tightly coordinated with the 2007 revisions to the National Seismic 
Hazard Maps.

National Earthquake Prediction Evaluation Council (NEPEC)
    The Committee continues to strongly urge the USGS to reconstitute 
the National Earthquake Prediction Evaluation Council (NEPEC) as soon 
as possible. There is renewed scientific interest in earthquake 
prediction, which is likely to intensify given the increased awareness 
of natural hazards following the recent tsunami and hurricane 
disasters. A number of research groups are working in this area, and 
their efforts are being reported in the popular press. Currently no 
mechanism exists for the Director of the USGS to meet the statutory 
responsibility to evaluate and respond to scientific earthquake 
predictions. A reconstituted NEPEC would establish the means to 
evaluate predictions at the national level, and to inform 
decisionmakers of the scientific credibility of earthquake prediction 
methods.

Natural Hazards Initiative
    The SESAC strongly encourages the USGS, the Secretary of the 
Interior, the Office of Management and Budget, and Congress to move 
forward vigorously with the Natural Hazards Initiative in the USGS 
Fiscal Year 2007 budget. The apocalyptic Sumatra Earthquake in December 
2004, and the ensuing tsunami serve as stark reminders of our 
vulnerability to earthquakes and their associated hazards. Geologic and 
historical evidence indicates that in 1700, an earthquake of similar 
magnitude (estimated to be 9+) along the Cascadia subduction zone 
devastated coastal areas of Northern California, Oregon, Washington, 
and British Columbia, causing a comparable tsunami and extensive ground 
shaking. The geologic record further indicates that such an earthquake 
has occurred at least seven times in the past in the Pacific Northwest, 
and that it will happen again, perhaps soon. Tsunamis from distant 
earthquakes can be detected hours before they strike our shores, but a 
tsunami caused by a local event, such as the 1700 earthquake along the 
Pacific Northwest coast, would take only minutes to strike our 
coastline.
    Although devastating landslides usually are caused by storms, 
landslides of even greater scale frequently are triggered by 
earthquakes. Earthquake hazard maps, particularly in urban areas, will 
reduce risks through improvements in building design and practice, and 
through land-use planning that recognizes landslides and other geologic 
hazards. These maps include probabilistic ground-shaking maps, 
landslide-hazard maps, liquefaction-hazard maps, and fault-rupture-
hazard maps.
    As was recognized in Project Impact, hardening the built 
environment for the predominant natural hazard in an area has the 
effect of reducing exposure to many other hazards. Major earthquakes 
are particularly challenging in this regard, because they are sudden 
events that are unpredictable in the short time frames in which 
emergency responders could mobilize. Recent experiences and loss-
estimation models indicate that urban earthquakes can kill thousands of 
people and cause tens to hundreds of billions of dollars of economic 
losses. Cities throughout the country (including ones in Alaska, 
California, Nevada, New York, Missouri, Oregon, South Carolina, 
Tennessee, Utah, and Washington) face significant risk from 
earthquakes. These risks can be reduced through planning, mitigation, 
and emergency response. Recent events have caused natural hazards to 
come to the fore, and the Committee believes the USGS, through its 
Natural Hazards Initiative, has a major growth opportunity to take the 
leadership in creating a disaster-resistant country.
    There is an exponential exposure to hazards--in 2 years it will be 
worse than it is today due to population growth and urbanization. Post-
Katrina and Rita, we recognize the next big one will come. Natural 
disasters will be a national discussion for the next year or so, and 
the USGS should do everything it can do ensure the government is 
thinking broadly about catastrophic events that break the system--
disasters at the largest scale for which we are not prepared to respond 
in time to save lives and protect property. The cornerstone of 
effective risk reduction is understanding and defining the hazard, and 
the USGS Earthquake Hazards Program provides the key elements--
scientific understanding, hazard assessment, and real-time earthquake 
monitoring.
    Large-scale computational capability is absent in the USGS and 
would be important to this effort. Increasingly, what the USGS does so 
well is synthesize large data sets, and it needs to increase its 
modeling capabilities to accomplish this important work. There is 
concern the USGS is being bypassed because it does not have the 
computers needed. If a greatly enhanced computational ability is 
seriously considered, code verification, maintenance, and quality 
assurance also will need to be funded.
    The USGS is effective in disseminating information that can reduce 
the aftereffects of a catastrophic event, but it needs the budget to do 
so. The Natural Hazards Initiative could provide the necessary 
increases to the USGS budget to address earthquake, tsunami, landslide, 
and other hazards. Leadership and partnerships have to be strengthened 
because NEHRP currently is ineffective. The hazard reduction program in 
the U.S. cannot fall through the cracks as it did during Katrina. 
Catastrophic events will occur on the San Andreas system, the Cascadia 
subduction zone, Utah's Wasatch fault, and the New Madrid fault in the 
Midwest, and we need to be better prepared. The U.S. cannot afford to 
sustain continued major losses from natural hazards.
    In our past three annual reports, the SESAC raised concerns that 
the level of support for the Advanced National Seismic System (ANSS) 
was woefully inadequate to meet program goals. Although funding in 
Fiscal Year 2005 was below the amount authorized by Congress, the 
Committee was pleased to see a 19 percent increase in the appropriation 
for ANSS this year (from $4.4 million in Fiscal Year 2004 to $5.25 
million in Fiscal Year 2005). In addition, ANSS received $2.95 million 
in supplemental funding in support of the President's tsunami warning 
initiative, an increase that will continue in Fiscal Year 2006. Because 
the supplemental funds are narrowly targeted at those aspects of ANSS 
that support improved tsunami response, the need remains for improved 
support of the entire ANSS program.
    The supplemental funds will be used to implement round-the-clock 
(24/7) operations at the National Earthquake Information Center (NEIC), 
complete the replacement of the legacy earthquake event processing 
system at NEIC, and improve the distribution of earthquake intensities 
and tsunami warnings to a variety of users. With these upgrades, NEIC 
will dramatically reduce the response time for issuing earthquake 
alerts, achieve improvements in the accuracy and efficiency of locating 
earthquakes, and expand the number of standard products it generates.
    In our 2004 report, we recommended the USGS pick up the costs of 
long-term maintenance of the backbone ANSS stations that NSF is 
purchasing and installing as part of the USArray element of the 
EarthScope facility. The Committee is pleased to see that the USGS is 
following that recommendation and collaborating with NSF on this 
important aspect of the ANSS.
    The Committee was pleased to learn that NEIC had developed a 
partnership with the Air Force Technical Applications Center (AFTAC) to 
improve real-time monitoring and notification of global earthquakes. 
Data from both the AFTAC arrays and the seismic stations in the 
International Monitoring System of the Comprehensive Nuclear Test Ban 
Treaty Organization will be incorporated into NEIC operations. In 
return, NEIC is now sending e-mail notifications of magnitude 6.0 or 
larger earthquakes to AFTAC; these are then broadcast to U.S. military 
response facilities worldwide.
    The National Research Council (NRC) recently completed its study on 
the economic benefits of improved seismic monitoring. The NRC's 2005 
report, Improved Seismic Monitoring--Improved Decision Making: 
Assessing the Value of Reduced Uncertainty, concluded that

        Full deployment of the ANSS offers the potential to 
        substantially reduce earthquake losses and their consequences 
        by providing critical information for land-use planning, 
        building design, insurance, warnings, and emergency 
        preparedness and response. In the Committee's judgment, the 
        potential benefits far exceed the costs--annualized building 
        and building-related earthquake losses alone are estimated to 
        be about $5.6 billion, whereas the annualized cost of the 
        improved seismic monitoring is about $96 million, less than 2 
        percent of the estimated losses. It is reasonable to conclude 
        that mitigation actions--based on improved information and the 
        consequent reduction of uncertainty--would yield benefits 
        amounting to several times the cost of improved seismic 
        monitoring.

    The NRC, while noting the difficulty in quantifying benefits of the 
ANSS, demonstrated:

        It is possible, by using a series of assumptions, to determine 
        a ``ball-park'' figure for earthquake losses that could be 
        avoided by using improved seismic monitoring information as the 
        basis for implementing improved performance-based earthquake 
        engineering design. These assumptions relate to the value of 
        the built environment within the U.S., the cost of seismic 
        rehabilitation and the number of existing buildings that need 
        strengthening, and the annual expected loss from earthquakes 
        compared with reduced losses when higher seismic design 
        standards based on information from improved monitoring are 
        applied. These calculations indicate a total loss avoided of 
        more than $140 million per year, based on an estimate of 
        reduced earthquake losses together with estimates of savings in 
        construction costs that would accrue from the implementation of 
        performance-based engineering design in those regions where 
        improved seismic monitoring indicates the seismic design 
        standards can be reduced.

    The SESAC wholeheartedly endorses the NRC report. Full funding for 
the ANSS is a key element in reducing the risk from the inevitable 
damaging earthquakes that will strike the United States. As the report 
states,

        The United States should rank arresting the future growth of 
        seismic risk and reducing the Nation's current seismic risk as 
        highly as other critical national programs that need persistent 
        long-term attention, and it should make the necessary 
        investment to achieve these goals.

    A magnitude 8 earthquake in California (or a well-placed magnitude 
7) is the apotheosis of a class of extreme disasters that will break 
the system. Catastrophes in this class include hurricanes the size of 
Katrina, terrorist attacks the size of 9/11, and tsunamis the size of 
Sumatra. An earthquake of this magnitude has not hit California since 
1906, but it certainly will, most likely soon. Earthquake scenarios 
have been prepared for high-hazard areas such as Northern and Southern 
California, Seattle, and Salt Lake City, but they need to updated and 
expanded to all high-hazard areas of the country. To understand what a 
catastrophic event will involve, we propose a demonstration project to 
form a model for the others. We propose the USGS undertake a complete 
analysis of the consequences of two catastrophic earthquakes--one in 
the San Francisco Bay Area and one in Southern California. This 
analysis has a head start because many pieces have been completed or 
are currently underway. We propose the USGS integrate the complete 
picture, from rupture on the fault, wave propagation into buildings and 
other structures, the response of all levels of our infrastructure, the 
emergency response, and continuing to the full recovery of our society.
    The purpose of this exercise would be to identify where and when 
the breaking points for an extreme earthquake disaster in California 
will be, so steps to prevent such breakage might be taken. A coherent 
response by local, state, and Federal agencies will require ``vertical 
integration'' of preparatory actions, emergency response, and recovery 
programs upward through all three levels of government. Such 
integration is currently lacking and best achieved by planning for the 
most extreme disasters. To accomplish this goal, we need to rebuild our 
capacity for managing the earthquake problem. The Federal earthquake 
program employs half the staff it did in 1981. California's earthquake 
preparedness and mitigation program has shrunk from 30 people 10 years 
ago to 2 people today. We need to develop an integrated program in 
which scientists, engineers, and emergency managers work together to 
develop a comprehensive response program. Many people need to be 
involved, including the relevant agencies at the local, state, and 
Federal level, academic researchers, and private industry.
    We estimate to mobilize the necessary resources will require $10 
million a year for 2 years. The lessons learned in this demonstration 
project will be applicable to all national, extreme disasters. As the 
1906 earthquake and fires and Hurricane Katrina demonstrated, decisions 
made by politicians in the critical hours following the disaster are 
not always the best. The time to understand and formulate the response 
is now.

Recommendations
    We believe there are three especially important and high-priority 
recommendations for the USGS Earthquake Hazards Program at this time:

        1. The SESAC strongly encourages the USGS, the Secretary of the 
        Interior, the Office of Management and Budget, and Congress to 
        move forward vigorously with the Natural Hazards Initiative in 
        the USGS Fiscal Year 2007 budget. Recent events have 
        spotlighted natural hazards, and the Committee believes the 
        USGS, through its Natural Hazards Initiative, has a major 
        growth opportunity to take the leadership in creating a 
        disaster-resistant country. We recommend the USGS undertake a 
        complete analysis of the consequences of catastrophic 
        earthquakes in the San Francisco Bay Area, and in Southern 
        California, and integrate the complete picture, from rupture on 
        the fault, wave propagation into buildings and other 
        structures, the response of all levels of our infrastructure, 
        the emergency response, and continuing to the full recovery of 
        our society. The purpose of this exercise would be to identify 
        where and when the breaking points for an extreme earthquake 
        disaster in California will be. The lessons learned in this 
        demonstration project would be applicable to all national, 
        extreme disasters.

        2. In support of the above recommendation, the Committee 
        continues to strongly recommend to the Director of the USGS 
        that full funding of the ANSS at the level authorized in the 
        current NEHRP legislation be appropriated. The USGS must make a 
        commitment to work through the Department of the Interior and 
        the Office of Management and Budget to ensure this objective is 
        met. Full deployment of the ANSS offers the potential to 
        substantially reduce earthquake losses and their consequences 
        by providing critical information for land-use planning, 
        building design, insurance, warnings, and emergency 
        preparedness and response. A 2005 report by the National 
        Research Council reiterates that the potential benefits far 
        exceed the costs.

        3. The Committee reemphasizes the USGS must reestablish the 
        National Earthquake Prediction Evaluation Council to serve as 
        the forum to review predictions, and resolve scientific debate, 
        prior to public controversy or misrepresentation, so 
        decisionmakers are not mislead by unfounded short-term 
        earthquake predictions. The Committee encourages the USGS to 
        support an active NEPEC equipped with adequate resources to 
        perform this role.

 Managing Risk in Earthquake Country--Estimated Losses for a Repeat of 
the 1906 San Francisco Earthquake and Earthquake Professionals' Action 
 Agenda for Northern California--(Pre-Conference Version) April 6, 2006
Managing Risk in Earthquake Country--100th Anniversary Conference 
        Commemorating the 1906 San Francisco Earthquake

    The 1906 Earthquake and Fire have endured as one of the most widely 
known disasters in the world. Almost 300 miles of the San Andreas Fault 
ruptured shortly after 5 a.m. on April 18, 1906, affecting portions of 
19 counties, from Mendocino in the north to Sacramento in the east, and 
Monterey in the south. The ground shaking and ensuing fires caused more 
than 3,000 deaths, destroyed over 28,000 buildings, and left homeless 
about 225,000 of Northern California's one million residents.

If a Repeat of the 1906 Earthquake Happened Today
    The Earthquake Engineering Research Institute (EERI), Seismological 
Society of America (SSA), California Governor's Office of Emergency 
Services (OES), and U.S. Geological Survey (USGS) commissioned teams of 
experts to incorporate recent scientific and engineering advances into 
a new, comprehensive simulation and analysis of potential losses due to 
a repeat of the 1906 earthquake.
    The report, ``When the Big One Strikes Again,'' found that if the 
1906 earthquake were to happen today, it would affect many of Northern 
California's nearly 10 million residents, and cost between $90 and $120 
billion to repair or replace the more than 90,000 damaged buildings and 
their contents. As many as 10,000 commercial buildings would sustain 
major structural damage and between 160,000 and 250,000 households 
would be displaced from damaged residences. Depending upon whether the 
earthquake occurs during the day or night, building collapses would 
cause 800 to 3,400 deaths. More than half of these deaths would result 
from the collapse of old concrete, unreinforced masonry and other 
vulnerable buildings yet to be strengthened. These dangerous structures 
comprise less than 5 percent of the region's building stock; structures 
built after the mid-1970s are generally much safer.
    Subsequent individual fire ignitions would damage an additional 5 
percent to 15 percent of the region's buildings and cause additional 
deaths. A conflagration similar in scale to the 1906 Fire is possible, 
and could cause an immense loss. Damage to utilities and transportation 
systems would increase losses by an additional 5 percent to 15 percent, 
and economic disruption from prolonged outages would cost several times 
this amount. Considering all loss components, the total price tag for a 
repeat of the 1906 earthquake is likely to exceed $150 billion.

What Still Needs To Be Done
    The earthquake professionals of the 100th Anniversary Earthquake 
Conference have developed an action agenda for the region's residents, 
businesses, earthquake professionals, and governments to increase 
safety, reduce losses, and ensure a speedier recovery when the next 
major earthquake strikes. In summary, the agenda looks specifically at 
what is needed to develop a culture of preparedness, and calls on all 
residents, businesses, and governments to know their risks and take 
responsibility for risk management and preparedness. It challenges 
governments, public agencies, building owners, and the engineering 
community to target the most dangerous buildings, essential facilities, 
and community-serving infrastructure for strategic investments in 
mitigation. It calls on governments, insurers, and the region's major 
industries to collaborate to ensure that adequate resources are 
available for recovery. With these actions and a renewed emphasis on 
safety, Northern California can safeguard its extraordinary cultural 
and economic vitality, and rebound quickly following the next major 
earthquake.

Summary--Estimated Losses for a Repeat of the 1906 San Francisco 
        Earthquake

Study Methods and References
    The Earthquake Engineering Research Institute (EERI), Seismological 
Society of America (SSA) and the California Governor's Office of 
Emergency Services (OES) commissioned a team of earthquake loss-
experts, led by Charles Kircher and Associates to perform the study 
summarized in April 2006 issue of Earthquake Spectra: ``When the Big 
One Strikes Again--Estimated Losses Due to a Repeat of the 1906 San 
Francisco Earthquake,'' by Charles A. Kircher et al.
    The study relies primarily on the ``Earthquake Model'' of the 
Federal Emergency Management Agency's (FEMA) HAZUS technology to 
estimate earthquake damage and loss to the region's building inventory. 
Inventory data was supplemented with expert engineering opinion, as 
well as information from recent surveys of some of the region's most 
vulnerable buildings, including the: assessor's and neighborhood 
building survey data from San Francisco's Community Action Plan for 
Seismic Safety (CAPSS), unreinforced masonry data from the California 
Seismic Safety Commission, and a tuck-under garage apartment survey in 
Santa Clara County. Updates to the HAZUS model also include: updates to 
building and contents replacement values and ``time of day'' 
populations to better reflect the region's conditions; development of 
new damage and loss functions for retrofitted building types; and 
modification of economic loss functions to account for the post-
disaster ``surge'' in repair and replacement costs as experienced 
following the 2004 and 2005 hurricanes in the U.S. Statistics on actual 
damage and loss caused by the 1989 Loma Prieta Earthquake were used to 
validate the methodology.
    As every earthquake generates a different pattern of ground 
shaking, two distinctly different ground motion scenarios were used to 
estimate losses for a repeat of the 1906 earthquake today. The first 
scenario is based on recent work of the U.S. Geological Survey (USGS) 
in which the damage and shaking reports for more than 600 sites, 
compiled after the 1906 earthquake, were re-evaluated, and updated 
intensities converted into a set of ShakeMaps representing the best-
available estimate of how the ground shook in 1906. The second scenario 
assumes that a magnitude Mw7.9 earthquake occurs on the fault segments 
that ruptured in 1906, and calculates ground motions using a method 
based on the current seismic provisions of California's building code. 
This scenario represents the best estimate of how the ground is likely 
to shake next time and shows a much stronger pattern of shaking in San 
Francisco and most Bay Area counties than the first scenario.

Study Region
    The study covers 19 counties of Northern California (24,000 square 
miles). This region's risk has increased considerably since 1906, 
because of substantial increases in both population and property 
values. In 1906, about 390,000 people lived in San Francisco and less 
than 1 million lived in the entire 19-county region. Today, the number 
of San Franciscans has more than doubled, and Northern California's 
population exceeds 10 million. The 19-county region now has more than 3 
million buildings with a total value of $1 trillion ($1.5 trillion with 
contents). The majority of the region's property and population is 
within 25 miles (40 km) of the San Andreas Fault.

Building Damage and Losses
    The study estimates that it would cost up to $120 billion to repair 
or replace buildings and contents damaged by a repeat of the 1906 
earthquake. Of this, San Francisco County would sustain as much as $34 
billion in building-related losses, followed by $28 billion in Santa 
Clara, $26 billion in San Mateo, and $15 billion in Alameda counties. 
The remaining $18 billion in building-related losses would be spread 
across the other 15 counties. For reference, building-related losses 
totaled about $80 billion in the 1995 Kobe, Japan Earthquake, and only 
about $20 billion in the 1994 Northridge Earthquake.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The study estimates that 90,000 to 130,000 buildings across 
Northern California would sustain extensive or complete structural 
damage in a repeat of the 1906 earthquake. For reference, more than 
140,000 buildings were severely damaged or collapsed in the 1995 Kobe 
Earthquake, and only about 15,000 buildings were severely damaged in 
the 1994 Northridge Earthquake.
    The study estimates that between 7,000 and 10,000 commercial 
buildings in Northern California would sustain major structure damage, 
including about 40 percent of all commercial buildings in San Francisco 
and San Mateo counties. Furthermore, between 80,000 and 120,000 
residential building in the region would sustain major damage, 
displacing between 160,000 and 250,000 households, or at least 400,000 
people.
    Depending upon whether the earthquake occurs during the day or 
night, building collapses would cause between 800 and 3,400 deaths. 
Building damage from a nighttime earthquake would cause 800 to 1,800 
deaths. If the earthquake occurred during the day, human losses would 
be greater with between 1,600 and 3,400 deaths caused by severe damage 
to the many vulnerable classes of buildings where we work. For 
reference, only 60 people died in the Northridge Earthquake (26 of 
which were building related), and more than 5,000 people died in the 
1995 Kobe Earthquake (most of which were building related).
    The study shows that more than 50 percent of the estimated deaths 
are caused by the collapse of unreinforced masonry buildings, older 
reinforced concrete buildings, and other vulnerable structures that 
have not yet been strengthened; yet, these vulnerable structures 
represent less than 5 percent of all the buildings in the study region. 
The most dangerous building types are one- and two-story wood-frame 
structures with a minimally reinforced first floor (i.e. soft-story 
buildings), unreinforced masonry, and older, non-ductile concrete frame 
structures.

Fire-Related Losses
    Several hundred individual fire ignitions are estimated to cause an 
additional 5 percent to 15 percent in building damage as well as 
additional deaths. This is a region-wide estimate, and some counties, 
in particular San Francisco which has older buildings and a denser 
pattern of development, could suffer a greater percentage of fire-
related losses. A conflagration similar in scale to the 1906 Fire is 
not likely, but if it did happen it would cause an even greater loss. 
In 1906, the 3-day conflagration following the earthquake burned over 
500 downtown blocks, and was responsible for 80 percent to 90 percent 
of all losses.

Utility and Infrastructure Losses
    Damage to utilities and transportation systems would increase 
losses by an additional 5 percent to 15 percent. Prolonged utility and 
transportation outages would cause widespread disruption costing 
several times this amount. Since the 1989 Loma Prieta Earthquake, many 
of the region's utility and transportation operators have invested 
substantially in seismic retrofit or upgrades to their systems. For 
reference, Federal expenditures on transportation and utility repairs 
following the 1994 Northridge Earthquake exceeded $4 billion.
    Following the 1989 Loma Prieta Earthquake, the California 
Legislature authorized the California Department of Transportation 
(Caltrans) to lead a multi-year program to evaluate all of the 
approximately 24,000 publicly-owned roadway bridges in the state, and 
to take actions necessary to prevent their collapse in future 
earthquakes. Since then, billions of dollars have been invested to 
retrofit bridges and overpasses across the state. In the Bay Area, most 
of the major bridges spanning the Bay have been upgraded with the 
exception of the San Francisco Bay Bridge, which is currently 
undergoing seismic upgrades and a full replacement of the eastern span. 
If the 1906 earthquake were to occur today, the Bay Bridge would 
sustain heavy damage and would be out-of-service for many weeks. Other 
bridges spanning the Bay would sustain limited damage to approaches, 
which would likely affect transportation patterns for days until 
repairs were completed.
    The Bay Area Rapid Transit (BART) is currently undertaking a major 
seismic retrofit of its entire system, with many projects already 
underway, including the Transbay Tube retrofits. If a repeat of the 
1906 earthquake were to occur today, it would cause extensive damage to 
the Transbay Tube, forcing its closure for more than 2 years, and 
interrupting services for more than 150,000 weekday passenger trips. 
BART estimates that it would cost $860 million to repair damage to its 
system. The subsequent economic disruption caused by a prolonged BART 
system outage would be several times this amount. Retrofit is being 
done on some small segments of the Transbay Tube, and the latest BART 
schedule shows completion of the entire Transbay Tube retrofit in 
April, 2010.

Total Losses
    Considering all loss components, the total price tag for a repeat 
of the 1906 earthquake could reach $150 billion. This includes both 
public and private building and contents damage, as well as 
infrastructure and business interruption losses. It does not include 
the potentially significant and long-term losses that might be caused 
by widespread economic disruption, such as potential decreases in 
property values and property tax revenue, loss of tourism revenues, and 
other key income generators for the region. For reference, this 
estimate is similar to the total losses from the 1995 Kobe Earthquake, 
roughly four times the total losses from the 1994 Northridge 
Earthquake, and about 10 times the total losses from the 1989 Loma 
Prieta Earthquake (in 2006 dollars).

Earthquake Professionals' Top Ten Actions for Northern California
    The people, businesses, and government agencies in Northern 
California risk suffering life, structural, and financial losses when 
major earthquakes strike. Scientists, engineers, and emergency 
management experts gathering for the 100th Anniversary Earthquake 
Conference call on the region's citizens, businesses, and policymakers 
to take the following actions to increase safety, reduce losses, and 
ensure a speedier recovery from the next major earthquake.

Develop a Culture of Preparedness
    1. Every household, government agency, and business must know the 
seismic risks of the buildings they occupy, the transportation systems 
they use, and the utilities that serve them, as well as the actions 
they can take to protect themselves.
    2. Every household, government agency, and business needs to be 
prepared to be self-sufficient for at least 3 days (72 hours) following 
a disaster.
    3. Citizens and governments need to take steps to ensure adequate 
response/care for special needs and vulnerable populations.
    4. Government agencies, the region's major industries, and 
earthquake professionals have to work together to prepare the region to 
respond to, and recover from, major earthquakes. This can be done 
through region-wide, multi-organizational plans, training, exercises 
and coordination assessments, as well as continuing improvements in our 
collective understanding of seismic risks.
Invest in Reducing Losses
    5. Building owners, governments, and the earth science and 
engineering professions must target potential collapse-hazard buildings 
for seismic mitigation, through retrofit, reduced occupancy, or 
reconstruction.
    6. Governments and other relevant agencies must retrofit or replace 
all facilities essential for emergency response to ensure that they 
function following earthquakes. These facilities include fire and 
police stations, emergency communications centers, medical facilities, 
schools, shelters, and other community-serving facilities.
    7. Governments and other relevant agencies must set priorities and 
retrofit or replace vulnerable response- and community-serving 
infrastructure, including cellular communications, airports, ports, 
roads and bridges, transportation, water, dams and levees, sewage, and 
energy supplies, to ensure that functions can be resumed rapidly after 
earthquakes.

Ensure Resiliency in Recovery
    8. Government agencies, the region's major industries, and 
earthquake professionals have to plan collaboratively for the housing, 
both short- and long-term, of residents displaced by potential fires, 
large numbers of uninhabitable buildings, and widespread economic and 
infrastructure disruption following a major earthquake.
    9. Every household, government agency, and business has to assess 
and plan for financing the likely repair and recovery costs following a 
major earthquake.
    10. Federal, state, and local governments, the insurance industry, 
and the region's major industries have to collaborate to ensure 
adequate post-event funding to provide economic relief to individuals 
and communities after a major earthquake, when resources are most 
scarce, yet crucial for recovery and reconstruction.

    In conclusion, the earthquake professionals of the 100th 
Anniversary Earthquake Conference believe that, based on our current 
understanding of the hazards, local planning, stronger building codes, 
and ongoing mitigation have substantially reduced the potential loss of 
life and property that a major Northern California earthquake could 
cause. Many areas are better prepared than ever before, yet the region 
is still not sufficiently ready for the next major earthquake. The 
social and economic consequences could prove to be long-lasting and 
ruinous to communities. With these actions and a renewed emphasis on 
safety, Northern California can safeguard its extraordinary cultural 
and economic vitality, and rebound quickly following the next major 
earthquake.
                                 ______
                                 
Appendix--Supporting Documentation for Earthquake Professionals' Action 
                     Agenda for Northern California

    The earthquake professionals of the 100th Anniversary Earthquake 
Conference have developed an action agenda for the region's residents, 
businesses, earthquake professionals, and governments to increase 
safety, reduce losses, and ensure a speedier recovery when the next 
major earthquake strikes. In summary, the agenda looks specifically at 
what is needed to develop a culture of preparedness, and calls on all 
residents, businesses, and governments to know their risks and take 
responsibility for risk management and preparedness. It challenges 
governments, public agencies, building owners, and the engineering 
community to target the most dangerous buildings, essential facilities 
and community-serving infrastructure for strategic investments in 
mitigation. It calls on governments, insurers, and the region's major 
industries to collaborate to ensure that adequate resources are 
available for recovery. With these actions and a renewed emphasis on 
safety, Northern California can safeguard its extraordinary cultural 
and economic vitality, and rebound quickly following the next major 
earthquake.
    The following document encapsulates the details of nominated 
actions made by the more than 50 experts participating in the action 
agenda elicitation led by the Northern California chapter of EERI for 
the 100th Anniversary Earthquake Conference. More specifics and 
justifications for the top ten actions are provided here.

Part I. Develop a Culture of Preparedness
    An emphasis on education and preparedness is one of three 
fundamental underpinnings of this action agenda. This is a region-wide 
responsibility involving all levels of government, nongovernmental 
agencies, businesses, and individuals. All residents and businesses 
must take responsibility to understand and reduce their risks, and make 
plans to care for themselves and their operations after a disaster. 
Governments also need to understand their risks, help residents and 
businesses to access accurate and reliable information about earthquake 
risk and preparedness, and focus resources on special needs 
populations, coordinated training and response planning.

Action 1: Every household, government agency, and business must know 
        the seismic risks of the buildings they occupy, the 
        transportation systems they use, and the utilities that serve 
        them, as well as the actions they can take to protect 
        themselves.

1.A. Everyone must take responsibility for living in ``earthquake 
        country'' and understand the seismic hazards and 
        vulnerabilities of the places and buildings we occupy, and the 
        roads and utilities we use, as well as the ways we can better 
        prepare and mitigate our risks.
    With the notable exception of the 1989 (Mw6.9) Loma Prieta 
Earthquake, there have been few moderate or larger earthquakes in 
Northern California in recent years. The many decades of seismic 
quiescence have given a false sense of security to many of the region's 
10 million residents. Based upon research conducted since the 1989 
Earthquake, the U.S. Geological Survey (USGS) and other scientists have 
concluded that there is a 62 percent probability of at least one 
magnitude 6.7 or greater quake, capable of causing widespread damage, 
striking the San Francisco Bay region before 2032. In addition to a 
1906-type earthquake, smaller yet powerful earthquakes are possible on 
any of the region's seven major fault systems. The Hayward fault is of 
particular concern since it runs through the densely urbanized East Bay 
corridor, and several critical elements of the region's major 
infrastructure either cross or are within close proximity of that 
fault.
    Northern California has more than 3 million buildings valued at $1 
trillion ($1.5 trillion with contents). Many of the region's most 
vulnerable structures have been strengthened or replaced by more 
seismically resistant construction. Yet, many aging and vulnerable 
structures, transportation systems, and utilities remain. Most were 
built to older design and code standards which recent earthquakes have 
shown to be inadequate.
    An array of educational resources exists for homeowners, business 
and commercial building owners, and individuals (Fact Sheets on 
vulnerable buildings at www.quake06.org). The California Seismic Safety 
Commission (www.seismic.ca.gov) has developed both the ``Homeowner's 
Guide to Earthquake Safety'' and ``Commercial Property Owner's Guide to 
Earthquake Safety.'' Each guide includes information on geologic and 
seismic hazards, explanations of related structural and nonstructural 
hazards, and recommendations for mitigating earthquake damage. State 
legislation requires property sellers to disclose potential hazards 
from earthquakes and any structural deficiencies, of which they have 
actual knowledge, in a Natural Hazard Disclosure Statement, and to 
indicate whether any corrective measures have been taken.
    City and county building departments, consulting engineers, 
insurers, lenders, the seismic hazards mapping program of the 
California Geological Survey (CGS) (www.consrv.ca.gov), the Association 
of Bay Area Governments (ABAG) (www.abag.ca.gov), the Governor's Office 
of Emergency Services (OES) (www.oes.ca.gov) and the USGS 
(www.usgs.gov) all provide earthquake hazards, building, and mitigation 
information. City and county emergency services and fire departments, 
OES, and the American Red Cross (www.redcross.org) can assist with 
individual preparedness.

1.B. Local governments, utility operators, and other public-serving 
        agencies are responsible for gathering credible seismic risk 
        information, and making it accessible to the region's 
        residents.
    The public has a right to know about collapse-risk buildings and 
vulnerable infrastructure, so they can make informed decisions about 
their continued use. All public agencies must survey and make available 
information on all transportation systems and classes of buildings most 
susceptible to earthquake damage or collapse.
    In 1986, the state enacted legislation requiring local 
jurisdictions to catalog their unreinforced masonry buildings and 
develop a retrofit program. In 2002, ABAG surveyed the 109 cities and 
counties, in the 9-county region abutting San Francisco Bay, about the 
status of local earthquake mitigation. In addition to the state-
mandated inventory of unreinforced masonry buildings, 40 percent of 
responding local governments had conducted an inventory of at least one 
other type of potentially hazardous private building (i.e., non-ductile 
concrete frame, tilt-ups, and soft-story one- and two-story 
residences). In 2004, the Bay Area's overall mitigation rate for 
unreinforced masonry (demolitions plus retrofits divided by the total 
number of buildings) was only 49 percent, and considerably lower than 
the statewide rate of 69 percent in other areas with active earthquake 
faults. It is, however, an increase of 3 percent over the Bay Region's 
46 percent mitigation rate in 2003. Reference: California Seismic 
Safety Commission, The Right to Know, Disclosure of Seismic Hazards in 
Buildings, CSSC 92-03.
    The cities of Berkeley, Campbell, Fremont, and San Leandro are 
among those that have conducted inventories of privately-owned, multi-
family, soft-story, wood-frame buildings, such as the buildings so 
heavily damaged in the Marina district of San Francisco in the 1989 
Loma Prieta Earthquake. The city of Palo Alto requires the 
identification of high-occupancy, older concrete buildings and the 
upgrade of those that are deemed hazardous. Information on the number 
and locations of vulnerable apartment buildings can be found through 
each of these cities' building departments.
    The State Architect (www.dsa.dga.ca.gov) has also assessed the 
seismic vulnerability of California public schools. Over 8,000 school 
buildings in California are seismically vulnerable and warrant further 
analysis and potential structural upgrades. The University of 
California, Berkeley has also embarked on a 20-year program to 
seismically strengthen all campus facilities at a cost of nearly $1 
billion. While much information has been gathered, public agencies need 
to enhance efforts to make the information more widely available, 
promote public awareness and education, and implement policies, 
standards and incentives that will encourage preparedness and 
mitigation. While many of the region's public schools have been 
strengthened or replaced, there are still many dangerous privately-
owned school buildings that need mitigation.

1.C. The state's existing unreinforced masonry (URM) placarding law 
        needs to be strengthened.
    The San Simeon Earthquake of December 2003 demonstrated the 
effectiveness of retrofitting URM buildings. None of the 9 strengthened 
URMs in downtown Paso Robles suffered major damage, while many of the 
44 unstrengthened URMs sustained enough damage to require demolition. 
Two women died in the collapse of an unstrengthened URM. In 1992, state 
legislation was enacted requiring owners to post placards at entrances 
to URM buildings. The Seismic Safety Commission recommends that the law 
be enhanced to impose fines for non-compliance so that there is a 
better enforcement mechanism. Owners should also be required to post 
warning signs that clearly describe where occupants can find more 
information about their building's risk, and recommendations to 
building occupants for appropriate actions to take when an earthquake 
occurs. The law also needs to be amended so that URM building owners 
can remove placards after completing retrofits that comply with the 
state's minimum standards. Alternatively, owners should be allowed to 
post substitute signage indicating that the building has been 
retrofitted. Reference: California Seismic Safety Commission http://
www.seismic.ca.gov/pub/CSSC_2004-02_FindingsSanSimeonEarthquake.pdf.

1.D. Earthquake scientists and engineers must provide efficient, 
        accurate, and reliable risk information, assessment tools and 
        guidance on mitigation and preparedness actions.
    Several of the recent damaging earthquakes--the 1971 Sylmar, the 
1983 Coalinga, and 1994 Northridge earthquakes--occurred on unknown 
faults. Scientific investigations must continue to assess the seismic 
vulnerabilities of all regions of the state. The statewide Seismic 
Hazard Mapping Program needs to be completed for all potentially high-
risk areas of the state. Additional investments in hazard estimation 
research are also needed to further assess maximum and characteristic 
magnitude events, as well as recurrence intervals, for the region's 
major faults, and to refine ground-shaking estimates for the region.
    Investments in engineering are also needed to refine risk 
assessment procedures and improve the vocabulary for communicating the 
risk to the public. The engineering profession also needs to help 
provide better access to and education for building owners and 
occupants on expected building damage and performance levels (i.e. life 
safety versus higher-levels of performance) and what they need to do to 
protect themselves and reestablish activities quickly after an 
earthquake.

1.E. Make long-term investments in educating school-age (K-12) children 
        about the threat of earthquakes and what to do about them.
    Most of the region's children are likely to see one or more M7 
earthquakes in their lifetimes. Developing a culture of preparedness 
will take time. We must invest now in educating the next generation of 
homeowners and business leaders about the region's risks, preparedness 
and mitigation. Children can also help educate their families on risks 
and how to prepare.

Action 2: Every household, government agency, and business needs to be 
        prepared to be self-sufficient for at least 3 days (72 hours) 
        following a disaster.

2.A. All of the region's residents who are able need to plan to take 
        care of their basic food, water, clothing, and bedding needs 
        during the first 3 days after a disaster.
    Over one-third (3 million) of Northern California's 10 million 
residents live and work in the three Peninsula counties of San 
Francisco, San Mateo, and Santa Clara--all within 40 km (25 miles) of 
the San Andreas Fault. While response services in California have 
historically performed well, a major urban earthquake will strain local 
and state resources. The response to Hurricane Katrina illustrates the 
need for residents to be more self-reliant in a post-disaster 
situation. Prepare Bay Area is a 3-year initiative led by the American 
Red Cross--Bay Area (www.preparebayarea.org) to help 1 million 
households develop a disaster response plan, put together an emergency 
supply kit, and obtain training in CPR, first aid, household 
mitigation, and other forms of community preparedness.

2.B. Involve the media, residents, and businesses in public information 
        campaigns and regional drills that help develop skills and 
        relationships which will be instrumental after future real 
        disasters.
    We must engage citizens and businesses in disaster preparedness. 
Public information campaigns and drills need to alert households and 
businesses to understand the level of disruption likely (i.e., 
disrupted transportation, electricity/gas, water and communications) 
and to pre-identify options, including emergency shelter with 
relatives, friends, or family in other communities willing to share 
homes in case of homelessness. Outreach and education need to emphasize 
low- or no-cost efforts that can save lives, reduce losses and help 
people to be more self-reliant. Examples include training in CPR and 
knowing how and when to shut-off gas and electricity, evacuate 
structures, and extinguish small fires. Small businesses, in 
particular, need training in business continuity planning, since about 
40 percent of small businesses never resume operations after disasters. 
Businesses need tools and approaches for securing potentially hazardous 
building contents, workplace safety, building risk assessment, and 
emergency planning. References: www.disaster
education.org; California Seismic Safety Commission, California Loss 
Reduction Plan, 2002-2006, http://www.seismic.ca.gov/sscmit.htm

2.C. Expand the recruitment, training and support for Community 
        Emergency Response Teams (CERTs) throughout the Bay Area in 
        neighborhoods, schools, and workplaces.
    Well-trained occupants in disaster-stricken regions are effective 
first responders and can leverage professional emergency resources. 
Earthquake response is uniquely suited to benefit from effective CERTs; 
because of the lack of warning before earthquakes and the all-at-once 
circumstances that may overwhelm government emergency services. CERTs 
can provide training and resources for teaching First Aid, light 
search-and-rescue, the National Incident Management System, 
communicating emergency needs to authorities, disaster preparedness, 
and financial 
preparedness for the public. Professional CERT training and recruitment 
resources and personnel already exist in San Francisco, Berkeley, and 
San Jose. These can be leveraged to help train others in the region. 
Funding for an expanded regional support network, staff and proper 
equipment is also needed. References: http://training.fema.gov/EMIWeb/
CERT; www.fema.gov/kids/02cert_table.pdf; http://www.sanjoseca.gov/
emergencyservices/sanjoseprepared/; www.sfgov.org/site/sfnert
_index.asp; http://www.ci.berkeley.ca.us/fire/oes.html.

Action 3: Citizens and governments need to take steps to ensure 
        adequate response care for special needs and vulnerable 
        populations.

3.A. The region's governments must provide safe, culturally-sensitive, 
        and appropriate training and support for the region's diverse 
        and special needs population.
    The Loma Prieta Earthquake put the lack of preparedness in 
responding to special needs communities in front of a worldwide 
audience, and sixteen years later Hurricane Katrina provided a gruesome 
reminder that this challenge still remains. In this region, as much as 
20 percent of the population (certainly in the dense urban areas) will 
need post-disaster care. Collaborating Agencies Responding to Disasters 
(CARD) (http://www.preparenow.org/alameda.html; www.firstvictims.org), 
fire departments, the American Red Cross, and emergency services 
organization are key resources for this task. CARD was created in 
Alameda County after the Loma Prieta Earthquake and the Oakland Hills 
firestorm to provide disaster preparedness/response support to the 
county's Community Based Organizations (CBOs), and the ``first 
victims''--members of the community who are seniors, children, 
disabled, homeless, non-English speakers, low-income, or otherwise in 
need of ongoing support.

3.B. Region-wide drills need to emphasize special needs populations, 
        and provide training to respond to the needs of these 
        individuals. The region's residents and businesses also must be 
        informed of the need to help.
    In the initial aftermath of a disaster, government will be 
responding to the greatest needs, such as fire suppression and search-
and-rescue. We must engage residents and businesses to prepare 
themselves, and help others in need. Region-wide drills need to 
emphasize awareness and basic training for neighbors in need.

3.C. Recipients of funding from local government must participate in 
        community preparedness training.
    The City of San Leandro, CA, requires any agency receiving funding 
from the City's Community Development Block Grant (CDBG) program to 
participate in disaster preparedness classes, training, and exercises. 
These agencies are valued partners in the community's preparedness, and 
are better able to serve and support the preparedness needs of the 
city's most vulnerable residents. Reference: http://www.preparenow.org/
alameda.html.

3.D. Strengthen licensing requirements for skilled-care facilities to 
        ensure that client care continues post-disaster.
    Access to medical care is an existing, daily problem for many of 
the region's residents and it will be exacerbated following a 
catastrophe. As we saw in the Loma Prieta Earthquake and in Hurricane 
Katrina, medically-compromised people require special care beyond what 
is typically offered in public shelters. In 1997, the Joint Commission 
on Accreditation of Healthcare Organizations began evaluating 
healthcare organizations' disaster recovery plans for computer systems 
and data protection. Evaluations such as this need to be expanded, and 
appropriate licensing requirements also established to ensure that all 
skilled-care facilities continue to serve patients after disasters. The 
public health system and local governments will not be able to accept 
the additional patient load, if these care facilities are closed.

Action 4: Government agencies, the region's major industries, and 
        earthquake professionals have to work together to prepare the 
        region to respond to, and recover from, major earthquakes. This 
        can be done through region-wide, multi-organizational plans, 
        training, exercises, and coordination assessments, as well as 
        continuing improvements in our collective understanding of 
        seismic risks.

4.A. All levels of government should exercise together regularly.
    Agencies at many levels of government have responsibilities to 
ensure readiness, but local governments are the primary lead agency for 
disaster response. Coordinated exercises require time, resources, and 
therefore money. Additional capacity in local first responders (i.e., 
police and fire departments) is needed and appropriate ongoing funding 
must be provided. Reference: ABAG/MTC Principles for Emergency Response 
Legislation, http://www.abag.ca.gov/jointpolicy/Emergency%20Manage
ment%20Legislative%20Principles.pdf.

4.B. Each level of government must develop all-hazards plans to guide 
        its comprehensive emergency management program in cooperation 
        with other local and regional agencies.
    All-hazard plans should address the need for businesses, 
neighborhoods, and all citizens (including those with special needs) to 
ensure their safety and well-being during the immediate response 
period. They should also: (1) identify hazards and prioritize risks; 
(2) define mitigation strategies and prioritize investment programs; 
(3) include an emergency preparedness element to ensure that the 
agency, as well as its citizens and businesses, are ready to respond to 
the various hazards; (4) establish standard operating procedures for 
the response to any hazard; and (5) establish priorities for the 
recovery of critical infrastructure and services to ensure economic 
recovery. This comprehensive all-hazards approach is consistent with 
California General Plan law that requires each local jurisdiction to 
adopt a safety element as part of its general plan. Reference: ABAG/MTC 
Principles for Emergency Response Legislation, http://www.abag.ca.gov/
jointpolicy/Emergency%20Management%20Leg
islative%20Principles.pdf

4.C. Conduct region-wide drills regularly (every 6 months to 1 year) 
        and involve public agencies, businesses, households, and 
        special needs populations.
    Region-wide drills, conducted regularly and involving all sectors 
(both private and public), are essential to foster a culture of 
preparedness in the region. Coordination, collaboration, preparation, 
and planning amongst government, the region's utilities, major 
businesses, nongovernmental and volunteer organizations, the Red Cross, 
and others are necessary to focus on the complex and cross-organization 
issues of a region-wide disaster, including evacuations, responding to 
major conflagrations, and providing for emergency sheltering needs.
    Such drills will require regional leadership from government 
organizations, such as OES and ABAG, nongovernmental organizations, and 
major industries. Their objectives should address the complex, regional 
issues requiring cross-organizational solutions and cooperation. They 
should also have an educational and training component for the general 
public and special needs populations, teaching universal skills, and 
working with existing community organizations. Existing training 
resources and efforts need to be used in a more coordinated way, and 
additional resource commitments and cooperation is needed from the 
region's utilities, major corporations, and volunteer organizations

4.D. The region's fire departments need to develop an estimate of the 
        fires expected following a major earthquake, develop plans and 
        capabilities for fire fighting without normal water supply, and 
        exercise these plans with mutual aid jurisdictions.
    Fire following earthquake (FFE) is an obvious severe earthquake 
hazard in the Bay Area, as demonstrated in 1906, the 1989 Loma Prieta 
Earthquake, and the 1991 East Bay Hills fire. Estimates have been made 
of the potential losses due to FFE, demonstrating the continuing risk 
of peril. Existing fire department planning and drills may need to be 
redirected and better coordinated for this task. There will likely be 
needs for new equipment (i.e., additional hoses and pumps) that will 
require additional funding. Residents also need training and resources 
to suppress small fires.

4.E. Ensure school and district boards, and administrators develop and 
        implement school emergency plans and staff training as required 
        by the current State Education Code.
    School districts and administrators should be involved in regional 
drills. School compliance with the state's Standardized Emergency 
Management System (SEMS) is also needed to help improve the region's 
response coordination. Reference: California Seismic Safety Commission, 
California Loss Reduction Plan 2002-2006, http://www.seismic.ca.gov/
sscmit.htm).

4.F. Improve the rapidity and reliability of basic science information 
        concerning the location, size, and shaking intensity of 
        earthquakes, and incorporate it to improve early warnings and 
        post-disaster response.
    One of the biggest challenges after an earthquake is to understand 
quickly the size, source, and levels of ground shaking for every 
earthquake, in order to better define which areas are most seriously 
are impacted, and where damage is likely to be concentrated. After the 
1994 Northridge Earthquake, California and the Federal Government 
invested in the earthquake monitoring infrastructure in Southern 
California. Recently, similar efforts have begun in Northern 
California. The goal is to be able to monitor seismic activity 
reliably, and to quickly report an earthquake's size and location, as 
well as estimate shaking. Investments must continue to improve 
earthquake monitoring equipment and technology throughout California, 
and harden the communications systems which deliver data, so that the 
measured ground motions can be translated rapidly into maps of ground 
shaking intensity for use in assessing where damage may have occurred. 
In addition, the region also needs additional investments in baseline 
information, such as the maintenance of an up-to-date (in 2 to 5 year 
intervals) digital database of imagery, to compare with post-disaster 
data for use in post-disaster building damage and ground failure 
assessments. References: OES (www.oes.ca.gov), CGS (www.consrv.ca.gov) 
and USGS (www.earthquake.usgs.gov).

Part II. Invest in Reducing Losses
    The second area of focus in this action agenda is more strategic 
mitigation of the region's most dangerous buildings and critical 
infrastructure. This is also a region-wide responsibility involving all 
levels of government, nongovernmental agencies, engineering and science 
professions, businesses, and individuals. Five over-arching activities 
that need to be undertaken to ensure that more strategic investments 
are being made are:

A. Create a ``living risk model'' for Northern California which can be 
        used collaboratively by the scientific, technical, and policy-
        making communities to better understand the region's growing 
        risks, evaluate where the biggest risks lie, and promote, 
        prioritize, and implement risk reduction efforts.
    The region's risk is ever-changing as vulnerable structures are 
upgraded or replaced, population continues to grow, and urbanization 
expands. A living risk model can be an effective tool to help quantify 
the region's risk in terms of deaths, dollars and downtime. It can be 
used to evaluate community-wide earthquake risk (not single buildings) 
and evaluate the effects of risk management decisions and approaches 
for handling future losses and recovery. The Northern California 
Chapter of EERI has initiated work to develop the framework and pilot 
projects for an accessible, secure data repository and modeling system. 
Funding and development resources are needed to establish and maintain 
such a model. Reference:http://www.quake06.org/lerm.html.

B. All public agencies in the region must develop consistent and 
        strategic all-hazard mitigation plans.
    The Federal Disaster Mitigation Act of 2000, requires public 
agencies to prepare a Local Hazard Mitigation Plan (LHMP). Dozens of 
cities, counties, and special districts in the San Francisco Bay Area 
are using the multi-jurisdictional LHMP coordinated by ABAG. All public 
agencies in Northern California should develop comprehensive risk 
reduction strategies and all-hazard mitigation plans that help 
prioritize the risks. These plans and strategies should demonstrate 
cost-effectiveness, and also identify resources for mitigation. Local 
general plan safety elements, building codes, and retrofit programs 
should also be consistent with the local mitigation strategy and plan, 
and the LHMP goals should be included in the housing, land use, and 
safety elements of the local agency's general plan. Reference: ABAG/MTC 
Principles for Emergency Response Legislation, http://www.abag.ca.gov/
joint
policy/Emergency%20Management%20Legislative%20Principles.pdf.

C. Secure dedicated funding for mitigation and ensure that the funds 
        are allocated on a priority basis to address the highest-risk 
        communities, buildings, and infrastructure first.
    In order to accomplish a meaningful level of risk reduction, 
ongoing funding is needed. The region's public agencies and earthquake 
professionals must advocate for dedicated mitigation funding through 
new and existing legislative vehicles (i.e., bond measures, taxes at 
state, regional and local levels, and tax incentives for building 
owners). Federal and state financial assistance are critical to seed 
private funding opportunities. Funds must be allocated on a priority 
basis to reduce the greatest risks first. Public agencies also need to 
monitor funded projects to ensure their continued effectiveness. 
Reference: ABAG/MTC Principles for Emergency Response Legislation, 
http://www.abag.ca.gov/jointpolicy/Emergency%20Management%20Legis
lative%20Principles.pdf.

D. Strengthen the role of the California Seismic Safety Commission as 
        the policy and technical lead for earthquake risk reduction in 
        the state.
    As it has for 20 years, the Seismic Safety Commission has the 
technical experts needed to draft recommend policies to the California 
Legislature. With added support, the Seismic Safety Commission will be 
able to deepen its examination of risk and disaster consequences, 
develop substantive recommendations to the legislature, and also 
sponsor/support effective action-oriented mitigation initiatives.

E. Support and co-fund California-based seismic research programs 
        funded by Federal agencies or the private sector.
    Research in all areas of earthquake science, engineering, and 
emergency management needs to be adequately funded so that the cost of 
mitigation for new and existing structures can be minimized through 
reduced conservatism and appropriate performance criteria. Reference: 
CSSC California Loss Reduction Plan, 2002-2006, http://
www.seismic.ca.gov/sscmit.htm.

Action 5: Building owners, governments, and the earth science and 
        engineering professions must target potential collapse-hazard 
        buildings for seismic mitigation, through retrofit, reduced 
        occupancy, or reconstruction.

5.A. Local governments and the engineering professions are challenged 
        to move beyond identifying dangerous ``classes of buildings'' 
        and to focus efforts on developing and implementing more cost-
        effective means of identifying the actual, individual buildings 
        that are most likely to collapse, and to work together with 
        building owners to mitigate collapse hazards.
    The collapse or extensive damage to certain buildings will be the 
greatest cause of life and economic losses in future earthquakes. Over 
the past decades, many of the region's most dangerous buildings have 
been strengthened or replaced by more earthquake-resistant 
construction. There are still large numbers of seismically-hazardous 
buildings, such as unreinforced masonry, older non-ductile reinforced 
concrete, soft-story wood-frame, and older tilt-up buildings, in the 
Bay Area. Most are currently in use which puts all the occupants at 
risk. The 1906 scenario study performed by Charles A. Kircher et al., 
for the 100th Anniversary Conference found that 50 percent of all the 
building damage and nearly all the deaths resulting from a repeat of 
the 1906 earthquake would come from soft-story, wood-frame, non-ductile 
reinforced concrete, and URM buildings which represent less than 4 
percent of the region's building stock.
    Over the past 20 years, effective legislation has led to the 
reduction of risks posed by unreinforced masonry buildings. As of 2004, 
nearly half of the 6,718 URM buildings identified in the 10-county Bay 
Area have been mitigated, through retrofit or demolition. While the 
majority of unstrengthened URMs are collapse hazards, the safety risks 
and mitigation solutions for other classes of vulnerable building are 
not as readily available. For example, many concrete buildings are not 
likely to collapse and the methods for identifying which ones are at 
risk can be time-consuming and costly.
    Local governments and the engineering profession must collaborate 
to identify the exceptionally high-risk buildings that are most likely 
to collapse in a future earthquake, and develop and implement 
technically sound, economically efficient, and socially acceptable 
solutions to mitigate them. Recent advances in performance-based 
engineering procedures and new retrofit techniques show great promise 
at identifying and correcting safety problems. EERI is sponsoring a 
major collaborative effort to identify the most dangerous concrete 
buildings and fix them. The Concrete Coalition unites structural 
engineers, building officials, public policy interests, building owners 
and managers in this long-term effort (www.eeri.org).
    We cannot neglect the facts as we now know them. All of the 
region's local governments need to require surveys of all vulnerable 
building types, and identify those that are exceptionally high-risk and 
might collapse, and incorporate seismic retrofit requirements into all-
hazard mitigation plans. These exceptionally high-risk buildings must 
be retrofitted or vacated in the shortest possible time frame to avoid 
future loss of life.

5.B. The earthquake professionals are challenged to develop more 
        localized assessments of ground shaking and building response.
    Scientific investigations must continue to complete the state-wide 
Seismic Hazard Mapping Program, and also develop more localized 
estimations of likely ground shaking. Investments in science and 
engineering are also needed to refine localized procedures for 
assessing building risk. In particular, state and Federal agencies 
should support focused research to improve procedures that will help 
identify the exceptionally high-risk buildings within the greater 
existing building stock. This is especially true for older, non-ductile 
concrete buildings where identification of the truly dangerous, 
collapse-risk buildings is costly and especially challenging.

5.C. Adopt and enforce the International Existing Building Code and 
        other key codes regionally, with adequate peer review.
    California has a successful history of seismic safety programs that 
rely on strict compliance with cost-effective regulations including the 
1933 Riley Act that requires building permits for new construction. 
Seismic risk in existing buildings is not currently regulated in a 
uniform fashion in California. Existing buildings routinely undergo 
major alterations and repairs without consideration of overall collapse 
risk in disasters.
    Adopting and enforcing the new International Existing Building Code 
(IEBC) will continue to allow minor and moderate alterations to 
existing buildings without significant earthquake safety enhancements. 
However, it will trigger minimum seismic safety evaluations and 
retrofits when major repairs and alterations are implemented. The IEBC 
will regulate seismic retrofits more effectively and in a gradual 
manner. It will also protect the public's interests more so than 
current laws. Pioneering governments, such as San Leandro, Berkeley, 
and the State of Utah, have already adopted all or part of the IEBC for 
use in their jurisdictions. FEMA has repeatedly determined that 
existing state regulations do not comply with Federal regulations for 
the proper repair of buildings damaged in all types of disasters, thus 
jeopardizing post-disaster eligibility for Federal public assistance. 
Adoption of the IEBC would help to ensure that every local government 
uses effective post-disaster repair standards and is fully eligible for 
public assistance from FEMA after disasters. Retrofit priorities and 
code changes for certain buildings also need to require fire prevention 
devices that can significantly reduce the number of earthquake-
triggered fires. Reference: www.iccsafe.org.

5.D. All levels of government, the engineering profession, and building 
        owners need to collaborate to create effective financial 
        programs to mitigate collapse-risk buildings.
    Recent earthquakes have repeatedly demonstrated the effectiveness 
of basic seismic retrofits in reducing damage and the cost of repairs 
after an earthquake, but the high cost of retrofits is one of the 
biggest impediments. URM retrofit costs about $40 per square foot, or 
$400,000 for an average 10,000 square foot building. Building 
valuations in Northern California have doubled in recent years, and a 
greater number of building owners can tap their assets or sell to other 
owners who may be more able to invest in seismic retrofits. When 
possible, the costs for managing the risks in collapse-risk buildings 
should be paid by building owners.
    Local, state, and Federal Governments, and the earthquake 
professionals need to collaborate to create effective financial 
incentives for the private sector to mitigate the most dangerous 
buildings. Stronger partnerships with the private sector are needed to 
ensure safer and more disaster resistant commercial and residential 
buildings, to encourage private investments in these facilities, and to 
improve the quality of retrofit construction. Economic models, 
incentives, and real case studies (i.e., improve mortgage terms, 
reduced insurance rates, and positive tax benefits) are needed which 
can demonstrate the cost-effectiveness of specific mitigation methods 
based on increased levels of property, contents, functionality, and tax 
base protection. Many local agencies have encouraged retrofits with 
permit fee reductions or waivers. Others have developed grant and loan 
programs financed by redevelopment funds (i.e., cities of Fremont, 
Berkeley, and Napa), community development block grants (i.e., city of 
Vallejo), special assessment districts (i.e., City of San Leandro), 
general obligation (i.e., City and County of San Francisco) and revenue 
bonds. Resources: Reference: Northern California EERI Quake 2006 
Campaign, http://www.quake06.org/quake06/best_practices.html; ABAG/MTC 
Principles for Emergency Response Legislation, http://www.abag.ca.gov/
jointpolicy/Emergency%20
Management%20Legislative%20Principles.pdf; CSSC California Loss 
Reduction Plan, 2002-2006, http://www.seismic.ca.gov/sscmit.htm.

Action 6: Governments and other relevant agencies must retrofit or 
        replace all facilities essential for emergency response to 
        ensure that they function following earthquakes. These 
        facilities include fire and police stations, emergency 
        communications centers, medical facilities, schools, shelters, 
        and other community-serving facilities.
    The mitigation of vulnerable critical facilities can generate high 
benefits when compared to costs, potentially saving lives, reducing 
indirect losses, and shortening recovery after future disasters. If not 
addressed, the Bay Region faces potentially-large, indirect life and 
property losses, particularly conflagrations that could result from 
dysfunctional or delayed emergency response if based in vulnerable 
facilities.

6.A. Governments and relevant agencies need to assess the 
        vulnerabilities of all essential response facilities, 
        prioritize facilities for mitigation, and incorporate 
        mitigation plans into their capital outlay and all-hazard 
        mitigation plans.
    Agencies need to conduct seismic evaluations and assess the costs 
and prioritize the mitigation of all structural and nonstructural 
elements of essential response facilities and building contents. 
Agencies need to identify funding gaps for structural seismic retrofits 
or replacements of vulnerable structures, and advocate for pre-disaster 
resources. Some financing options include: new tax assessments on 
property owners, regional or statewide general obligation bonds, 
redirection of existing capital outlay funds, and Federal and state 
mitigation grants. Agencies also need to monitor and periodically 
report on mitigation progress.
    Many of the region's agencies have already strengthened or replaced 
many essential facilities. Since 1992, Berkeley voters have approved 
over $362 million in local taxes to seismically upgrade and improve 
fire resistance of public buildings. Major public facilities, schools 
and fire stations, along with the Civic Center Administrative Building 
and the Main Library have been reconstructed. The City also has a new 
emergency operations center, public safety building and has constructed 
a new multi-jurisdictional fire station. Reference: City of Berkeley, 
www.ci.berkeley.ca.us. The City and County of San Francisco has 
strengthened all fire stations and schools for earthquake and fire 
safety and most city administrative buildings, including the base-
isolated City Hall. The City of Oakland is also in the process of 
seismically upgrading all fire stations and schools, and has upgraded 
the City Hall and main administrative building.
    Following the 1994 Northridge Earthquake, every hospital in 
California has been required to meet new seismic safety requirements by 
2030. Hospitals that are in danger of collapse must be strengthened or 
vacated by 2008. Medical facilities in the Bay Area are working to 
replace or retrofit facilities to meet deadlines that, in many cases, 
have been extended to 2013. At this time, many of the region's hospital 
facilities remain at risk.

6.B. State and Federal resources are needed to protect and strengthen 
        essential facilities based on priorities in an all-hazards 
        plan.
    Ongoing dedicated funding is needed for risk reduction activities. 
Federal and state funding sources will be needed to seed local and 
private investments. These funds should be allocated on a priority 
basis to reduce the vulnerability of critical facilities and functions. 
Reference: ABAG/MTC Principles for Emergency Response Legislation, 
http://www.abag.ca.gov/jointpolicy/Emergency%20Management%20Leg
islative%20Principles.pdf.

Action 7: Governments and other relevant agencies must set priorities 
        and retrofit or replace vulnerable response- and community-
        serving infrastructure, including cellular communications, 
        airports, ports, roads and bridges, transportation, water, dams 
        and levees, sewage, and energy supplies, to ensure that 
        functions can be resumed rapidly after earthquakes.
    It has taken more than 10 years for the Bay Area to fully recover 
from the 1989 Loma Prieta Earthquake, and some retrofit programs are 
still underway to seismically upgrade or replace critical elements of 
the region's infrastructure. At a cost of billions of dollars, Caltrans 
has rebuilt or retrofit major highway sections and interchanges, and 
most of the bridges crossing the Bay. Only the Bay Bridge, Golden Gate 
Bridge and the Benicia Bridge are still undergoing seismic 
strengthening. In November 2004, a $1 billion regional bond measure was 
approved by over 66 percent of voters in 3 Bay Area counties to fund 
the seismic upgrade of the Bay Area Rapid Transit (BART) metro system. 
BART is currently undertaking a major seismic retrofit of its entire 
system, with many projects already underway. Seismic retrofit of BART's 
Transbay Tube will take up to 4 years to complete from today. If a 
repeat of the 1906 earthquake or other major earthquake were to occur 
today, it would cause extensive damage to the Transbay Tube, forcing 
its closure for more than 2 years, and the interruption of services to 
more than 150,000 weekday passenger trips. Two vulnerable tunnels are 
BART's Berkeley hills tunnel and one of East Bay Municipal Utility 
District's (EBMUD) major water supply lines both of which cross the 
Hayward fault. The Hayward fault crosses Highway 24 west of the 
Caldecott Tunnel.
    Since 1986, Pacific Gas and Electric (PG&E) has been actively 
mitigating substations and other critical facilities to ensure that the 
region's power can be restored quickly. During this time, PG&E also 
completed 88 percent of a $2.2 billion upgrade to 2,250 miles of high-
risk natural gas distribution lines. In 1994, the East Bay Municipal 
Utility District (EBMUD) began a $189 million plan to upgrade its 
entire system to withstand a M7.0 earthquake on the Hayward fault. Work 
is about 80 percent complete, and the seismic retrofit of its major 
supply tunnel that crosses the Hayward Fault near the Caldecott Tunnel 
will be finished in 2006.
    In January 2000, the San Francisco Public Utilities Commission 
completed a facility reliability study that examined the likely impacts 
of four scenario earthquakes on the Hetch-Hetchy water system. The 
scenarios included a magnitude 7.9 earthquake on the San Andreas Fault, 
and an earthquake that ruptured the entire Hayward Fault. It described 
the types and locations of damage to the system and the service 
interruption implications. In 2002, the Bay Area Economic Forum 
produced a follow-on report, Hetch-Hetchy Water and the Bay Area 
Economy, estimating that the losses associated with failure of the 
system would be $28.7 billion in the San Andreas Fault scenario, and 
$17.2 billion in the Hayward Fault scenario. The San Francisco Public 
Utilities Commission has a $4.3 billion retrofit program of its system 
underway, including the Hetch-Hetchy reservoir and aqueduct system, and 
it will be completed in 2012. About 40 percent of the region's 
remaining water systems have begun retrofitting.

7.A. Government and relevant agencies need to assess the 
        vulnerabilities of community-serving infrastructure, set 
        mitigation priorities, develop appropriate contingency plans, 
        and incorporate mitigation plans into their capital outlay and 
        all-hazard mitigation plans.
    Agencies need to complete seismic evaluations, assess the costs, 
and prioritize the mitigation of public and private utility systems and 
infrastructure in the region. Basic infrastructure should be robust and 
redundant to ensure uninterrupted service; or, if uninterrupted service 
is not possible, contingency plans should be in place to have those 
systems back in service within 72 hours. Systems need to be put in 
place to make the repair process as autonomous as possible, so that 
repair crews can self-dispatch to designated areas and make necessary 
repairs.
    The vulnerability of critical lifelines crossing the seismically 
vulnerable levee system, the Sacramento River Delta, also must be 
mitigated. PG&E has largely eliminated the risk to their pipeline 
systems crossing the Delta, but a failure of levees would have 
catastrophic impacts on the water supplies, and subsequently, on the 
economies of both Northern and Southern California.
    Agencies need to identify funding gaps for seismic retrofits or 
replacements of vulnerable infrastructure, and advocate for pre-
disaster resources. Agencies also need to monitor and periodically 
report on mitigation progress.

7.B. Earthquake engineering and science professionals need to ensure 
        accurate, and reliable seismic hazard and risk information, 
        assessment tools, and guidance for infrastructure system 
        mitigation.
    Investments are needed to complete the state's Seismic Hazard 
Mapping Program, and also to further refine our understanding of the 
locations of faults, liquefaction, shaking, and landslides hazards, and 
their potential effects on lifeline systems.

7.C. State and Federal resources are needed to protect and strengthen 
        critical lifeline systems and facilities based on priorities in 
        an all-hazards plan.
    According to the California Infrastructure Coalition (CIC), 
spending for infrastructure projects in California has decreased over 
the past decades, and only 3 per
cent of the state's spending today goes toward infrastructure today, 
despite tremendous growth and aging systems. Many public works systems 
are nearing, or have exceeded, their life expectancies. Ongoing funding 
is needed for risk reduction activities; Federal and state funding 
sources are needed to seed other local and private investments. These 
funds should be allocated on a priority basis to reduce the 
vulnerability of the most critical facilities and functions. Reference: 
www.calinfrastruc
ture.org; ABAG/MTC Principles for Emergency Response Legislation, 
http://www.ab
ag.ca.gov/jointpolicy/
Emergency%20Management%20Legislative%20Principles.pdf.

Part III. Ensure Resiliency in Recovery
    The third area of focus in this action agenda is to provide 
resources to fund recovery. Better preparedness and investments in pre-
event mitigation will reduce the deaths, injuries, and property damage 
following a major earthquake. Earthquakes will cause widespread 
destruction. As Kircher et al.'s study reveals, a repeat of the 1906 
earthquake would severely damage more than 100,000 buildings, and cost 
up to $120 billion to repair or replace these damaged structures and 
contents. As many as 10,000 commercial buildings in Northern California 
would sustain major structural damage, and displace over 160,000 
households or at least 400,000 people. When the additional losses from 
infrastructure damage and fires are also considered, the region's total 
economic loss could rise to $150 billion.
    Financing repairs and rebuilding, relocating displaced residents, 
and retaining businesses and communities are just some of the complex 
challenges that individuals, businesses, and governments must face in 
rebuilding following a catastrophic disaster. Examples abound in New 
Orleans and many other Gulf Coast communities struggling to rebuild in 
the aftermath of Hurricane Katrina. Recovery is a region-wide 
responsibility involving all levels of government, nongovernmental 
agencies, businesses, and individuals. Without adequate planning, the 
long-term social and economic consequences could prove ruinous to some 
communities.

Action 8: Government agencies, the region's major industries, and 
        earthquake professionals have to plan collaboratively for the 
        housing, both short- and long-term, of residents displaced by 
        potential fires, large numbers of uninhabitable buildings, and 
        widespread economic and infrastructure disruption following a 
        major earthquake.
    Northern California must be prepared to accommodate large displaced 
populations on both an interim and longer-term basis.

8.A. Public agencies, in collaboration with ABAG, OES, the region's 
        major employers, the Red Cross, and other response 
        organizations, must establish comprehensive and consistent 
        plans for housing those displaced by future earthquakes.
    Plans for immediate as well as long-term housing must be developed 
in advance of a major earthquake. According to ABAG, more than one-
third of the people left homeless are likely to need short-term public 
shelter after a major earthquake for several weeks; the other two-
thirds will stay in hotels, or with friends, or relatives in the 
region. Depending upon the earthquake, over 80,000 households could 
require short-term shelter. Suitable public facilities for immediate 
sheltering must be identified. They might include military facilities, 
publicly-owned parks and recreational facilities, manufactured housing, 
and other appropriate options. This is especially critical for densely 
populated areas like San Francisco and Oakland. Agencies must pre-
select emergency shelters using criteria that include ease of transport 
and erection, and allow for the gradual return to permanent residences.
    Long-term, temporary housing in appropriate locations must be 
planned. Planning may need to involve areas of Northern California that 
do not sustain heavy damage in a major earthquake. The planning 
departments of each city must be involved in this process so that 
sheltering does not result in permanent blight. Such temporary housing 
may be needed for up to 5 years, as in Kobe, Japan, after the 1995 
earthquake.
    The region's major employers need to consider how widespread 
transportation disruption would affect their employees' abilities to 
commute, and may also need to plan for housing staff at their 
facilities or relocating portions of their business to accommodate 
displaced residents. Reference: CSSC California Loss Reduction Plan, 
2002-2006, http://www.seismic.ca.gov/sscmit.htm.

8.B. Local agencies must prioritize seismic retrofit of vulnerable 
        housing to prevent catastrophic collapse and loss of housing 
        stock.
    Availability of housing is among the top problems facing the Bay 
Area today, and the problem will only be exacerbated if a significant 
amount of housing is severely damaged in an earthquake. Residential 
building owners need help in understanding their risk, and in obtaining 
funds to retrofit soft-story buildings or bolt individual homes to 
their foundations. Regulations may be needed to require upgrades that 
reduce potential losses of affordable housing.
    Berkeley and San Leandro are two of the region's cities that have 
seismic retrofit programs for homeowners. Berkeley's program provides 
economic incentives for homeowners to conduct retrofits with up to \1/
3\ of the city's 1.5 percent property tax eligible to be applied toward 
seismic upgrades; upwards of 65 percent of single-family homes have 
been improved through this funding incentive. San Leandro's program 
provides training and support for simple and cost-effective methods of 
strengthening wood-frame homes. The city provides workshops for 
homeowners and contractors, and has standardized retrofit plans and a 
tool lending library. References: www.ci.berkely.ca.us; www.ci.san-
leandro.ca.us/cities.html.

Action 9: Every household, government agency, and business has to 
        assess and plan for financing the likely repair and recovery 
        costs following a major earthquake.
    The cost to repair damage from an earthquake will financially 
threaten many households, public agencies, and businesses, regardless 
of whether they own or rent their building.

9.A. Each household and business, whether an owner or a tenant, needs 
        to assess the likely cost of repairs and recovery, consider 
        options for financing these costs, and take this information 
        into account in household and business financial planning.
    Just as we plan for future risks like healthcare, unemployment, 
disabilities, retirement, and credit risk, every household and 
business, that is able, needs to assess the likely costs to repair 
their structure and replace damaged contents. There are many simple and 
cost-effective structural and non-structural mitigation actions that 
every household and business can take to reduce their losses, including 
strapping water heaters, strengthening cripple walls and foundations, 
and anchoring shelving to walls. Costs for repairs and rebuilding can 
be substantial and need to consider additional living and business 
interruption expenses until repairs can be completed. For many Gulf 
Coast residents, this time is likely to be more than a year.
    Individuals and businesses typically finance repairs and recovery 
through a mix of public and private funds. Those with private funds, 
such as individual savings or insurance, are generally able to access 
these funds more readily and began repair sooner than those relying 
heavily or solely upon public funds. Each household and business needs 
to determine their likely costs and initiate planning to manage this 
financial risk. Reference: California Earthquake Authority, 
www.earthquake
authority.com.

9.B. Local governments, the insurance industry, and earthquake 
        professionals are responsible for gathering credible risk 
        assessment and management information, and making it accessible 
        to the region's businesses and residents to use in financial 
        planning.
    Public-private partnerships are necessary to better educate and 
prepare every household and business for dealing with potential damages 
and a coordinated recovery. Research after the Northridge Earthquake 
indicates that approximately 40 percent of small businesses never 
resume operations after disasters. Small businesses, in particular, 
need to be educated in business continuity planning. They need tools 
for seismic hazard mitigation, including a better understanding of 
earthquake fundamentals, seismic hazards identification, safety 
information about potentially hazardous building contents and non-
structural mitigation, damage and repair cost assessment techniques, 
and information on public and private financing options. Reference: 
CSSC California Loss Reduction Plan, 2002-2006, http://www.seismic
.ca.gov/sscmit.htm.

9.C. Local governments and other public agencies need to complete 
        hazard mitigation plans in compliance with the Disaster 
        Mitigation Act of 2000, so that the region's communities are 
        eligible for post-disaster Federal funding.
    The Disaster Mitigation Act of 2000 required states and local 
governments to have in place pre-event, multi-hazard mitigation plans 
by May 2005. While the main purpose of the Act is to encourage state 
and local governments to reduce repetitive disaster losses through 
local planning, risk assessment and mitigation, public agencies must 
comply with the Act in order to qualify for certain relief funds after 
a disaster. FEMA is now working with many cities affected by Hurricane 
Katrina to complete their Local Hazard Mitigation Plan (LHMP) to be 
eligible for post-disaster funding. The City of Berkeley was the first 
California city to comply with the requirement, adopting its LHMP in 
July 2004. ABAG has developed a multi-agency HMP that has been approved 
by FEMA. Dozens of cities, counties and special districts are 
participants in this plan. Those agencies that are not using the ABAG 
plan must complete their own plan in order to be eligible for future 
Federal post-disaster funding.

9.D. Local governments, nonprofits and other public agencies in the 
        region need to assess the likely damage levels in their 
        community, both to public and private facilities, and plan for 
        the recovery following a major earthquake.
    No local government has sufficient assets for response and 
recovery. Governments, nonprofits, and other public agencies often 
self-insure and rely heavily upon the post-disaster public assistance 
provided by the Federal Government through the Stafford Act. State and 
Federal assistance is typically reimbursement-based and usually delayed 
even under the ``best'' of circumstances. To help communities rebuild 
and remain resilient to disasters, each agency must estimate its 
potential losses and develop a robust, fiscal recovery plan that uses 
insurance and other post-event funding mechanisms to provide economic 
relief to individuals and communities at a time when resources are most 
scarce.

9.E. The region's governments and major industries need to help expand 
        the adoption and use of ``building occupancy resumption'' 
        programs.
    Detailed post-earthquake building safety inspections take time, and 
large portions of the urban core may be cordoned off until the process 
is complete. This affects the economy's ability to recover after major 
earthquakes. A building occupancy resumption program (BORP) allows 
building owners to pre-certify private, post-earthquake inspection of 
their buildings by qualified engineers. San Francisco established its 
BORP in 1996, and several other Northern California jurisdictions have 
since created similar programs. Resources: San Francisco Department of 
Building Inspection and www.seaonc.org.

9.F. Engineering and science professionals need to work with building 
        officials to refine the survey processes for determining when 
        buildings are safe to reoccupy after earthquakes so that fewer 
        are actually closed.
    Strong motion records inside buildings can provide an early 
indication of likely damage that needs only to be validated by a 
knowledgeable engineer. Investments are needed to expand the region's 
strong motion instrumentation, and its post-disaster communications 
reliability, and utilization by local governments for damage assessment 
and reoccupancy determinations.

Action 10: Federal, state, and local governments, the insurance 
        industry, and the region's major industries have to collaborate 
        to ensure adequate post-event funding to provide economic 
        relief to individuals and communities after a major earthquake, 
        when resources are most scarce yet crucial for recovery and 
        reconstruction.
    Recovery from a major catastrophic earthquake like the 1906 
scenario, will require a region-wide and collaborative plan that pools 
public and private resources to put our communities and individual 
lives back together. In 1906, swift and collaborative action was taken 
by all levels of government, banks and insurers to begin rebuilding and 
provide employment for the suddenly homeless and jobless residents. The 
Federal Government guaranteed a bond issue for the city equal to 10 
percent of the total damages and deposited Federal funds into local 
banks, effectively making an interest-free loan for rebuilding. Led by 
the Mayor, 40 leading business figures formed a committee to lead 
planning for reconstruction. Insurers and reinsurers paid out more than 
$235 million (equivalent to $4.9 billion in 2005) for fire and shake-
related claims. References: ``A shake in insurance history: The 1906 
San Francisco Earthquake,'' Swiss Re, 2006; www.swissre.com; 
``Blueprints from Cities that Rose from Their Ashes.'' NY Times, 
October 9, 2005.

10.A. Local, regional and state agencies, and the insurance and 
        catastrophe reinsurance industries are challenged to work 
        together to develop alternative products that are actuarially-
        sound and attractive to residential consumers.
    Private insurance is a major financing source for post-disaster 
economic recovery in the U.S., and it has been a major source of 
recovery funding for several recent large-scale disasters--the 
September 11, 2001 terrorist attacks, and the 2004 and 2005 hurricanes. 
But, for recent U.S. earthquakes--the 1994 Northridge, 2001 Nisqually, 
and the 2003 San Simeon earthquakes--the proportion of insurance-
related funding has been significantly smaller. The adequacy and 
availability of insurance to offset repair and rebuilding costs, 
particularly for damaged residential properties, in Northern California 
is a serious obstacle for future catastrophic earthquake recovery 
financing.
    Following the 1994 Northridge Earthquake, residential losses were 
nearly half ($20 billion) of the total direct losses, and private 
insurance covered an estimated $10 billion (or 50 percent) of the total 
residential loss But, in 1994, about 30 percent of California 
homeowners had earthquake insurance, with levels above 40 percent in 
some areas such as Los Angeles. In the epicentral region of San 
Fernando Valley, an estimated 60 percent of all homeowners had 
earthquake insurance in 1994, although far fewer renters and owners of 
rental housing and condominiums had insurance.
    In 1996, the state established the California Earthquake Authority 
(CEA)--a privately financed, publicly-managed organization that offers 
basic earthquake insurance for California homeowners, condominium 
owners, mobile homeowners, and renters. Today, the CEA is one of the 
world's largest residential earthquake insurance providers with over $7 
billion in financial resources to pay claims from future earthquakes. 
But the number of residential earthquake insurance policyholders in 
California has been declining since 1994, in spite of the state's 
actions. In 2004, there are only 1.2 million residential earthquake 
policyholders in California, representing less than 20 percent of 
California homeowners; and the policy coverages and typically have a 15 
percent deductible. Policy limitations and the high costs for 
supplemental coverages are the main reasons cited for the poor 
penetration rates.
    Given the decreasing number of residential earthquake insurance 
policies, it is quite likely that the proportional public burden for 
funding residential recovery from future catastrophic earthquakes, 
especially in the heavily urbanized Northern California region, will be 
substantially higher than it was in Southern California in 1994. 
Strategic and collaborative planning between government and insurers is 
needed to create more affordable and attractive residential insurance 
products, and increase take-up rate among consumers. References: 
California Earthquake Authority, www.earthquakeauthority.com; Johnson, 
LJ, 2005. Strategies for Financing Recovery from Future Catastrophic 
Earthquakes. ISEE Kobe 2005. Petak, WJ et al., 2000. The Northridge 
Earthquake, USA and Its Economic and Social Impacts. EuroConference on 
Global Change and Catastrophe Risk Management, Earthquake Risks in 
Europe. IIASA: Laxenburg, Austria. Risk Management Solutions (RMS), 
2004. The Northridge Earthquake: RMS 10-year Retrospective. RMS: 
Newark, CA. www.rms.com.

10.B. Local and state agencies must collaborate, seeking input from 
        insurers, utilities, and major employers in the region, to plan 
        for a coordinated recovery.
    Following the 1994 Northridge Earthquake, the gap of approximately 
$10 billion in residential losses that was not covered by private 
insurance was filled by a mix of public and private funding sources. 
Three large public sources of funding were: FEMA's Individual 
Assistance grant program ($1.4 billion), Small Business Administration 
(SBA) loans to residences and businesses ($4.1 billion), and Department 
of Housing and Urban Development (HUD) grants and loans amounting to 
$840 million. Private lenders and individual victims assumed the 
remaining burden for direct damages, as well as the many indirect and 
hidden costs associated with recovery. The public and private sectors 
must begin work now to develop a robust, fiscal recovery plan that 
pools Federal and state funding, insurance, and other post-event 
funding mechanisms and focuses on housing and economic recovery 
strategies that will help the region rebound quickly, and safeguard its 
extraordinary cultural and economic vitality from the next major 
earthquake. References: Johnson, LJ, 2005. Strategies for Financing 
Recovery from Future Catastrophic Earthquakes. ISEE Kobe 2005. Petak, 
WJ et al., 2000. The Northridge Earthquake, USA and Its Economic and 
Social Impacts. EuroConference on Global Change and Catastrophe Risk 
Management, Earthquake Risks in Europe. IIASA: Laxenburg, Austria.

10.C. The science and engineering professions and local governments 
        need to develop and adopt building and lifeline codes for new 
        construction that include regulations and/or incentives for 
        designs that exceed minimum life-safety standards and focus 
        more ``capital preservation,'' ``immediate occupancy,'' and 
        ``continued functionality'' for structures critical to the 
        local economy.
    We must bring the region to a higher level of seismic performance 
as soon as possible, and help ensure that all structures and lifelines 
critical to restarting the local economy following a major earthquake 
are built to standards focused on capital-preservation and continued 
function. Critical buildings and systems responsible for emergency 
response, treating the injured, and providing post-earthquake lifelines 
(such as transportation, water supply, and utilities) must be 
functional following the next major earthquake. Responsible 
jurisdictions and professional organizations should develop appropriate 
regulations and incentives to promote design for higher-than-minimum-
life-safety standards for high-occupancy residential and office 
buildings, as well as key industrial facilities, so that we can 
reoccupy residences and return to jobs as soon as possible. This 
involves all areas of construction and requires refinements in hazard 
assessment, target performance levels, design requirements, incentives, 
construction processes, and post-earthquake repair requirements.

    Senator DeMint. Thank you, Mr. Cluff.
    Ms. Conroy.

 STATEMENT OF ANNEMARIE CONROY, EXECUTIVE DIRECTOR, OFFICE OF 
                EMERGENCY SERVICES AND HOMELAND 
           SECURITY, CITY AND COUNTY OF SAN FRANCISCO

    Ms. Conroy. Welcome, Senators, to San Francisco on this 
historic day. And thank you, Senator Boxer, for all you do for 
San Francisco. And to Senator DeMint and to Senator Boxer, 
thank you for providing San Francisco the opportunity to give 
input today on this most valuable discussion.
    Today San Franciscans mark the Centennial of the Great 
Earthquake and Fire of 1906. A formal program began at 4:30 
this morning with San Franciscans filling Market Street and 
honoring our survivors, of which there are 15, with the oldest 
survivor at the age of 109.
    Today our city is focused on three things: commemorating, 
educating, and, of course, celebrating. We commemorate the loss 
of lives and recognize the destruction of our city; we honor 
the heroic deeds of first responders and the resilience of the 
survivors.
    We use this Centennial as an opportunity to educate our 
citizenry to be prepared to be on their own for a minimum of a 
72 hours. And we celebrate the great rebirth of San Francisco.
    Jack London, writing for eastern newspapers, after the 1906 
Earthquake stated, ``San Francisco is gone. Nothing remains of 
it but memories.'' And how wrong he was. Determined San 
Franciscans labored to put their city back on its feet.
    Today we stand, as equally determined San Franciscans 
living in this great city, despite the known certainty of 
earthquakes and the threat of terrorism. We are a city that is 
100 years older and wiser.
    Disaster preparedness is one of our Mayor's top priorities. 
This preparedness effort has two parts: First, government 
preparedness, and, second, is citizen preparedness. And they 
are equally important.
    Under new leadership at OES for the first time in San 
Francisco representatives from police, fire, public health, 
sheriff, and transit work every day side by side for planning, 
for training, and for exercises.
    By embracing public health as a full partner in disaster 
planning, San Francisco is ahead of the curve. The issues of 
bioterrorism, the complexities of initiating and accepting the 
strategic national stockpile, issues involving mass casualty 
incidents, and now pandemic flu planning, all necessitate this 
very close working relationship with public health.
    In the area of citizen preparedness, San Francisco leads 
the way. We've created an innovative and new website called 
``www.72hours.org.'' It's a very simple website. We call it 
almost a disaster for dummies, that if you can log on to this 
website for five, maybe 10 minutes, you can find everything 
that you need to know, from checklists that you can download, 
to getting your supplies together, to protecting your home, to 
doing the types of things that you need to do to make a plan, 
to build a kit, and how to get involved.
    Since Katrina we have had over 240,000 unique visitors to 
that website. We are now nominated for a Webby. It's really a 
great thing for San Francisco. We're leading the way.
    Chicago, which is usually a gold standard in preparedness 
and emergency response and management, has adopted our 
72hours.org. Part of this is the simplicity of the message, 
making it easy for people to get prepared.
    There's been many polls and studies, as Mr. Brooks will let 
you know as well, showing that people--looking at why people 
can't get prepared. What's keeping them from becoming prepared. 
Even post-Katrina the numbers have really not changed in 
America for citizen preparedness. What is it? What is that key 
to get people prepared?
    One issue cited by citizens regularly is that they just 
wish they were more organized. Another issue is they just don't 
want to think about it. So it's our job to make people think 
about it, to help people think about it, and to help them get 
organized.
    One of the issues we have really focused on in this 
Centennial is taking the education opportunity with so much 
focus on earthquakes and disaster preparedness. We've partnered 
with Walgreens in Northern California. A hundred and eighty 
stores are now carrying this ``Disaster Supply Shopping List.'' 
It can't be much easier than picking up this shopping list when 
you're at a Walgreens and getting your disaster supply 
materials. So, again, we're making that message easy and 
organized.
    This is also a culturally competent campaign in San 
Francisco. It's had a lot of outreach into the different 
communities. 72hours.org is available in Chinese and in Spanish 
so we make sure we have a culturally-competent program in San 
Francisco.
    We've also created the city's first community disaster 
plan, which we're testing in District 5. And we hope to roll 
that out all across San Francisco district by district, where 
communities are empowered to take over after an emergency and 
to deal with all of the different issues that are happening as 
our first responders are helping those most in need, and city 
government can focus on getting the lifelines restored to our 
city.
    That's why we focus so much on citizen preparedness, so 
that if our citizens are prepared to be on their own for a 
minimum of 72 hours we can have our first responders, our 
leaders in San Francisco dealing with the major issues and our 
citizens can be there to take care of themselves.
    We also have great partnerships with the American Red 
Cross, as Mr. Brooks and I work together on a regular basis, as 
well as other city agencies with the American Red Cross. And 
San Francisco, as my colleague from the Fire Department will 
let you know, the Neighborhood Emergency Response Team, 
incredibly important, it was born in San Francisco. The CERT 
Programs that you see throughout the country are based on the 
NERT Programs that began in San Francisco.
    In San Francisco, on the issues of leadership and looking 
at developing these emergency plans and preparing San Francisco 
for a major catastrophic event, two of the greatest lessons 
learned that are coming out of Katrina for the locals are 
citizen preparedness and regional planning.
    San Francisco has taken the lead in the last year using our 
Urban Area Security Initiative dollars to bring together the 
three major cities of San Francisco, Oakland, and San Jose and 
the ten Bay Area counties in partnership with the State Office 
of Emergency Services. We're creating a Regional Emergency 
Coordination Plan so that we won't be looking for assets in an 
emerging event; we'll know where they are.
    That was one of the greatest surprises to me in assuming 
the leadership of OES 18 months ago that that did not already 
exist in the Bay Area. This Regional Emergency Coordination 
Plan looks at inventory of resources, Federal, state, and 
local, and mechanisms for their deployment, particularly for 
Federal assets, whether they need a Presidential Declaration or 
whether they can self-deploy.
    We're looking at the coordination of emergency medical 
resources and transportation, not only transportation of 
patients in a mass-casualty incident, but restoring 
transportation and moving our first responders back to their 
home cities so that they can help fight fires and assist in 
emergency response.
    This Regional Emergency Coordination Plan also looks at the 
coordination of fire, hazardous materials, and search-and-
rescue resources. It also looks at regional planning for care 
and shelter services, as one area may be hit harder than the 
other, and we'll need to be able to search county to county for 
care and shelter.
    The other issue is a 90-Day Recovery Plan for the Bay Area 
so that we're looking at recovery issues for the first 90 days.
    In San Francisco, we have been recognized as a leader in 
the country in the area of regional planning by the Department 
of Homeland Security. And the lessons learned of Katrina 
certainly validate that the Bay Area is ahead of the curve.
    We've created an Emergency Operations Plan in San Francisco 
which had not been updated in over 10 years. Care and shelter, 
tsunami plans, terrorism plans, these have all been written by 
San Francisco's Office of Emergency Services. We're using our 
Homeland Security grants in a dual-purpose manner. As you are 
well aware, there are many restrictions on the UASI Program 
that is heavily weighted toward terrorism.
    In San Francisco we try to focus our efforts on a dual-use, 
since Mother Nature, we know, guarantees an earthquake for San 
Francisco. In looking at mass-casualty incidents, in looking at 
communications issues, structural collapse, all the types of 
things that could happen both in an earthquake and as an act of 
terrorism. We try to take an all-hazards approach in San 
Francisco to emergency management and planning. The UASI 
dollars have helped us tremendously.
    We have placed 4,000 public-safety officials through 
weapons of mass destruction training, hours upon hours of 
training and exercises for our police, fire, public health, and 
sheriff and also with our regional partners, our state 
partners, and our Federal partners. Personal relationships, 
working with people during these exercises is incredibly 
important. You don't want to be meeting these people for the 
first time during an emergency event.
    We've conducted regular exercises for first responders and 
for policymakers. We have exercises of our Emergency Operations 
Center and disaster forums once a month. Tomorrow we will have 
two major exercises; one of the policy group and major policy 
advisors in San Francisco, and another of the more boots-on-
the-ground in our Emergency Operations Center in full swing.
    We've done a number of exercise scenarios from an anthrax 
outbreak, setting up a care-and-shelter response, major 
earthquake, a terrorist attack on a ferry, a gas main leak with 
an explosion resulting in evacuation and mass casualties.
    San Francisco's led the way on the process for the 2006 
Urban Areas Security Initiative. As you're well aware, we were 
suddenly consolidated with San Francisco, Oakland, and San Jose 
into one super-urban area, now called a SUASI, which brought 
together ten Bay Area counties, three major cities, and seven 
million residents. Creating a governance structure for that 
body was not an easy task, and getting our grant application in 
by February 24th required 208 representatives from 134 
different Federal, state, regional, local, and nongovernmental 
agencies in a 30-day period, but we did it.
    San Francisco is taking the lead in care and shelter, as 
well in creating what we believe will be a best practice for 
the country. We now have a web-enabled tool where we have gone 
out and surveyed all the sites in San Francisco where we can 
house up to 40,000-50,000 San Franciscans.
    This web-enabled tool will have each of the sites surveyed, 
knowing what the ADA compliances of those different buildings, 
knowing what their cooking capacity is, their sleeping 
capacity, whether those facilities are ADA compliant, what 
needs to be done for them to become ADA compliant, and also 
areas for pets.
    As everyone saw in Katrina and in Rita, people will not 
evacuate if they cannot take their animals with them. A lot of 
people snicker when we talk about planning for animals in the 
care and shelter planning, but it's a very real issue, 
particularly in San Francisco where there are more dogs than 
there are children. So we plan for that as well.
    We've also created the Disaster Service Worker Program in 
San Francisco, a training program. Every public employee in San 
Francisco, in this state, becomes a disaster service worker in 
the event of a declaration of emergency. San Francisco's 26,000 
employees become a conscripted army.
    We are looking at programs and training for our disaster 
service workers in San Francisco so the skill sets that our 
employees have can be deployed in a strategic manner for care 
and shelter, for points of dispensing when we move the 
strategic national stockpile, for multi-link to know who our 
multilingual employees are so we can call upon them in an 
emergency working very closely with our Department of Human 
Resources in that effort.
    We've also attracted top emergency management staff to the 
City of San Francisco. Since 1909--excuse me--since 1906 San 
Francisco, as we've spoken, has been very innovative with the 
Auxiliary Water Supply System, creating wide boulevards, and 
rebuilding our City with natural fire breaks, and changing our 
building codes.
    Since 1989, we've had tremendous improvements to our 
communication system. And since 9/11 we've made tremendous 
improvements using our UASI funding. And today we ask that you 
protect the UASI Program for San Francisco and for the major 
urban areas, and help us trend it back upward. Thank you.
    [The prepared statement of Ms. Conroy follows:]

 Prepared Statement of Annemarie Conroy, Executive Director, Office of 
   Emergency Services and Homeland Security, City and County of San 
                               Francisco

Major Accomplishments
    Leading the development of a new Regional Emergency Coordination 
Plan. San Francisco recognized the need to plan for a catastrophic 
event on a regional basis. The RECP, which includes the Governor's 
Office of Emergency Services, the 10 Bay Area Counties, and the cities 
of Oakland, San Jose, and San Francisco, represents the first time this 
region has come together to engage in a comprehensive emergency 
planning process. While the RECP had been in the planning stages for 
months prior to Hurricane Katrina, it has become even more significant 
with the increased national focus on the need for a regional approach 
to emergency preparedness.
    Highlights of the RECP include:

  <bullet> Inventory of resources--Federal, state, and local--and 
        mechanisms for deployment.

  <bullet> Coordination of emergency medical resources and 
        transportation.

  <bullet> Coordination of fire, hazardous materials, and search-and-
        rescue resources.

  <bullet> Regional planning for care and shelter services.

  <bullet> 90-Day Recovery Plan.

    Created a new Emergency Operations Plan for the first time in a 
decade. The EOP Part 1 serves as the foundation for emergency response 
in San Francisco. For the first time since 1996, this document was 
updated--and it took less than a year to do it. The new plan lays out 
how to respond to all hazards in, or affecting, the CCSF, such as 
natural disasters and national security emergencies.
    In addition, OES/HS has drafted Part 2 of the Emergency Operations 
Plan--a document that never existed before. EOP Part 2 is the nuts-and-
bolts guide to the functioning of the Emergency Operations Center, 
which will become partially or fully active in any large-scale 
emergency. It outlines roles and responsibilities of the various 
branches of the EOC, including planning and intelligence, operations, 
and logistics.
    We have also created new annexes to the EOP that never existed 
before. The topics of these annexes include Care and Shelter, 
Terrorism, Severe Weather, Tsunami and Animal Care and Shelter.
    In January 2004, Mayor Newsom asked city departments to update 
their emergency plans and file them at OES/HS. Since that time, 30 of 
46 departmental emergency plans have been updated. Given the varied 
nature of the responsibilities and size of city departments, OES/HS 
developed, and introduced in January 2006, a departmental emergency 
plan template to increase their uniformity and comprehensiveness. In an 
ongoing process, we have also offered assistance to departments in 
updating their plans.
    Convened Disaster Council and Disaster Forum on a regular basis. 
OES/HS has delivered regular updates on disaster preparedness efforts 
to policymakers, elected officials, and the public through televised 
Disaster Council meetings. In addition, we have held monthly Disaster 
Forums, at which city department representatives discuss disaster 
planning and participate in a tabletop exercise. Since August 2004, 
there have been 6 Disaster Councils and 19 Disaster Forum meetings.
    Using Homeland Security grants to fund planning, training, 
equipment, and exercises. The grants are helping improve our ability to 
respond to disasters both man-made and natural. For example, major 
improvements have been made to the city's emergency radio 
communications system. Funding has been provided for protective 
equipment for first responders for CBRNE (Chemical, Biological, 
Radiological, Nuclear, Explosive) types of events. We've invested in 
security improvements for critical infrastructure. We've also funded 
extensive training, including: terrorism awareness training for 4,000 
public safety personnel; structural collapse training for Fire 
Department personnel; incident command training for public safety and 
health command staff; and CBRNE-related training for Police Department 
personnel.
    Conducted regular exercises for first responders and policymakers. 
We conduct monthly exercises at our Emergency Operations Center and 
larger-scale exercises on a regular basis. A tabletop exercise based on 
the London and Madrid transit bombings was attended by 120 emergency 
personnel from the region including the Mayor, key department heads, 
FBI, Federal and state Homeland Security personnel, and the National 
Guard. We also held a field exercise based on the transit bombing 
scenario last October and participated in the statewide Golden Guardian 
exercise last November. Other exercise scenarios include an anthrax 
outbreak, shelter operations in response to a major earthquake, a 
terror attack on a ferry (which was held at the Port of San Francisco) 
and a gas-main leak with explosion resulting in evacuations and mass 
casualties.
    Led the Application Process for 2006 Bay Area UASI funding. San 
Francisco served as Chair of the Bay Area group that submitted a $332.2 
million application for Federal homeland security funding in February 
2006. In January, the Federal Department of Homeland Security announced 
that for the 2006 grant year, the three previously separate Urban Area 
Security Initiative (UASI) areas of San Francisco, Oakland, and San 
Jose were being consolidated into one Bay Area Super UASI, which also 
included the 10 Bay Area counties. The grant application process 
involved 208 representatives from 134 different Federal, state, 
regional, local, and nongovernmental agencies who met over a one-month 
period.
    Created the City's First Community Disaster Plan. OES/HS has begun 
a pilot program to help San Francisco communities develop their own 
disaster plans. Beginning in Supervisorial District 5, and in 
conjunction with the Office of Supervisor Ross Mirkarimi, the Mayor's 
Office of Neighborhood Services and SF 5 Together, the program is 
designed to empower communities to work with city agencies to develop 
emergency response plans that are tailored to their unique needs. The 
Community Disaster Plan suggests forming an Emergency Preparedness 
Committee to coordinate neighborhood disaster preparedness efforts. 
Other key elements include identifying resources such as recreation 
centers, congregations, and neighborhood associations that can help 
support implementation of the plan, and outlining how residents can 
work together to improve their capacity to shelter safely in place for 
at least 72-hours post disaster. This project will be applicable to 
entire districts, neighborhoods, or residential communities such as 
condominium and apartment complexes. The pilot program is expected to 
expand to other districts later this year.
    Created an innovative and interactive new website--www.72hours.org. 
72hours.org helps San Franciscans plan for emergencies such as 
earthquake, fire, severe storms, power outages, and acts of terrorism. 
The website is available in English, Spanish, and Chinese. We've 
launched public education campaigns using bus and shelter ads and 
street banners to encourage people to visit the website and get 
prepared. We've designed new multilingual brochures with the same 
content as the website. Since last September, the site has had more 
than 228,000 unique visitors. And the site has just been nominated for 
a Webby Award.
    Developed a Community Outreach Program and Ad Campaign. OES/HS 
regularly presents preparedness information at venues including street 
fairs, town halls, and community meetings. Each year during Fleet Week, 
we hold an earthquake preparedness fair at Marina Green that attracts 
thousands of people.
    In the Fall of 2005, we launched a unique ad campaign that 
encouraged San Franciscans to think about what items they need in order 
to be prepared for an emergency. The theme of the ads, which appeared 
on MUNI buses and bus shelters, was ``Nice to Have''/``Need to Have,'' 
juxtaposing items such as water and wine; sushi and a can of tuna; a 
battery-operated toy monkey and a flashlight with batteries. Our next 
ad campaign, which revolves around the Centennial of the 1906 
earthquake, is set to begin in mid-April.
    Partnered with Walgreens to Promote 72hours.org and Disaster 
Preparedness. As part of the events commemorating the 1906 Earthquake 
and Fire, OES/HS has partnered with Walgreens drugstore on a major 
initiative to promote personal preparedness and encourage San 
Franciscans to log on to 72hours.org. Walgreens is prominently placing 
a 72hours.org display in its 180 Bay Area stores, which will include a 
checklist and items to put in a disaster supply kit. The displays are 
set to go up on April 1. In addition, in its April 16 advertising 
circular in the San Francisco Chronicle, Walgreens is placing a special 
ad featuring 72hours.org.
    Created a New Care and Shelter Plan and Data base. For the first 
time, the City's new Care and Shelter Plan addresses how to accommodate 
up to 50,000 people who may become displaced by a disaster. As a key 
part of this process, we created an online database of possible shelter 
sites in all SF neighborhoods. We're conducting a comprehensive survey 
of sites such as schools, recreation centers, congregations, 
neighborhood centers, and convention or large meeting facilities. The 
information contained in the searchable database includes floor plans 
and accessibility for the disabled. This important planning tool will 
help to identify how and where we can provide shelter to San 
Franciscans in advance of a disaster. The database is expected to be 
completed in early May 2006.
    Established San Francisco as a StormReady Community. OES/HS applied 
for and received recognition from the National Weather Service as a 
StormReady community. San Francisco was one of the first major cities 
in the Nation to receive this designation. The program is designed to 
help communities better prepare for and mitigate effects of extreme 
weather-related events, focusing on the communication and safety skills 
needed to save lives and property. It provides a close partnership 
with, and direct assistance from, the National Weather Service before 
and during an event. The National Weather Service has approved our new 
Severe Weather annex.
    Developed the Disaster Service Worker Training Program and 
Identification System. Under state and local law, all 26,000 City 
employees are disaster service workers--meaning they can be called upon 
to assist in any way during a major disaster. Last year, in conjunction 
with the Department of Human Resources, OES/HS began to develop a 
training program and new Disaster Service Worker identification system 
for all city workers--both of which had never existed before. Over the 
last 6 months, more than 400 city employees have received this 
training. In addition, DHR and OES/HS are developing a ``skills-
tracking'' computer program--which will identify language skills, 
medical skills, and special training--to help strategically and 
effectively deploy employees during an emergency event. We expect to 
expand the program to train hundreds of employees over the coming year 
(pending funding and personnel).
    Created the City's Departmental Operations Center Program. OES/HS 
has assisted the various city departments that have a role in disaster 
response in establishing, equipping, and maintaining Departmental 
Operations Centers. The DOCs serve as the department's response 
headquarters during a major emergency. Some of the departments and 
agencies OES/HS has assisted include: Public Health, Fire, Police, 
Treasure Island Development Authority, SF Unified School District, 
Recreation and Park Department, Port of SF, Medical Examiner, and MUNI.
    Attracted Top Emergency Management Staff. For the first time in the 
history of the Office of Emergency Services, the major emergency 
departments are all under one roof--Police, Fire, Public Health, 
Sheriff and Transit. In the past year and a half, we have attracted top 
people from numerous disciplines including hazardous materials and 
explosives, heavy rescue, emergency medical services, care and shelter, 
tactical operations, and disaster response. This group of trained 
experts comes from organizations as varied as the American Red Cross 
and the U.S. military.

    Senator DeMint. Thank you, Ms. Conroy.
    Captain Vannucchi.

           STATEMENT OF JAMES M. VANNUCCHI, CAPTAIN,

      SAN FRANCISCO FIRE DEPARTMENT (SFFD); AND DIRECTOR,

           SAN FRANCISCO FIREFIGHERS UNION--LOCAL 798

    Mr. Vannucchi. Senator Boxer, Senator DeMint, good morning 
to you both. I'd like to thank you initially for the privilege 
to be here with you this morning. It's an absolute honor. And 
before I begin, if you'll indulge me for just a moment.
    Although I am employed by the San Francisco Fire 
Department, much like Mr. Cluff, I wear two hats. I'm also a 
Director of the San Francisco Firefighters Union Local 798, and 
I will be appearing today on behalf of the Firefighters Union, 
not the Fire Department. And if I may?
    April 3, 2006, marked the 140th anniversary of the San 
Francisco Fire Department. The Fire Department's century and a 
quarter plus of heroic dedication to the citizens of San 
Francisco began in the cauldron of the San Francisco California 
Gold Rush, and was further personified as the Fire and 
Earthquake of 1906 became a watershed in the history of San 
Francisco, an event that would shadow the rebirth and vitality 
of this great city to this very day, the 100-year Anniversary 
of the Great Earthquake and Fire.
    The San Francisco Fire Department provides protection to 
approximately 750,000 citizens who reside in the 47.5-square 
miles of San Francisco.
    During a normal business day, this number increases 
dramatically to approximately 1.2 million people. The Fire 
Department's Suppression forces consist of approximately 1,700 
firefighting and emergency medical field personnel, 42 engine 
companies, 19 aerial truck companies, 18 ambulances, two rescue 
squads, two fireboats, and assorted specialized units.
    These companies are deployed into two divisions, which are 
further divided into nine battalions. Fire stations are 
strategically and geographically located throughout the City of 
San Francisco. A separate division of the Fire Department is 
comprised of three firefighting companies located at the San 
Francisco International Airport.
    Since the 1907 report on the Great Earthquake and Fire of 
1906, the next major report on suppression operations of the 
Fire Department was not authored until October 17, 1990, 
following the 1989 Loma Prieta Earthquake.
    Some of the changes made in the Department's structure as a 
result of the 1906 disaster are still with us, including the 
current battalion system, design and use of an auxiliary water 
system supply, the continued use of water street cisterns, and 
certain Charter requirements which guide the operations of the 
Fire Department.
    Although the Fire Department was far better prepared for 
disaster in 1989 than the Fire Department of 1906, we still 
need to move forward with recommendations, technology, and 
implementation of same.
    The mission of the San Francisco Fire Department is to 
protect the lives and property of the people of San Francisco 
from fires, natural disasters, and hazardous material 
incidents; to stabilize by providing emergency medical 
services; and to prevent fires through prevention and 
educational programs.
    As I come before this body to address the call to 
preparation in the community, I am haunted by our greatest 
enemy, and that enemy is complacency. History has taught us we 
cannot ignore history. In 1906, hell was unleashed upon this 
majesty that we have come to embrace as San Francisco, all but 
destroying what we have come to love.
    Again, in 1989, nature provided us with a courtesy call, 
sharing with us the devastation of 1906, again, was not only 
possible but inevitable. I would be naive to say that San 
Francisco, unlike other cities, possesses an unlimited budget. 
We do not. Our resources are stretched beyond limits, held 
together solely by the originality of our administration but, 
more importantly, the unwavering dedication of our members, but 
a storm still rages.
    As aggressive as we are in our training, as fiscally 
conscious as our management is, as prepared as we are for 
disaster, we are still without preparedness. The crucial 
element that has come to be known as mitigation cries out for 
equal footing.
    For the San Francisco Fire Department it turns defensive 
into the offensive the most fundamental of equipment that 
management has needed in seven areas.
    Initially equipment. Due to budgetary restraints should a 
recall of off-duty firefighters occur, we are still without 
sufficient apparatus, engines, and aerial trucks; self-
contained breathing apparatus and hand-held radios.
    Water supply. The entire water system is vulnerable due to 
the proximity of faults and infirm soil. The fireboats that 
augment the water system and protect the port are over 50 years 
old and in need of replacement. The inventory of portable 
hydrants, large-diameter hose, and associated valves needs to 
be increased dramatically.
    Fire Department facilities. Disaster supplies, the most 
basic: Water, food, medicine need to be stocked at all Fire 
Department sites to support Fire Department personnel and 
citizens during long-term campaigns. In the event of a major 
disaster, help is at least 72 hours away.
    Medical. Within 3 hours of a major disaster, hospitals and 
ancillary medical fields would be overwhelmed.
    Grants. Funds need to be quickly, easily, and directly 
accessible for fire agencies. They should not be channeled 
through state, regional, or local offices. Fire assets should 
be controlled by the Fire Department.
    Finally, leadership. Disasters require a visible commander 
at all levels who is a career professional in emergency 
services molded by an experience of success, not a political 
appointment that lacks a synergistic balance of education and 
experience.
    Thank you.
    [The prepared statement of Captain Vannucchi follows:]

 Prepared Statement of James M. Vannucchi, Captain, San Francisco Fire 
Department (SFFD) and Director, San Francisco Firefighters Union--Local 
                                  798
Opening Remarks
    The mission of the of the San Francisco Fire Department is to 
protect the lives and property of the people of San Francisco from 
fires, natural disasters, and hazardous material incidents; to save 
lives by providing emergency medical services; and to prevent fires 
through prevention and education programs.
    As I come before this body to address a call to preparation and 
community, I am haunted by our greatest enemy and that is complacency. 
History has taught us that we cannot ignore history.
    In 1906, hell was unleashed upon this majesty that we embrace as 
San Francisco, all but destroying what we have come to love. Again in 
1989, nature provided us with a courtesy call sharing with us that the 
devastation of 1906, again, was not only possible, but inevitable.
    I would be naive to say that San Francisco, unlike other cities, 
possess an unlimited budget. We do not. Our resources are stretched 
beyond limits, held together solely by the originality of our 
administration, but more importantly, the unwavering dedication of our 
members. But a storm still rages.
    As aggressive as we are in our training, as fiscally conscious as 
our management is, as prepared as we are for disaster, we are still 
without:
    Preparedness, the crucial element that is now known as 
``mitigation,'' cries out for equality. For the San Francisco Fire 
Department to turn the defensive into the offensive, the most 
fundamental of equipment and management is needed:

  <bullet> Equipment--Due to budgetary restraints, should a recall of 
        off-duty firefighters occur, we are still without sufficient 
        apparatus (engine and aerial trucks), self-contained breathing 
        apparatus and hand-held radios.

  <bullet> Water Supply--The entire water system is vulnerable due to 
        the proximity of faults and infirm soil. The fireboats that 
        augment the water system and protect the port are over 50 years 
        old and are in need of replacement. The inventory of portable 
        hydrants, large-diameter hose (5 inch) and associated valves 
        needs to be increased dramatically.

  <bullet> Facilities--Disaster supplies need to be stocked at all SFFD 
        sites (water, food, and medicines) to support SFFD personnel 
        and citizens during long-term campaigns. In the event of a 
        major disaster, help is at least 72 hours away.

  <bullet> Communications--Although the Emergency Communications 
        Department boasts state-of-the-art technology, the San 
        Francisco Fire Department still does not possess the ability to 
        communicate with the San Francisco Police Department, or 
        outside agencies, with the exception of one channel.

  <bullet> Medical--Within 3 hours of a major disaster, hospitals and 
        ancillary medical vehicles will be overwhelmed.

  <bullet> Grants--Funds need to be quickly, easily and directly 
        accessible for fire agencies. They should not be channeled 
        through state, regional or local offices.

  <bullet> Leadership--Disasters require a visible commander at all 
        levels who is a career professional in emergency services, 
        molded by an experience of success. Not a political appointment 
        that lacks the synergistic balance of education and experience.

Testimony
    April 3, 2006, marked the 140th anniversary of the San Francisco 
Fire Department. The Fire Department's century and a quarter plus of 
heroic dedication to the citizens of San Francisco began in the 
cauldron of the California Gold Rush, and was further personified as 
the Fire & Earthquake of 1906 became a watershed in the history of San 
Francisco. An event that would shadow the rebirth and vitality of this 
great city to this very day; the 100 year anniversary of the Great Fire 
& Earthquake of 1906.
    The San Francisco Fire Department (SFFD) provides protection to 
approximately 750,000 citizens residing in the 47.5 square miles of San 
Francisco.
    During the business day, this number increases to approximately 1.2 
million people. The SFFD Suppression forces consist of approximately 
1700 firefighting and emergency medical field personnel, 42 engine 
companies, 19 aerial truck companies, 18 ambulances, 2 rescue squads, 2 
fireboats and assorted specialized units. These companies are deployed 
into 2 divisions, which are further divided into 9 battalions. Fire 
stations are strategically and geographically located throughout the 
City of San Francisco (CCSF). A separate division of the SFFD is 
comprised of 3 firefighting companies located at the San Francisco 
International Airport.
    Since the 1907 report on the Great Earthquake & Fire of 1906, the 
next major report on suppression operations of the San Francisco Fire 
Department was not authored until October 17, 1990, following the 1989 
Loma Prieta Earthquake. The following reviews and recommendations that 
will be addressed later in this document were compiled by David Fowler, 
and brought forward by then-Chief of Department Frederick Postel.
    Some of the changes made in the Department's structure as a result 
of the 1906 disaster are still with us, including the current battalion 
system, the design and use of an auxiliary water supply system, the 
continued use of street water cisterns and certain Charter requirements 
which guide the operations of the San Francisco Fire Department.
    Although the SFFD was far better prepared for disaster in 1989 than 
the SFFD of 1906, we still need to move forward with recommendations, 
technology, and implementation of same.

1989 Loma Prieta Earthquake
  <bullet> The earthquake shook for 15 seconds and resulted in at least 
        67 deaths from direct earthquake causes, 3,757 injuries, more 
        than 12,000 left homeless, and property damage in excess of $10 
        billion (1989 dollars) throughout the affected zone according 
        to the State of California OES.

  <bullet> In San Francisco, 11 people died as a direct result of the 
        earthquake and hundreds were injured. Thirty buildings either 
        collapsed or were immediately demolished and 91 others were 
        condemned.

  <bullet> From 5:04 p.m. October 17 to midnight October 19, 36 fires 
        involving structures were reported to the San Francisco Fire 
        Department. Of these, 34 fires were directly or indirectly 
        attributable to the earthquake and subsequent aftershocks.

  <bullet> When the earthquake struck, the electric supply was lost to 
        most of San Francisco.

  <bullet> Initially, failure of electric service may have been 
        beneficial in reducing the number of potential fires because of 
        the loss of an ignition source for hundreds of PG&E gas leaks. 
        As anticipated, natural gas was responsible for some of the 
        fires following this earthquake.

  <bullet> An estimated 500 dispatches were transmitted by midnight of 
        October 17 of which 80 percent were investigations of natural 
        gas odors.

  <bullet> Damage to private and public property in San Francisco is in 
        excess of $3.2 billion (1989 dollars).

  <bullet> The SFFD suffered $327,000 damage to facilities, $80,000 to 
        equipment that was either damaged or lost during the earthquake 
        emergency. Almost $1 million was expended for earthquake-
        related labor and overtime.

  <bullet> The Loma Prieta Earthquake of 1989 measured 7.1 on the 
        Richter magnitude scale (6.9 on the Moment magnitude scale).

    Of both immediate and long-range concern to the SFFD, as a result 
of the 1989 Loma Prieta Earthquake, is the excessive damage from earth 
shaking in the Marina District, South of Market area and portions of 
the Inner Mission District where, in places, severe liquefaction 
occurred which damaged water mains and structures. There was also 
liquefaction on Treasure Island, which is within the city limits of San 
Francisco. Further, in addition to the collapse of two decks of the San 
Francisco-Oakland Bay Bridge, there was near-failure of a westerly 
portion of the structure which also lies within the jurisdiction of the 
SFFD.
    The U.S. Geological Survey wrote, ``Areas underlain by thick 
deposits of water-saturated unconsolidated sand and mud were not only 
strongly shaken but were also affected by compaction and loss of 
strength in sediment that liquefied the shaking; many of these same 
areas experienced similar processes in the 1906 earthquake.''
    The USGS also reported, ``Events of magnitude 7 or larger, each 
with a probability of 20 to 30 percent . . . are expected . . . at 
three locations in Northern California. (The locations in Northern 
California are the San Francisco segments of the San Andreas fault and 
the northern and southern segments of the Hayward fault in the East 
Bay.) A magnitude of 7 shock on any of these fault segments will 
probably cause considerably more damage than the recent Loma Prieta 
event because of their proximity to larger population centers.''
    On July 20, 1990, the USGS revised upward the probability factor 
for a Richter-magnitude 7 event to 67 percent by the year 2020 
(Magnitude 6 event 80 percent by the year 2030) is inevitable.
    Of significant concern to the SFFD is the large number of freeway 
viaducts which transverse San Francisco, and were damaged during the 
earthquake.

SFFD Planning Review
    This earthquake required a city-wide, multi-agency response. In 
this case, the SFFD's day-to-day experience in handling large-scale 
emergencies was of value in the initial response to the disaster. On-
duty and recalled personnel were able to expand normal operations to 
effectively deal with the disaster, despite numerous obstacles. 
However, planning must be strengthened before a larger earthquake 
strikes San Francisco.
    The major areas of concern are:

  <bullet> Familiarity and understanding of the SFFD Disaster 
        Operations Plan and the CCSF Emergency Operations Plan.

  <bullet> The SFFD's current procedures for coordinating response of 
        the command staff, companies, bureaus, reserve personnel, and 
        recalled personnel.

SFFD Planning Recommendations

  <bullet> The SFFD Disaster Plan should be revised and expanded to 
        allow for the best coordination in large-scale disasters. 
        (Revised 1999 and currently under revision).

  <bullet> The SFFD Disaster Plan should cover all possible 
        contingencies and have accompanying checklists for practical 
        and efficient application.

  <bullet> The SFFD annexes in the CCSF Emergency Operations Plan 
        should be reviewed and updated.

  <bullet> Mutual Aid agreements and plans should be reviewed and 
        updated. These plans should reflect the concern that mutual aid 
        during an earthquake disaster may not reach San Francisco for 
        up to 72 hours. (It should be noted the in its' 140 year 
        history, the SFFD has never utilized mutual aid from an outside 
        fire agency.)

  <bullet> Exercises and orientation sessions based upon the SFFD 
        Disaster Operations Plan should be part of an on-going training 
        program.

SFFD Apparatus and Equipment Review
    The majority of the apparatus that responded to emergency calls 
during the earthquake period performed well. Very little difficulty was 
noted with first-line apparatus, and the Bureau of Equipment made 
necessary repairs to keep apparatus in running condition. However, 
deficiencies were noted with reserve equipment:

  <bullet> Reserve engine, trucks and some specialized apparatus are 
        old and are no longer reliable. This condition still exists 
        today.

  <bullet> There was an insufficient number of relief or reserve 
        apparatus. This condition still exists today.

  <bullet> There is insufficient five-inch hose. This condition exists 
        today. Currently there are 3 miles of five-inch hose available; 
        100 miles are required.

  <bullet> There is an insufficient amount of heavy rescue and urban 
        search-and-rescue equipment.

  <bullet> Apparatus from the SFFD Museum was placed in-service to 
        transport firefighters.

  <bullet> There was an insufficient number of self-contained breathing 
        apparatus and hand-held radios.

SFFD Apparatus and Equipment Recommendations

  <bullet> The reserve fleet of engines, trucks and rescue units should 
        be expanded.

  <bullet> A transportable cache of search-and-rescue equipment should 
        be acquired for both SFFD and volunteer use.

  <bullet> The inventory of equipment for in-service apparatus should 
        be expanded to allow for the influx of recalled personnel to 
        effectively operate.

SFFD Water Supply Review
    The auxiliary water supply system (AWSS) was designed to protect 
San Francisco from fires following the 1906 earthquake beginning in 
1908, and expansion continues at this time.
    The lower zone, which supplies water by gravity to hydrants from 
sea level to 150 feet elevation, suffered five breaks in the South-of-
Market Area because of liquefaction and lateral earth spread.
    The upper zone of the AWSS, however, functioned normally through 
the earthquake period, and was used to suppress earthquake-caused 
fires.
    Two pump stations associated with the AWSS functioned as designed 
and were additionally prepared to pump saltwater into the system. 
Further, as envisioned, the SFFD Fireboat Phoenix supplied saltwater to 
large-diameter hose and associated valves at the Marina District fire.

  <bullet> Breaks in the domestic mains in the Marina District severely 
        hampered fire suppression operations.

  <bullet> One 75,000-gallon cistern at Fifth and Harrison streets 
        developed a leak at the cold joint between roof and sidewall 
        due to earthquake damage and lost 20 percent of its water.

  <bullet> Falling structures destroyed one high pressure hydrant and 
        damage another.

  <bullet> Placing the utility and valve units out-of-service hampered 
        the SFFD's ability to quickly close off leaks in the high 
        pressure system.

SFFD Water Supply System Recommendations

  <bullet> Damage assessment of the high pressure system must be 
        accomplished quickly to allow restoration of water service for 
        fire suppression purposes. Technical improvements such as 
        seismic valves to be installed, as required by the 1986 bond 
        issue, may improve the system's survivability during major 
        earthquakes.

  <bullet> The use of large-diameter hose and associated valves should 
        be expanded, with a commensurate increase in the number of hose 
        tenders and the amount of five-inch hose and associated valves.

  <bullet> Status of the SFFD Fireboat Phoenix should be clarified. 
        Both the Phoenix and its' sister ship, the Guardian, are over 
        50 years old and only one vessel is staffed at any given time.

  <bullet> In-service firefighters should be trained in the emergency 
        operation of the high pressure system valves to be able to 
        quickly isolate breaks.

SFFD Facilities Review
    The majority of SFFD buildings sustained only minor damage during 
the earthquake, and none collapsed or were condemned. All facilities 
were fit for use immediately after the earthquake. SFFD facilities have 
been undergoing seismic upgrading since the 1950s and the survivability 
of these structures can be credited to many years of earthquake 
planning.
    The October 1989 earthquake did, however, expose weaknesses in 
planning for the long-term use of these structures following a major 
disaster:

  <bullet> There are no formal procedures in the SFFD Disaster 
        Operations Plan to determine when a fire station can or should 
        be reoccupied following an earthquake.

  <bullet> Some stations still have no generators for long-term 
        operations during disasters.

  <bullet> There are no supplies for supporting personnel during long-
        term disasters. There is no food, water, or search-and-rescue 
        equipment within the stations to support major operations.

  <bullet> A plan to notify on-duty personnel of family status 
        following an earthquake should be formalized.

SFFD Facilities Recommendations

  <bullet> The existing earthquake repair and retrofitting projects 
        should be accelerated.

  <bullet> Installation of generators at all SFFD facilities should be 
        accelerated.

  <bullet> Plans should be developed to provide disaster supplies to 
        all SFFD facilities for the support of personnel during long-
        term emergencies.

SFFD Emergency Recall Signal Review
    Imaginative use of the television and radio broadcast media and the 
Emergency Broadcast System (EBS) in transmitting the Emergency Duty 
Recall Signal, and the ingenuity displayed by recalled personnel 
returning to San Francisco despite damaged freeways and fallen bridges, 
was outstanding. However, the disaster did highlight weaknesses in 
recall procedures:

  <bullet> The Emergency Duty Recall Signal is dependent upon the 
        telephone system and staff to make the calls.

  <bullet> Transportation alternatives for recalled personnel were not 
        sufficient given the size of the disaster.

  <bullet> Plans which called for helicopter transportation from Marin 
        County (Hamilton AFB) did not work.

  <bullet> Plans for use of the telephone system for personnel recall 
        should be examined.

SFFD Emergency Recall Signal Recommendations

  <bullet> Plans for emergency transportation of recalled personnel 
        into San Francisco should be revised.

  <bullet> Agreements should be drawn up with available carriers such 
        as ferry boat operators and helicopter services.

  <bullet> The current Emergency Duty Recall Signal notification system 
        should be reviewed and updated in its entirety.

  <bullet> A new Emergency Duty Recall notification plan should become 
        part of on-going, in-service training.

SFFD Training Review

  <bullet> This disaster exposed the need for better disaster training. 
        Cross-training with CCSF employees, the public and SFFD 
        personnel in individual, group or cooperative disaster 
        operations was lacking.

  <bullet> Those firefighters with formal rescue systems training were 
        few in numbers.

  <bullet> The psychological effects of a disaster upon the public and 
        emergency workers left many persons feeling they had not been 
        prepared for this disaster.

SFFD Training Recommendations

  <bullet> Urban search-and-rescue and heavy search-and-rescue training 
        should be obtained for all field personnel and training staff. 
        Currently, over 300 members have received this exposure.

  <bullet> Members of the SFFD should receive training in the 
        psychological effects of disasters upon the public, other 
        emergency workers, and themselves.

SFFD Volunteer Operations Review
    Hundreds of citizen volunteers assisted the SFFD at the Marina 
District fire, and the collapse of a building at Sixth and Bluxome 
streets. Some, acting under the direction of SFFD members, were 
instrumental in rescue and fire suppression operations. Clearly, the 
organization and direction of volunteers must be addressed:

  <bullet> Some citizens, at their own initiative, assisted in search-
        and-rescue operations, fire suppression, and traffic control. 
        Many others stood by, ready to help, but were not used.

  <bullet> 15 of 40 members of the SFFD Reserves reported for duty at 
        various locations.

SFFD Volunteer Operations Recommendations

  <bullet> The SFFD Reserve should be expanded and its mission 
        redirected away from purely suppression-oriented activities. 
        The Charter authorizes the SFFD 800 sworn Reserve positions.

  <bullet> The SFFD Reserve should be become Emergency Response Teams 
        and trained in emergency first-aid, light rescue, limited 
        suppression activities, and community organizing (Neighborhood 
        Emergency Response Teams, aka NERT, which is a FEMA Compliant 
        Emergency Response Team).

  <bullet> All firefighters should be trained in the direction and 
        supervision of citizen volunteers during disasters.

SFFD Communications Review
    Central Fire Alarm Station (CFAS) suffered minimal damage during 
the earthquake, because the building had been seismically strengthened, 
and dispatch consoles, status boards, and other equipment were anchored 
as a precaution against earthquake damage. Similarly, components of the 
SFFD telephone, street telegraph, and radio systems had also been 
seismically strengthened by the CCSF Department of Electricity during 
the past 10 years.
    Even with the overwhelming call volume and the drastically 
increased dispatch load, SFFD dispatchers were able to fulfill almost 
all calls for service, including Special-Call assistance to the 
Division of Airports, initiation and transmission of the Modified 
Assignment Response and Emergency Duty Recall signals, coordination of 
ambulance responses as well as the handling of emergency service 
requests from other CCSF agencies.
    At the same time, Central Fire Alarm Station began to serve as the 
Emergency Operations Center, with a commensurate increase of staffing 
from other CCSF agencies.
    There were however, still several problem areas that are to be 
examined:

  <bullet> The rising demand for fire service caused the computer aided 
        dispatch (CAD) to overload, and it became necessary for 
        supervisory personnel to shut-down a portion of the computer 
        system to maintain other functions of the communication system.

  <bullet> The radio system became overloaded because of the excessive 
        number of dispatches, calls for assistance and excessive 
        narrative messages. As a result, delays occurred in the 
        dispatch of calls and handling of field request for assistance.

  <bullet> Inadequate facilities for the Emergency Operations Center 
        located within CFAS.

SFFD Communications Recommendations

  <bullet> Replace the CAD system that was installed in 1974 (1994 
        Voter approved 9/11 Capital Improvements created the Emergency 
        Communications Department which consolidates all Fire/Police/
        Medical dispatch functions).

  <bullet> Expand the number of emergency radio frequencies for use 
        during disasters.

  <bullet> Update communications procedures manual to impose better 
        procedures upon dispatchers and field units.

  <bullet> Clearly separate the EOC functions from the SFFD 
        communications (now the Emergency Communications Department) 
        functions so personnel working within EOC will not impact SFFD 
        operations.

  <bullet> Develop procedures and protocols for disaster response to 
        include:

        1. Establishment of a system to prioritize response to 
        incidents.

        2. Implement the Incident Command System (ICS).

        3. Predetermined personnel assignments for disaster response.

        4. Expanded exercises and training at the Emergency 
        Communications Department to include scheduled and unscheduled 
        drills.

        5. Enhance the ability to communicate with the San Francisco 
        Police Department as well as other agencies.

    Resources:
        City and County of San Francisco
        San Francisco Fire Department
        San Francisco Fire Commission
        San Francisco Historical Society
        Chief Frederick Postel
        David Fowler
        Dennis Smith
        International Association of Firefighters
        San Francisco Firefighters Local 798
        United States Geological Survey

    Senator DeMint. Thank you. I'm very impressed. I would 
guess that San Francisco is certainly one of the most prepared 
cities in the country. But even with that I think we understand 
that despite the publicity and how hard you've tried, I think 
the statistic is 6 percent of citizens are prepared, and you 
hope to move that up to 25 percent, which is a goal, if it 
could be attained, would be great. And then I think if you had 
25 percent of the population prepared, you'd have a lot of 
people prepared to help their neighbors who weren't prepared in 
a situation. So that sounds good.
    But we know, the majority of citizens are not going to be 
prepared. We saw that in Katrina; we've seen it other places. 
That the state, and the local, and Federal Governments have to 
be prepared to take up the slack.
    I'd just like to ask some questions, first, about the 
partnerships and how those are set up. Ms. Conroy, you've 
talked about them, Mr. Brooks. I'm interested in the ability of 
the partnerships, particularly the three-city area, which was 
the big problem in New Orleans, all the first responders were 
basically wiped out, and it was very difficult to get support 
in from other areas where they did not have regional networks, 
at least regional networks that worked.
    Do we have a system of good communication between the 
partners, a transportation system that could reach San 
Francisco in the event the bridges were out, where supplies 
could come by air, by water, and do we have the supply centers, 
in effect, that would be ready to get shelter, food, and water. 
Do we have any plans with food distributors, supermarkets, or 
whatever, to create a public-private delivery system of food?
    So let's just talk for a second about this partnership, the 
communication, the transportation, the supplying, and at what 
status is that?
    Ms. Conroy, I'll start with you.
    And then, Mr. Brooks, if you or any of the other witnesses 
have ideas, I'd like to hear them.
    Ms. Conroy. Well, as my colleagues here know, there's in 
the State of California a very highly developed system of 
mutual aid, which is used on a regular basis, whether it's law 
enforcement or fire, throughout the state.
    The way that the Emergency Management System works in the 
City and County of San Francisco, through the state, assistance 
will be requested through the REOP, the Regional Emergency 
Operations Center, of the state OES, to start bringing in 
mutual aid and start bringing in those assets.
    That's really how the structure is in the State of 
California, which is rather sophisticated. The State of 
California is rather sophisticated after so many wildfires, 
earthquakes, and those types of things.
    The Standardized Emergency Management System, which has 
been adopted almost in its entirety as NIMS, the National 
Incident Management System for the Nation, was modeled on SEMS, 
which is the California standard.
    Senator DeMint. Do we have the ability to shelter and feed 
tens of thousands of people who will be homeless?
    Ms. Conroy. In San Francisco we've identified shelter sites 
for 40,000 to 50,000 within San Francisco. Again, if it's a 
catastrophic earthquake, some of those shelter sites may not be 
available. That's part of this regional plan, is really 
starting all of the counties identifying their sites for these 
different shelters.
    So if something was a San Francisco-centered event we could 
surge into Marin County, Alameda County, or to San Mateo 
County, working very closely with Red Cross and others on these 
different issues.
    Senator DeMint. Mr. Brooks, you may want to comment.
    But there's not a stockpile of temporary shelters that 
could be moved in? Is there a stockpile of daily rations, or 
things we have that are ready to go, or how long would it be 
before we could get that here?
    Mr. Brooks. Well, I'll first talk about shelters. We have a 
series of shelters located throughout the Greater Bay Area, and 
even out into the Central Valley, so that we can move people if 
we can get them there, if the roads are open. So we feel pretty 
good about the shelters.
    We are also working with the interfaith councils to help 
churches become, quote, ``prepared congregations and faith-
based organizations that can also serve as shelters.'' They're 
very willing to, and did a great job in the aftermath of 
Katrina in helping us to get many of the evacuees housed.
    In terms of food, well, supplies in general. As I mentioned 
earlier, Chevron has been wonderful in providing a large 
warehouse space where we have a lot of our disaster supplies, 
cots, blankets, and things like that.
    The national organization is just expanding significantly 
the kind of contracts we have with a number of the food supply, 
caterers and the food industry, to make sure we have heater 
meals, meals ready to eat, and much larger supplies of food in 
our hands so that we can make sure that people are taken care 
of; their immediate needs are going to be met for food, 
clothing, and shelter in the aftermath of a catastrophic event.
    Senator DeMint. OK. Mr. Cluff.
    Mr. Cluff. Chairman DeMint, I would like to comment on 
PG&E's activities. We also, and so do all other utilities, have 
mutual aid programs. And we get to exercise them every time 
there's a storm or some other smaller disaster, not like a big 
catastrophic earthquake. And we all work with each other. And, 
if needed, we can have massive help on the way from clear 
across the country.
    PG&E supplied electric folks to go to Katrina, to help in 
that effort, for example.
    Senator DeMint. Do you have the ability to get it in here, 
assuming road routes were blocked or destroyed?
    Mr. Cluff. Well, we have our own emergency contingency 
plan. We have emergency contracts with helicopter companies for 
big helicopters and also ferry boats. In 1989, we brought ferry 
boats down from Seattle to help move PG&E equipment around the 
Bay Area. So we've thought about this. That's one of our 
biggest vulnerabilities, is given an earthquake right now 
before the Bay Bridge, the one that's being built, the 
cantilevered section, that would be a mass of twisted steel in 
the Bay, the old one. And that would really cripple the ability 
to get around the Bay Area as we experienced for a little over 
a month in 1989. So PG&E has an emergency plan to help in our 
communication efforts.
    I think this kind of brings us down to the recommendation 
that Senator Boxer made about FEMA. I think a lot of these 
plans were coming out of FEMA's Predisaster Mitigation Program. 
And the funding has been taken out of that.
    I would second her recommendation to have FEMA out of 
Homeland Security , and restore the money that's needed in 
predisaster mitigation efforts that would help in the 
communication and stockpiling equipment.
    Senator DeMint. Let me ask a question about communication. 
One of the issues that we've seen after disasters, particularly 
in Katrina's, is that individual citizens no longer had the 
ability to communicate. Their phones were out; their cellphone 
batteries were dead.
    And we could save, I think, countless lives if people had 
the ability to call, ask for help. And it's something we've 
actually worked on in this committee. We've got what we call an 
``All-Hazards Alerts System'' that passed out of Committee that 
would encourage cellphone companies and BlackBerry, Internet, 
and all places to do what the Weather Service has done for 
years and create immediate information of which way to go, 
which roads were blocked, where were the dangers.
    And after an earthquake I would think that would be 
particularly important. It's something I hope we can move 
through the Congress and continue that.
    But in the meantime are there plans to give people the 
ability to communicate in the event that cell towers are down. 
Citizen communication post-earthquake is what I'm interested 
in. So any thoughts on that?
    Yes.
    Mr. Cluff. Yes, I could speak to that. When I was Chairman 
of the California Seismic Safety Commission, we put together a 
task force to look at this very issue, because a lot of 
cellphone companies sell their equipment saying: ``In a 
disaster this is the only way you'll be able to communicate.''
    Well, what we found in the task force was that more than 50 
percent of the cell sites around the city were on collapse-
hazard buildings. And particularly the big towers that have 
some of the big--that cover a large area, like the Sutro Tower 
off to the west of here, was unstable in an earthquake.
    Well, I can tell you that since that task force came to its 
recommendations a lot of changes have been made. Sutro Tower 
has been upgraded; 780 structural elements of that have been 
replaced so that is not going to fall on the neighbors. And it 
will be able to sustain the communication with massive cell-
site coverage. So that's been corrected.
    But the cell site companies still go out to try to get the 
cheapest supplier, like an unreinforced masonry building that 
for a few dollars they'll let them put their cell site on their 
building. It's still a problem.
    Senator DeMint. I'll yield to Senator Boxer.
    Senator Boxer. Thanks so much, Mr. Chairman.
    Mr. Chairman, I think you raised two very key issues: 
Shelter and communication. And we have to learn from Katrina, 
because we still don't really know why those mobile homes never 
made it to the folks, the 11,000. And, you know, it's so 
frustrating. And that's an area where the Federal Government 
had the equipment, and yet people aren't able to use these very 
expensive mobile homes. So that's something I'd love to work 
with you on, and maybe we can figure out more specifically what 
exactly went wrong, and how we can make sure it doesn't happen 
again.
    On communication, when I mentioned the two things in my 
action plan were--making FEMA an independent agency was one, 
and making sure FEMA had a plan to augment our state and local 
folks, all the good work you're doing. And you are, I agree 
with the Chairman, you are all to be commended for everything 
you're doing.
    The other piece I forgot to mention is this ability, and I 
share your view on individuals because we've worked on that 
together, but the ability of, say, the San Francisco Fire 
Department to speak to the Police Department is still a 
problem; is that right, Captain?
    Mr. Vannucchi. If I could address that, Senator.
    Senator Boxer. Please.
    Mr. Vannucchi. There are several channels open, but they 
don't allow for communication. But in the event of a major 
disaster, and I could speak as having been an active 
firefighter during the 1989 Loma Prieta Earthquake, the 
channels are overwhelmed. And emergency traffic just doesn't 
come across as quickly and as rapidly as you need because of 
the lack of channels available.
    But if I could speak to communication also, Senator.
    Senator Boxer. Yes.
    Mr. Vannucchi. One of the jewels in the crown that we've 
learned from the 1989 Earthquake in 1990, as Ms. Conroy spoke 
to was--our Neighborhood Emergency Response Teams are also 
known as NERT, and they're 11,000 strong, trained primarily by 
firefighters. And they possess the ability to communicate. 
They're self-activating in the event of a major disaster. They 
report to emergency regional disaster areas which are 
controlled by a battalion chief at the Fire Department.
    And they have with them an alternative communication system 
which are Federal radio bands, and also the ability to have 
actual runners where, which I prefer, a face-to-face 
communication with a battalion chief that commands that 
district.
    So information flows quite readily and easily that way. And 
I think one of the most important things in a disaster is to 
keep the citizens informed, and we can do that.
    Senator Boxer. Well, you're talking about face-to-face.
    Mr. Vannucchi. Correct. But they also have what they call 
an ace----
    Senator Boxer. But we're talking about an earthquake. Look 
at what happened in 9/11. People couldn't be face-to-face. They 
couldn't talk to each other. And I just want to read your 
statement here.
    Mr. Vannucchi. Please.
    Senator Boxer. You said, ``Although the Emergency 
Communications Department boasts state-of-the-art technology, 
the San Francisco Fire Department still does not possess the 
ability to communicate with the San Francisco Police Department 
or outside agencies with the exception of one channel.''
    And the reason I'm stressing this is since 9/11 we've all 
been working together in the Senate to figure out a way that we 
can help fund interoperable communications. If ever there was 
something that we needed to do, in my opinion, it is this. We 
have made many attempts; we've come close. But not only do we 
need to work on the ability of a child to call his mom or dad--
that's essential--but we also need to make sure that these 
various emergency departments can speak with one another, 
whether it's even here, police to fire, or, as Ms. Conroy said 
is so important, regionally.
    Now I've been helping some of the Bay Area regional 
entities by getting them some funding, those famous earmarks 
that keep getting reported as being so awful. I'm so proud of 
these earmarks I've been able to get to help one agency talk to 
another, and a third, and a fourth.
    Because it seems to me, Ms. Conroy, if you are in a 
circumstance where you must call on your regional partners, it 
might be difficult if you--I would put it in a positive way--
wouldn't it be easier if you had interoperable communications 
in a region?
    Ms. Conroy. Most definitely. Our 2006 UASI package that 
went forward to the Department of Homeland Security included a 
$107 million request for the Bay Area for that purpose.
    One of the major things we've been working on is a 
microwave backbone for the entire Bay Area, so that there could 
be gateways there for the movement of both voice and data 
communication.
    With regard to the 800-megahertz system in San Francisco, 
we have been investing in that program, both from the UASI 
standpoint and general fund dollars to make it a more robust 
program, mobile repeaters. The police cars are also going to 
keep their old low-band system so we'll have a redundant 
system. And we're adding other systems to the fire rigs of--is 
it fire white or fire scope, Captain?
    Mr. Vannucchi. Fire white.
    Ms. Conroy. Fire white.
    So there is a separate communication system that's 
redundant. And there's a lot of new fail-safe technology for 
the 800-megahertz system as well.
    Senator Boxer. Did you want to say something, Mr. Brooks, 
about interoperable?
    Mr. Brooks. Well, very simply interoperability is a very 
important concept. It requires a significant financial 
investment.
    Senator Boxer. It does.
    Mr. Brooks. But it's definitely worth it. It's something, 
if there was a take-away, that should be invested in.
    The other thing is, you know, bless those nerds and others 
who are amateur radio people because--I've been in this 
disaster business since 1975--and they have been the one way 
that was reliable and communicating ever since I've been in 
disaster in places like the Caribbean and places all around the 
world. It works when everything else, as high-faluting as it 
might be, fails.
    Senator Boxer. Mr. Chairman, I would like to sum up, if I 
might at this point?
    Senator DeMint. Yes.
    Senator Boxer. I just want to say to the four of you, 
you've been very helpful to us in so many ways. And that's not 
just rhetoric. I want to say what I learned from you. And I 
want to also say those of you who supported my views on making 
FEMA a separate agency, thank you for that, as well as the idea 
of interoperability which I think is so key.
    Let me just say what I've taken away. First, Mr. Cluff, on 
the USGS, a major study, this seems to me, Mr. Chairman, to be 
something maybe we could work on. Maybe USGS needs some funding 
to do this.
    Mr. Cluff, do you think they do?
    Mr. Cluff. It's not ``maybe.'' Yes, they need about----
    Senator Boxer. OK.
    Mr. Cluff.--$200 million extra to take on these--they're 
the best scientific----
    Senator Boxer. Right.
    Mr. Cluff.--organization in the world.
    Senator Boxer. Right.
    Mr. Cluff. And we need to help them. They haven't been 
funded.
    Senator Boxer. Well, I think the beauty of that investment 
would be that we would know what buildings are the most 
vulnerable, what bridges are the most vulnerable.
    Mr. Cluff. Yes.
    Senator Boxer. We would know--we would have a roadmap--if 
we've got time to 2030. Who knows? We have a day or a hundred 
years. We don't know.
    Mr. Cluff. Right.
    Senator Boxer. But, if we had a guidepost to where our 
vulnerabilities are, we would know where to then go with 
retrofitting dollars, and so on. So I would love to talk to my 
Chairman about the possibilities of working together on that. 
And maybe we could come up with a funding package that would be 
a little bit from here, there, and there. And we can talk about 
that.
    I think, for Ms. Conroy, what I thought was so interesting 
is the notion of making all San Francisco employees emergency 
workers. And I asked my staff to check. We have got almost 
20,000--this is the number I'm getting--Federal employees in 
the Bay Area. That does not include postal, defense, or people 
who work at the courts for whatever reason they didn't include 
that. So we have more than this. We have so many people who 
work for the Federal Government.
    And if there was a way maybe to have FEMA train them, just 
as you have trained your people, that seems to me to be a very 
cost-efficient way of getting people who know what they're 
doing in an emergency, which is so critical, that helping hand. 
This is where it is at in moments like that. That's another 
idea I took away.
    Mr. Brooks, your idea, of course, Red Cross's idea of 
getting our families ready to do three things: A family plan, a 
supply kit, and first aid training is something. I'd like to 
see our Federal Government do some public service announcements 
about this, because we do many of these announcements for a ton 
of different things, and we have a budget for these 
announcements.
    I would love to work with my Chairman because, by the way, 
this is national; this isn't just for San Francisco. This is 
for any emergency.
    Mr. Brooks. That's right.
    Senator Boxer. You need to have a family plan. You need a 
supply kit. You need to be trained in first aid. We could do 
this all across the country and raise that 6 percent number, if 
we did this right, to a way higher number.
    And last, I just want to say to the Captain that, what I 
found compelling in your testimony is the fact that you really 
do need more and better equipment, including the 
interoperability with other equipment as well. I just think we 
need to make sure that we do our part to help you with that, 
because, again, you're going to respond in a terror attack; 
you're going to respond in a natural disaster.
    So it is, as Ms. Conroy says, it is a seamless type of 
plan. So certainly we, in the Federal Government, have an 
interest in helping both mitigate a natural disaster or, God 
forbid, a terror attack.
    And so I would like to continue to work with you, because I 
have in the past, on making sure that our firefighters who 
showed their bravery, their heroism, and everything else on 
that day which we'll never forget. You can't be shortchanged. 
It's insane. We count on you. We rely on you. We respect you. 
And we have to show that, not just say that.
    So, Mr. Chairman, I just want to say to you: Thank you for 
this opportunity. I'm so glad that we serve on this committee 
together. I know you and I don't agree on everything in the 
world; that's true. That's the way America is, you know. But 
there are a few times, I think, when we come together. And if 
we come together I think it's a powerful message.
    And I think we're certainly together in our conviction that 
we need to be prepared, and we need to move forward in as 
seamless a way as we can to mitigate any future disasters.
    So thank you for being here. It means a lot to me. Thank 
you very much.
    Senator DeMint. Thank you, Senator.
    And I think definitely one good idea today, if we prepared 
all the Federal, state, and local government employees in San 
Francisco----
    Senator Boxer. Right.
    Senator DeMint.--you would have your 25-percent goal and 
more. So that's something we really need to think about----
    Senator Boxer. Right.
    Senator DeMint.--how we can equip and train folks that we 
might have a little bit to say on what they do.
    So one question before I sum up. And, Mr. Cluff, you 
mentioned that the levees for the water supply would fail in 
the event of a major earthquake.
    Mr. Cluff. Yes, Mr. Chairman.
    Senator DeMint. Just let me add to that. I understand from 
Senator Boxer that the water supply for a large part of the 
state comes from this part of the state. So you're telling me 
we can expect the water supply to fail in the event of a major 
earthquake. And what does that have to do with the redundant 
water supply. The pipes are no good if the water is not flowing 
through them. So just give me a little bit of a help here on 
water.
    Mr. Cluff. Well, the point is that we all knew, as we've 
talked about, about the problems in New Orleans. And given 
Katrina, the Department of Water Resources sent a team from 
their engineers and scientists, and UC Berkeley engineers and 
scientists went down to look at the quality of the dikes and 
levees to compare them with the Delta Levees.
    And they came back and they said, ``The levees in New 
Orleans are far better engineered because the ones in the Delta 
were not engineered. They were just farmers dredging and 
stacking mud and sand on top of sand to create the levees,'' 
and that they have been talking about a Katrina disaster in the 
Delta for a long time.
    And so given an earthquake, that will be the event that 
could hit many of the levees all together and, particularly 
with the saturated conditions like we have today, that would be 
a massive failure. And Governor Schwarzenegger has already 
submitted, I think, to the Federal Government his plan for 
starting on mitigating and improving the capacity of those 
levees to withstand an earthquake and be improved. I've 
forgotten the exact number, but I'm sure that's part of the 
record.
    Senator DeMint. Well, I know all of you probably have other 
functions to go to related to the celebration, remembrance 
today. And I want to add my thanks to Senator Boxer for the 
really wonderful testimony today.
    And I am encouraged at the preparation, the insight. And I 
think we can work together at the Federal level to uphold our 
part of the support that is needed here for San Francisco, 
throughout California, and the West Coast.
    So thank you for being here, and I appreciate very much 
your testimony and cooperation, and I look forward to working 
with all of you in the future.
    Senator Boxer. Thank you.
    [Whereupon at 11:37 a.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
